No. ______________
(Capital Case)
In the

Supreme Court of the United States
QUINTIN PHILLIPPE JONES, Petitioner,
v.
BOBBY LUMPKIN, Respondent.
On Petition for Writ of Certiorari to the
Texas Court of Criminal Appeals

PETITION FOR WRIT OF CERTIORARI

APPENDIX

TABLE OF APPENDIX
Order of the Texas Court of Criminal Appeals dated May 12, 2021...........App.001-002
Certified copy of the Indictment...................................................................App.003-005
Certified copy of the Capital Judgment........................................................App.005-007
Certified copy of the Jury Charge (guilt-innocence)....................................App.008-014
Certified copy of the Jury Charge (punishment)..........................................App.015-019
Certified copy of the Order Setting Execution Date....................................App.020-024
Certified copy of the Return of the Order Setting Execution Date.....................App.025
Certified copy of the Death Warrant............................................................App.026-027
Certified copy of the Duplicate Order Setting Execution Date....................App.027-032
Certified copy of the Mandate, Texas Court of Criminal Appeals......................App.033
Affidavit of Dr. John Edens, executed April 19, 2021..................................App.034-059
DeMatteo, D., et al, (2020). Statement of Concerned Experts On the Use
of the Hare Psychopathy Checklist-Revised in Capital Sentencing to Assess
Risk for Institutional Violence. Psychology, Public Policy, and Law...........App.060-072
Excerpts from United States v. Sampson, No. 01-10384-LTS (D.Mass.,
DKT. 2459, Sealed Memorandum and Order on Rule 12.2 Motions,
Sep. 2, 2016) (Order unsealed by DKT. 2979, May 24, 2017)......................App.073-085
Intellectual Summary report of Jones, May 7, 1987, Fort Worth ISD..............App.086
Frank M. Gresham, Interpretation of Intelligence Test Scores in
Atkins Cases: Conceptual and Psychometric Issues, Applied
Neuropsychology, 16: 91-97 (2009)...............................................................App.087-093
Frank M. Gresham & Daniel J. Reschly, Standard of Practice
and Flynn Effect Testimony in Death Penalty Cases, Intellectual
and Development Disabilities, Vol. 49, No. 3: 131-140 (June 2011)............App.094-103

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-57,299-02

EX PARTE QUINTIN PHILLIPPE JONES, Applicant

ON APPLICATION FOR POST-CONVICTION WRIT OF HABEAS CORPUS
AND MOTION TO STAY THE EXECUTION
FROM CAUSE NO. C-1-W011962-0744493-B
IN CRIMINAL DISTRICT COURT NO. 1
TARRANT COUNTY
Per curiam.
ORDER
We have before us a subsequent application for a writ of habeas corpus filed
pursuant to the provisions of Texas Code of Criminal Procedure Article 11.071 § 5, and a
motion to stay Applicant’s execution.1
In February 2001, a jury convicted Applicant of the September 1999 intentional

All references to “Articles” in this order refer to the Texas Code of Criminal Procedure
unless otherwise specified.
1

App.001

Jones–2
killing of his elderly great aunt committed in the course of robbing or attempting to rob
her. See T EX. P ENAL C ODE § 19.03(a). Based on the jury’s answers to the special issues
submitted pursuant to Article 37.071, the trial court sentenced Applicant to death. Art.
37.071 § 2(g). This Court affirmed Applicant’s conviction and sentence on direct appeal.
Jones v. State, 119 S.W.3d 766 (Tex. Crim. App. 2003). We also denied relief on
Applicant’s initial writ of habeas corpus application. Ex parte Jones, No. WR-57,299-01
(Tex. Crim. App. Sept. 14, 2005) (not designated for publication).
On May 6, 2021, Applicant filed in the trial court the instant writ application in
which he raises three claims. In his first two claims, Applicant asserts that his death
sentence was obtained in violation of the Fourteenth Amendment’s due process clause
because it was based on false and misleading scientific evidence. In his third claim,
Applicant asserts that he may be intellectually disabled and, therefore, cannot
constitutionally be executed.
We have reviewed the application and find that Applicant has failed to make a
prima facie showing on any of his allegations. Therefore, the allegations do not satisfy
the requirements of Article 11.071 § 5. Accordingly, we dismiss the application as an
abuse of the writ without reviewing the merits of the claim raised. Art. 11.071 § 5(c).
We deny Applicant’s motion to stay his execution.
IT IS SO ORDERED THIS THE 12th DAY OF MAY, 2021.
Do Not Publish

App.002

:. .

t

L....J

NAME

L....J

,,,/

.

Qu.1N'nrJ PHILL-IPPE ·ooNG,S
O...KA

QUINTON •.JONL=::S

ADD,RESS . 352 1'

BAYLOR·

FT WORTH

B SEX

RACE

... PC

TX

FILED:

HAS,BEEN DETERMINED

Cr!:iF'ITAL MURDER

OFFENSE

DATE 09-11 -99

MAGE 20 DOB

CASE NO.

...

oo .•

..;·:. .'·

00000

07-15-79

(DATE)

09-17-99,

··. :PATE

04

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

BERTHENA BRYANT

I. P.

c. c.
AGENCY

FORT WORTH F'D

OFFENSE NO.

INDICTMENT NO.

'

& MURDER & AGG ,ROgS:-:-SBI· \
& AGG ROBB-BI-ELDER.LY ..t

0744493

IN THE NAME AND BY AUTHORITY OF THE STATE OF TEXAS:

D

99606040

CDC1

. _,.COURT

THE GRAND JURORS OF TARRANT COUNTY, TEXAS, duly elected, tried, empaneled,

sworn and charged to

of offenses committed in Tarrant County, In the

*********
of said County that * *

upon their oaths do present in and to the
.

CRIMINAL DISTRICT COURT NO. 4

QUt NT I t-J - f-1..\ \ LL-i PP6

Clka ·. QUINJON JONES
.. ' \1.

.. and

'

.

&.S

hereinafter called Defendant, in the County of

aforesajd, on or about the

)1

11 TH day of SEPTEMBER 19 99 , did
·-

' .._

.. THEN AND 'rH,ERE INTENTIONAl...L y c. ·.AUSE THE .DEATH OF AN IND:CVIDUAL EiERTHENA' fiRYAN'•. T.,
BY STRIKING HER WITH A DEADLY
TO-WIT: A BASEBALL BATJ THAT IN THE · .
MANNER OF ITS USE OR INTENDED USE WAS CAPABLE OF CAUSING DEATH OR SERIOUS
INJURY, AND THE SAID DEFENDANT WAS JHEN AND THERE IN THE COURSE OF
ATTEMPTING TO COMMIT ROBBERY OF BERTHENA BRYANT,
J

AND IT IS FURTHER PRESENTED IN AND TO SAID COURT, THAT THE SAID
IN THE COUNTY OF TARRANT AND STATE AFORESAID, ON OR ABOUT THE 11TH
DAY
1999, DID THEN AND JHERE INTENTIONALLY OR KNOWINGLY CAUSE THE
DEATH OF AN INDIVIDUAL, BERTHENA BRYANT, BY STRIKING HER WITH A DEADLY WEAPON,
TO-WIT.: A BASEBALL BAT, THAT IN.THE MANNER OF ITS USE OR INTENDED USE .WAS .
CAPABLE OF CAUSING DEATH OR SERIOUS BODILY INJURY,
TWO:

I

. PARAGRAPH TWO: _AND IT IS FURTHER PRESENTED IN
SAID COURT THAT THE SAID
DEFENDANT IN THE COUNTY OF TARRANT AND STATE AFORESAID ON OR ABOUT THE 11TH DAY·
0 SEPTEMBER,
THEN AND THERE
THE INTENT TO CAUSE
dERIOUS BODILY INJURY TO BERTHENA BRYANT, COMMIT AN ACT CLEARLY DANGEROUS TO
HUMAN LIFE, NAMELY, STRIKING HER WITH A DEADLY WEAPON, TO-WIT: A BASEBALL BAT,
THAT IN THE MANNER OF ITS USE OR INTENDED USE WAS CAPABLE OF CAUSING DEATH OR
SERIOUS_iODILY INJURY, WHICH CAUSED THE DEATH OF BERTHENA BRYANT,
COUNT THREE: AND, IT IS FURTHER PRESENTED IN AND TO SAID COURT, THAT 1HE SAID
DEFENDANT, .IN THE COUNTY OF TARRANT AND STATE AFORESAID, ON OR ABOUT THE 11TH
DAY OF SEPTEMBER, 1999, DID THEN AND THERE INTENTIONALLY OR KNOWINGLY, WHILE IN
THE COURSE OF COMMITTING THEFT OF PROPERTY AND WITH INTENT TO OBTAIN OR MAINTAIN
CONTROL OF SAID
CAUSE SERIOUS BODILY INJURY TO BERTHENA BRYANT, BY
STRIKING HER WITH A DEADLY WEAPON, TO-WIT: A BASEBALL BAT, THAT IN THE MANNER
OF ITS USE OR INTENDED USE WAS CAPABLE OF CAUSING DEATH OR SERIOUS BODILY
INJURY,
.

App.003 IN AND TO SAID COURT, THAT
COUNT fOUR: . AND, IT IS FURTHER PRESENTED
(

SAID

11......

-1".· ..

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

THE STATE OF TEXAS VS.' QUINTON JONES
PAGE TWO OF TWO AND FINAL
CAUSE NO. 0744493

.

DEFENDANT,\ IN THE COUNTY OF TARRANT AND STATE AFORESAID, ON OR ABOUT THE 11TH
DAY OF
1999, DID THEN AND THERE INTENTIONALLY OR KNOWINGLY, WHILE IN
THE
OF COMMITTING THEFT OF PROPERTY AND WITH INTENT TO OBTAIN OR MAINTAIN
CONTROL OF SAID PROPERTY, CAUSE BODILY INJURY TO BERTHENA BRYANT A PERSON 65
YEARS OF AGE OR OLDER, BY STRIKING HER WITH A BASEBALL BAT, THAT IN THE MANNER
OF ITS USE OR INTENDED USE .WAS CAPABLE OF CAUSING DEATH OR SERIOUS BODILY
INJURY 1,.-'

Filed (Clerk's use only)

FILED

THOMA$ A. WILDER. DIST. CLERK
TARRANT COUNTY. TEXAS

DEC 011999

Time

AGAINST THE PEACE AND DIGNITY OF THE STATE.

··;.1··.·
'11;:

Criminal District Attorney:;..

App.004

By -

__../-.P-0

JL?!?

Deputy

4

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

CASE NO. 0744493D
THE STATE OF TEXAS

§

IN THE CRIMINAL

VS.

§

DISTRICT COURT ONE OF

QUINTIN PHILLIPPE JONES
aka: QUINTON JONES

§

TARRANT COUNTY, TEXAS

CAPITAL JUDGMENT

On FEBRUARY 14, 2001, this cause was called for trial and the State by her
Criminal District Attorney, Assistants CHRISTY JACK, and BEN LEONARD and the
attorneys for the Defendant, QUINTIN PHILUPPE JONES aka: QUINTON JONES,
Honorables LARRY MOORE and J. REX BARNETT, announced ready for trial; and
the State having made known that it would seek the Death Penalty in this cause and the
Defendant having been heretofore arraigned; and, it appearing to the Court that the
Defendant was mentally competent and the Defendant having been charged in the
indictment with Capital Murder; thereupon, a Jury of good and lawful men and women,
to-wit: Leslie D. Skinner, Foreperson, and eleven others, was duly selected, impaneled
and sworn as the law directs, and the said Criminal District Attorney read to the Jury,
Count One of the indictment herein, and the Defendant entered his plea of Not Guilty
to Count One, of the indictment, hereto; and the Jury, after hearing the evidence, and
being duly charged by the Court, retired to consider its verdict, and after deliberation,
returned into open Court on the 21st day of FEBRUARY, 2001, the following verdict,
to-wit:

VERDICT FORM
We the Jury, find the Defendant, QUINTIN PHILLIPPE JONES aka: QUINTON
JONES, guilty of the offense of Capital Murder, as charged in the indictment.
Signed: J!eJAe ::b. Skinner
Foreperson of the Jury
The parties announced ready for the second phase of the trial, and the Jury,
having heard all the evidence, and being duly charged by the Court, retired to consider
its verdict, and after due deliberation, returned into open court, on the 26TH day of
FEBRUARY, 2001, their answers to the following Special Issues, and their verdict:

App.005

VOLUME 139, PAGE 496A OF CASE NO. 07444930

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

ISSUE NUMBER 1

Do you find from the evidence beyond a reasonable doubt that there is a
probability that the Defendant would commit criminal acts of violence that
would constitute a continuing threat to society?
In your verdict you will
answer "Yes" or "No"

Answer:

YES

ISSUE NUMBER 2
Taking into consideration all of the evidence, including the circumstances
of the offense, the Defendant's character and background, and the personal
moral culpability of the Defendant, do you find that there is a sufficient
mitigating circumstance or circumstances to warrant that a sentence of life
imprisonment rather than a death sentence be imposed?
In you verdict you will
answer "Yes" or "No"

Answer:

NO

VERDICT FORM
We, the Jury, having unanimously agreed upon the answer to the foregoing issues
do hereby return the same into court as our verdict.
Signed: J!e,Ae ::b. Skinner
Foreperson of the Jury
After an individual poll of the Jurors, the Court duly accepted the verdicts and
ORDERED the same to be filed.
The Jury having answered Issue Number One "YES" and Issue Number Two,
"NO", it being mandatory that the punishment be death, the Court assessed the
punishment at Death.
The Defendant, QUINTIN PHILUPPE JONES aka: QUINTON JONES, was
asked by the Court, whether he had anything to say why sentence should not be
pronounced against him, and the Defendant answered nothing in bar thereof;

App.006

VOLUME 139, PAGE 496B OF CASE NO. 07444930

•

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

The Court proceeded, in the presence of the said Defendant, QUINTIN
PHILliPPE JONES aka: QUINTON JONES, and his counsel of record, to pronounce
sentence against him as follows:

Quintin Jones, the jury having found you guilty of the capital murder of Berthena
Bryant, and having returned a unanimous verdict to Issue Numbers 1 and 2, the Court
sentences you to death by lethal injection.
It is, therefore, the order, judgment, and decree of this Court that you be

remanded to the custody of the Sheriff of this county to be delivered to the Institutional
Division of the Texas Department of Criminal Justice, where you shall be continuously
confined until 6:00 p.m. on a date to be determined when the proper. authorities shall
administer lethal injections sufficient to cause your death.

MARCH 5. 2001
Date Signed

App.007

VOLUME 139, PAGE 496C OF CASE NO. 0744493D

dew

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

•

•

NO. 0744493D

THE STATE OF TEXAS

IN THE CRIMINAL DISTRICT

§
§
§
§
§

VS.
QUINTON JONES

COURT NUMBER ONE
TARRANT COUNTY, TEXAS

COURT'S CHARGE
MEMBERS OF THE JURY:
The Defendant,

Quinton Jones,

stands charged by indictment

with the offense of capital murder, alleged to have been committed
on or about the 11th day of September,
Texas.
Our

1999,

in Tarrant County,

To this charge, the Defendant has pleaded not guilty.
law

provides

that

a

person

commits

murder

when

he

intentionally or knowingly causes the death of an individual.
A person commits capital murder when such person intentionally
commits the murder in the course of committing or attempting to
commit the offense of robbery.
A person commits robbery if in the course of committing theft
and with intent to obtain or maintain control of the property of
another,

he intentionally or knowingly causes bodily injury to

another.
In the course of committing theft means conduct that occurs in
an attempt to commit, during the commission, or in immediate flight
after the attempt or commission of theft.
A person commits theft if he unlawfully appropriates property
with intent to deprive the owner of property.
property

is

unlawful

if

it

is

without

the

Appropriation of
owner's

effective

consent.
Appropriation, or appropriate, means to acquire or otherwise
exercise control over property other than real property.
Property

means

tangible

or

intangible

including anything severed from land;

or a

personal

property

document,

including

money, that represents or embodies anything of value.
Deprive means to withhold property from the owner permanently
or for so extended a period of time that a major portion of the

FILED

1

THOMAS A WILDER, Dlst ClERK
TARRANT COUNTY, TEXAS

FEB 21 2001
App.008

nme

'3<?

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

•

•

value or enjoyment of the property is lost to the owner.
Consent means assent in fact, whether express or apparent.
Effective

consent

includes

consent

authorized to act for the owner.

by

a

person

legally

Consent is not effective if

induced by force, threat or fraud.
Coercion means a threat, however communicated, to commit an
offense.
Owner means a person who has title to the property, possession
of the property, whether lawful or not,

or a greater right to

possession of the property than the actor.
Bodily injury means physical pain, illness, or any impairment
of physical condition.
Serious bodily injury means bodily injury that creates a
substantial risk of death or that causes death, serious permanent
disfigurement, or protracted loss or impairment of the function of
any bodily member or organ.
A deadly weapon means anything manifestly designed, made, or
adapted for the purpose of inflicting death or serious bodily
injury.
A person acts intentionally, or with intent, with respect to
the result of his conduct when it is his conscious objective or
desire to cause the result.
With

respect

to

the

offense

of

murder,

a

person

acts

knowingly, or with knowledge, with respect to the nature of his
conduct or to a result of his conduct when he is aware of the
nature of his conduct or that the circumstances exist.

A person

acts knowingly, or with knowledge, with respect to the result of
his conduct when he is aware that his conduct is reasonably certain
to cause the result.
You are further charged as the law in this case that the State
is not required to prove the exact date alleged in the indictment,

but may prove the offense, if any, to have been committed at any
time prior to the presentment of the indictment.
2

App.009

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

•

•

Now, if you find from the evidence beyond a reasonable doubt

that on or about the 11th day of September,

1999,

in Tarrant

County, Texas, the Defendant, Quinton Jones, did then and there
intentionally cause the death of an individual, Berthena Bryant, by
striking her with a deadly weapon, to-wit: a baseball bat, that in
the manner of its use or intended use was capable of causing death
or serious bodily injury, and the said defendant was then. and there
in the course of committing or attempting to commit robbery of
Berthena Bryant, then you will find the Defendant guilty of capital
murder as charged in the indictment.
Unless you so find beyond a reasonable doubt, or if you have
a reasonable doubt thereof, you will find the defendant not guilty
of capital murder,

as charged in the indictment,

and you will

consider whether the defendant is guilty of the offense of murder.
Now, if you find from the evidence beyond a reasonable doubt
that on or about the 11th day of September,

1999,

in Tarrant

County, Texas, the Defendant, Quinton Jones, did then and there
intentionally or

knowingly cause

the death of an individual,

Berthena Bryant, by striking her with a deadly weapon, to-wit: a
baseball bat, that in the manner of its use or intended use was
capable of causing death or serious bodily injury, then you will
find the Defendant guilty of murder.
Unless you so find beyond a reasonable doubt, or if you have
a reasonable doubt thereof, you will find the defendant not guilty.
If you should find from the evidence beyond a reasonable doubt
that the defendant is either guilty of capital murder or murder,
but you have a reasonable doubt as to which offense he is guilty,
then you should resolve that doubt in the defendant's favor, and in
such event you will find the defendant guilty of the lesser offense
of murder.
Voluntary intoxication does not constitute a defense to the
commission of a crime.

Intoxication means substantial impairment

of mental or physical capacity resulting from introduction of any
3

App.010

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

•

•

substance into the body.

You are instructed that if there is any testimony before you
in this case regarding the defendant's having committed offenses
other than the offense alleged against him in the indictment in
this case,

you cannot consider said testimony for any purpose

unless you find and believe beyond a reasonable doubt that the
defendant committed such other offenses, if any were committed, and
even then you may only consider the same in determining the intent
of the Defendant, if any, in connection with the offense alleged
against him in the indictment in this case,

and for no other

purpose.
You are instructed that our law provides that a person is
entitled to the assistance of counsel prior to and during any
questioning which takes place while the person is in the custody of
a peace officer if he makes an unambiguous request for a lawyer.
Before questioning can continue, the person must reinitiate the
interview by indicating a willingness to continue the interview.
Therefore, unless you believe from the evidence beyond a reasonable
doubt that the alleged confession or statement introduced into
evidence resulted from a free and voluntary waiver of his right to
counsel

without

compulsion

reasonable doubt thereof,

or

persuasion,

or

if

you

have

a

you shall not consider such alleged

statement or confession for any purpose nor any evidence obtained
as a result thereof.
You are instructed that our law provides that a defendant may
testify in his own behalf if he chooses to do so.

This, however,

is a right accorded to a defendant, and in the event he chooses not
to testify, that fact cannot be taken as a circumstance against
him.

In this case, the Defendant has chosen not to testify and you

are instructed that you cannot and must not refer or allude to that
fact throughout your deliberations or take it into consideration
for any purpose whatsoever as a circumstance against him.
You have been permitted to take notes during the testimony in
4

App.011

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

this case.

•

•

In the event any of you took notes, you may rely on

your notes during your deliberations.

However, you may not share

your notes with the other jurors and you should not permit the
other jurors to share their notes with you.

You may, however,

discuss the contents of your notes with the other jurors.

You

shall not use your notes as authority to persuade your fellow
jurors.

In your deliberations, give no more and no less weight to

the views of a fellow juror just because that juror did or did not
take notes.

Your notes are not official transcripts.

They are

personal memory aids,

just like the notes of the judge and the

notes of the lawyers.

Notes are valuable as a stimulant to your

memory.

On the other hand, you might make an error in observing or

you might make a mistake in recording what you have seen or heard.
Therefore, you are not to use your notes as authority to persuade
fellow jurors of what the evidence was during the trial.
Occasionally, during jury deliberations, a dispute arises as
to the testimony presented.

If this should occur in this case, you

shall inform the court and request that the court read the portion
of disputed testimony to you from the official transcript.

You

shall not rely on your notes to resolve the dispute because those
notes, if any, are not official transcripts.
settled

by

the

official

transcript,

for

The dispute must be
it

is

the

official

transcript, rather than any juror's notes, upon which you must base
your determination of the facts and, ultimately, your verdict in
this case.
Your verdict must be by a unanimous vote of all members of the
jury.

In deliberating on this case, you shall consider the charge

as a whole and you must not refer to nor discuss any matters not in
evidence.
In all criminal cases, the burden of proof is on the State.
The burden of proof rests upon the State throughout the trial and
never shifts to the Defendant.
The indictment in this case is no evidence whatsoever of the
5

App.012

•

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

guilt of the Defendant.

•

It is a mere pleading that is necessary in

order to bring this case into court for trial and you will not
consider it for any purpose.
All persons are presumed to be innocent and no person may be
convicted of an offense unless each element of the offense is
proved beyond a reasonable doubt.

The fact that a defendant has

been arrested, confined, indicted for, or otherwise charged with an
offense gives no rise to any inference of guilt at his trial.
You are the exclusive judges of the facts proved,

of the

credibility of the witnesses, and of the weight to be given their
testimony.

But you are bound to receive the law from the Court,

which is given in these written instructions,

and be governed

thereby.
After you retire to the jury room, you should select one of
your members as your foreman.

It is his or her duty to preside at

your deliberations, to vote with you, and when you have reached a
unanimous verdict, to certify to your verdict by using the attached
form and signing the same as the foreman.
You may communicate with this Court in writing through the
bailiff who has you in charge.
signed by the foreman.
attorneys,

or

the

Your written communication must be

Do not attempt to talk to the bailiff, the

Court

regarding

any question

concerning the trial of the case.

you may have

After you have

reached a

unanimous verdict or if you desire to communicate with the Court,
please use the jury call button on the wall and one of the bailiffs
will respond.

Criminal
Tarrant County, Texas

6

App.013

No. 1

'

.
A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

VERDICT FORM

•

We, the jury, find the Defendant, Quinton Jones, guilty
of the offense of capital murder, as charged in the indictment.

FILED

THOMAS A. WilDER. DIST. ClERK
COUNTY. TEXAS

FEB t 1 l001

_

-ORfind the Defendant, Quinton Jones, guilty of the

J

offense of murder.

FOREMAN

-ORWe, the jury, find the Defendant, Quinton Jones, not
guilty.

FOREMAN

7

App.014

•

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

•

NO. 0744493D

THE STATE OF TEXAS

§

IN THE CRIMINAL DISTRICT

vs.

§
§
§

COURT NUMBER ONE

§

QUINTON JONES

TARRANT COUNTY, TEXAS

COURT'S CHARGE
MEMBERS OF THE JURY:
You have found the defendant, Quinton Jones, guilty of the
offense of capital murder.

You are instructed that the defendant

shall be punished by imprisonment in the institutional division of
the Texas Department of Criminal Justice for life or by death.
order for the Court to assess the proper punishment,

In

the Court

submits to you issues.
ISSUE NUMBER 1:
defendant

would

commit

Whether there is a probability that the
criminal

acts

of

violence

that

would

constitute a continuing threat to society.
You shall return a special verdict of "yes" or "no" to Issue
Number 1. The prosecution has the burden of proving that the answer
to Issue Number 1 should be "yes", and it must do so by proving
Issue Number 1 beyond a reasonable doubt, and if it fails to do so,
you must answer Issue Number 1 "no".
In deliberating on Issue Number 1, you shall consider all
evidence

admitted

at

the

guilt

or

innocence

stage

and

the

punishment stage, including evidence of the defendant's background
or character or the circumstances of the offense that militates for
or mitigates against the imposition of the death penalty.
You may not answer Issue Number 1 "yes" unless you agree
unanimously.

You may not answer Issue Number 1 "no" unless 10 or

more jurors agree.

The members of the jury need not agree on what

particular evidence supports a negative answer to Issue Number 1.
If the jury answers Issue Number 1 "yes", then you shall
answer Issue Number 2; otherwise, do not answer Issue Number 2.

FILED

THOMAS A. WILDER, Dlst CLERK
TARRANT COUNTY, TEXAS

1

App.015

FEB 2 6 2001
Time

•

'.

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

ISSUE NUMBER 2:

evidence,

Whether, taking into consideration all of the

including

defendant's

the

character

circumstances

and background,

culpability of the defendant,

of

the

and

the

offense,

the

personal moral

there is a sufficient mitigating

circumstance or circumstances to warrant that a sentence of life
imprisonment rather than a death sentence be imposed.
You shall return a special verdict of "yes" or "no" to Issue
Number 2. You are instructed that you may not answer Issue Number
2 "no" unless you agree unanimously.

You may not answer Issue

Number 2 "yes" unless ten or more jurors agree.
jury need not

agree

on what particular

affirmative finding on the issue.

The members of the

evidence

supports

an

In deliberating on Issue Number

2, you shall consider mitigating evidence to be evidence that a
juror

might

regard

as

reducing

the

defendant's

moral

blameworthiness.
In arriving at the answers to the above issues, it will not be
proper for you to fix the same by lot, chance, or any other method
than a

full,

fair,

and free

exercise of

the

opinion of

the

individual jurors.
Under the law applicable in this case, if the defendant is
sentenced to imprisonment in the institutional division of the
Texas Department of Criminal Justice for life, the defendant will
become eligible for release on parole, but not until the actual
time served by the defendant equals 40 years, without consideration
of good conduct time.

It cannot accurately be predicted how the

parole laws might be applied to this defendant if the defendant is
sentenced

to

a

term

of

imprisonment

for

life

because

the

application of those laws will depend on decisions made by prison
and parole

authorities,

guarantee that

but

eligibility

for

parole

does

not

will be granted.

You are instructed that our law provides that a defendant may
testify in his own behalf if he chooses to do so.

This, however,

is a privilege accorded to a defendant, and in the event he chooses
2

App.016

•

•

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

not to testify, that fact cannot be taken as a circumstance against
him.

In this case, the defendant has chosen not to testify and you

are instructed that you cannot and must not refer or allude to that
fact throughout your deliberations or take it into consideration
for any purpose whatsoever as a circumstance against him.
You are instructed that our law provides that before you may
consider a statement of the defendant as evidence against him, you
must

find

that

the

defendant

knowingly,

voluntarily waived the right to counsel.

intelligently

and

Therefore, unless you

find beyond a reasonable doubt that prior to giving the statement
offered into

evidence,

and during

the

course of

giving such

statement, th€ defendant knowingly, intelligently, and voluntarily
waived the right to have assistance of counsel, or if you have a
reasonable doubt as to whether the defendant waived this right, you
shall not consider such statement or any evidence obtained as a
result of such statement, for any purpose whatsoever.
You are instructed that if there is any testimony before you
in this case regarding the defendant's having committed offenses or
bad acts other than the offense for which you have found him
guilty, you cannot consider said testimony for any purpose unless
you find and believe beyond a reasonable doubt that the defendant
committed such other offenses or bad acts, if any were committed,
and even then you may only consider the same in determining the
punishment which you will assess against the defendant in this
case.
You have been permitted to take notes during the testimony in
this case.

In the event any of you took notes, you may rely on

your notes during your deliberations.

However, you may not share

your notes with the other jurors and you should not permit the
other jurors to share their notes with you.

You may, however,

discuss the contents of your notes with the other jurors.

You

shall not use your notes as authority to persuade your fellow
jurors.

In your deliberations, give no more and no less weight to
3

App.017

•

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

the views of a fellow juror just because that juror did or did not
take notes.

Your notes are not official transcripts.

They are

personal memory aids,

just like the notes of the judge and the

notes of the lawyers.

Notes are valuable as a stimulant to your

memory.

On the other hand, you might make an error in observing or

you might make a mistake in recording what you have seen or heard.
Therefore, you are not to use your notes as authority to persuade
fellow jurors of what the evidence was during the trial.
Occasionally, during jury deliberations, a dispute arises as
to the testimony presented.

If this should occur in this case, you

shall inform the court and request that the court read the portion
of disputed testimony to you from the official transcript.

You

shall not rely on your notes to resolve the dispute because those
notes, if any, are not official transcripts.
settled by

the

official

transcript,

for

The dispute must be
it

is

the

official

transcript, rather than any juror's notes, upon which you must base
your determination of the facts and, ultimately, your verdict in
this case.
After argument of counsel, you will retire to the jury room
to deliberate. Any further communication must be in writing signed
by your foreman through the bailiff to the Court.

When you have

reached a verdict, you may use the attached forms to indicate your
answers to the Issues.

Your foreman should sign the appropriate

form certifying to your verdict.

Criminal District Court No. 1
Tarrant County, Texas

4

App.018

,

I
A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

Now,

bearing in mind the foregoing instructions,

you will

answer the following issues:

ISSUE NUMBER 1

Do you find from the evidence beyond a reasonable doubt that
there is a probability that the defendant would commit criminal
acts of violence that would constitute a

continuing threat to

socie'ty?
In your verdict, you will answer "yes" or "no".

__________

ANSWER: _ _ _

If your answer to Issue Number 1 is "yes",

then you will

answer Issue Number 2; otherwise, you will not answer Issue Number
2.

ISSUE NUMBER 2

Taking into consideration all of the evidence, including the
circumstances

of

the

offense,

the

defendant's

character

and

background, and the personal moral culpability of the defendant, do
you find that there is a sufficient mitigating circumstance or
circumstances

to warrant

that

a

sentence of

life

imprisonment

rather than a death sentence be imposed?
In your verdict, you will answer "yes" or "no".

N
__o____________

ANSWER: _ _ _

We, the jury, having agreed upon the answers to the foregoing
issues, do hereby return the same into court as our verdict.

FILED

THOMAS A. WilDER. DIST. CLERK
TARRANT COUNTY. TEXAS

FEB 2 6 2001

5

rne

App.019

By

LJ-;2J<;

2

0:@

Deputy

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

FILED

,IOMAS A WILDER, DIST. CLEr,
TARRANT COUNTY, TEXAS

NOV 18 2020

CAUSE NO. 0744493D
1"4f

THE ST ATE OF TEXAS
vs.
QUINTIN PHILLIPPE JONES

§

§
§
§

§

~o:

""'-

INTHECRIMINALDISTRICT
COURT NO. 1 OF
TARRANT COUNTY, TEXAS

ORDER SETTING EXECUTION DATE

The Court has reviewed the State's Motion for Court to Enter Order Setting
Execution Date filed on October 12, 2020, and finds that the motion should be
GRANTED and a date of execution be set in this case.

On February 21, 2001, a Tarrant County jury convicted Defendant for the capital
murder of his eighty-three-year-old great aunt, Berthena Bryant, whom he beat to death
with a baseball bat and robbed. CR 3: 397. On February 26, 2001, the jury returned an
affirmative answer to the future-dangerousness special issue and a negative answer to
the mitigation special issue, and this Court sentenced Defendant to death by lethal
injection. CR 3: 408.
The Court of Criminal Appeals of Texas affirmed Defendant's conviction and
sentence on direct appeal on November 5, 2003, and the Supreme Court of the United
States denied his petition for a writ of certiorari on June 14, 2004. Jones v. State, 119
S.W.3d 766 (Tex. Crim. App. 2003), cert. denied, 542 U.S. 905 (2004).
On September 14, 2005, the Court of Criminal Appeals denied Defendant's state
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D- ORDER SETTING EXECUTION DATE, Page I of5

App.020

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

application for a writ of habeas corpus. Ex parte Jones, 2005 WL 2220030 (Tex. Crim.
App. Sept. 14, 2005) (unpublished per curiam order); and subsequently, on September
14, 2006, Defendant untimely filed his federal petition for writ of habeas corpus, and
the United States District Court for the Northern District of Texas, Fort Worth
Division, dismissed it as time-barred. Jones v. Quarterman, 2007 WL 2756755 (N.D.
Tex. Sept. 21, 2007) (unpublished mem. op. & order). The district court later appointed
Defendant new counsel and vacated its dismissal to give Defendant an opportunity to
respond. Jones v. Quarterman, 2008 WL 4166850 (N.D. Tex. Sept. 10, 2008)
(unpublished order). After Defendant responded, the district court again dismissed his
petition as time-barred. Jones v. Quarterman, 2009 WL 559959 (N.D. Tex. Mar. 4,
2009) (unpublished mem. op. & order). Defendant appealed, and the United States
Court of Appeals for the Fifth Circuit vacated and remanded for reconsideration in
light of the principle of equitable tolling. Jones v. Thaler, 2010 WL 2464998 (5th Cir.
June 17, 2010) (per curiam) (unpublished). Ultimately, the district court reversed
course, and Defendant filed an amended petition. Jones v. Stephens, 998 F. Supp. 2d
529 (N.D. Tex. 2014). On January 13, 2016, the district court denied Defendant's
claims for relief and denied a certificate of appealability on all of his claims. Jones v.

Stephens, 157 F. Supp. 3d 623 (N.D. Tex. 2016).
The Fifth Circuit granted Defendant a certificate of appealability on his claim
that his Fifth Amendment rights were violated by admission of an unmirandized
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D- ORDER SETTING EXECUTION DATE, Page 2 ofS

App.021

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

confession at the punishment phase of his trial. Jones v. Davis, 927 F.3d 365 (5th Cir.
2019). On June 18, 2019, the Fifth Circuit affirmed the district court's judgment. Id.
Lastly, the Supreme Court of the United States denied Defendant's petition for a writ
of certiorari on March 23, 2020. Jones v. Davis, 140 S. Ct. 2519 (2020).
IT IS THEREFORE EVIDENT that Defendant has exhausted his avenues for

relief through the state and federal courts, and further there are no stays of execution in
effect in this case.
ACCORDINGLY, IT IS HEREBY ORDERED that the Defendant, Quintin

Phillippe Jones, who has been adjudged to be guilty of capital murder as charged in the
indictment and whose punishment has been assessed by the verdict of the jury and
judgment of the Court at DEATH, shall be kept or taken into the custody of the
Director of the Correctional Institutions Division of the Texas Department of Criminal
Justice

until the 19 th day of May 2021, upon which day, at the Correctional

Institutions Division of the Texas Department of Criminal Justice, at some time after
the hour of six o'clock p.m., in a room designated by the Correctional Institutions
Division of the Texas Department of Criminal Justice and arranged for the purpose of
execution, the said Director, acting by and through the executioner designated by said
Director, as provided by law, is hereby commanded, ordered and directed to carry out
this sentence of death by intravenous injection of a substance or substances in a lethal
quantity sufficient to cause the death of the Defendant, Quintin Phillippe Jones, until
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 3 of 5

App.022

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

Quintin Phillippe Jones is dead. Such procedure shall be determined and supervised by
the said Director of the Correctional Institutions Division of the Texas Department of
Criminal Justice.

IT IS FURTHER ORDERED that the Clerk of this Court shall issue and
deliver to the Sheriff of Tarrant County, Texas, a Death Warrant in accordance
with this sentence and Order, directed to the Director of the Correctional Institutions
Division of the Texas Department of Criminal Justice, at Huntsville, Texas,
commanding the said Director, to put into execution the Judgment of Death against the
said Quintin Phillippe Jones.

The Sheriff of Tarrant County, Texas IS HEREBY ORDERED, upon
receipt of said Death Warrant, to deliver said Warrant to the Director of the
Correctional Institutions Division of the Texas Department of Criminal Justice,
Huntsville, Texas together with Defendant, Quintin Phillippe Jones.

IT IS FURTHER ORDERED that the Clerk of this Court shall deliver a copy
of this order, by first-class mail, e-mail, or fax not later than the second business day
after the Court enters the order, to:
1. The attorney who represented the Defendant in the most recently
concluded stage of a state or federal post-conviction proceeding, Michael
Mowla, michael@mowlalaw.com. See TEX. CODE CRIM. PROC. art.

43 .141 (b-1 ).

2. Benjamin Wolff, Director, Office of Capital and Forensic Writs,
Benjamin.Wolff@ocfw.texas.gov. See Id.
3. Rachel
Patton,
Assistant
Attorney
General,
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D- ORDER SETTING EXECUTION DATE, Page 4 of5

App.023

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

Rachel.Patton@oag.texas.gov.

4. The Post-Conviction Section of the Tarrant County Criminal District
Attorney's Office, ccaappellatealerts@tarrantcountvtx.Qov.
SIGNED AND ENTERED this

/3

day of November 2020.

JUDGE PRESIDING
CRIMINAL DISTRICT COURT NO. 1

QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 5 of 5

App.024

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

0744493D

Death Warrant and Execution Order for QUINTIN PHILLIPPE JONES was hand-delivered by the Sheriff of Tarrant
County to Texas Department of Criminal Justice, Classification and Records on this

/

f

i;L day of

, 20~.

Received by:

Delivered by:

Bryan Collier, Executive Director
Texas Department of Criminal Justice

Sheriff

FILED
, rlOMAS A WILDER DIST. CLEh
TARRANT COUNTY, TEXAS ·

NOV 2 3 2020
TIME. ___

App.025

J::0-}oco:: de,""-

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

THE STATE OF TEXAS

§

§

vs.

§

IN THE CRIMINAL DISTRICT
COURT ONE OF

§

CAUSE NO. 0744493D

§

TARRANT COUNTY, TEXAS

§

QUINTIN PHILLIPPE JONES

§

DEATH WARRANT
To the Director of the Correctional Institutions Division of the Texas Department Of Criminal Justice at
Huntsville, Texas, or in case of his death, disability or absence, the Warden of the Huntsville Unit of the Correctional
Institutions Division of the Texas Department of Criminal Justice or in the event of the death or disability or absence of
both the Directorofthe Correctional Institutions Division of the Texas Department Of Criminal Justice and the Warden
of the Correctional Institutions Division of the Texas Department Of Criminal Justice. to such person appointed by the
Board of Directors of the Correctional Institutions Division of the Texas Department Of Criminal Justice. Greetings:
Whereas, on the 21 ST day of FEBRUARY. A.O. 2001, in the CRIMINAL District Court O:\E of Tarrant
County, Texas, QUINTIN PHILLIPPE JONES was duly and legally convicted of the crime of Capital Murder, as folly
appears in the judgment of said Court entered upon the minutes of said court as follows, to-wit: Judgment anachcd and,
Whereas, on the 26TH day of FEBRUARY. i\.D., 2001 the said Court pronounced sentence upon the said
QUINTIN PHILLIPPE JONES in accordance with said judgment fixing the time for the execution of the said QUJNTl'J
PHILLIPPE JONES for any time after the hour of 6:00 p.m. on WEDNESDAY, the 19TH day of"vlAY, A.O., 2021. as
fully appears in the sentence of the Court and entered upon the minutes of said Court as follows, to-v. .:it: Sentence
attached.
These are therefore to command you to execute the aforesaid judgment and sentence any time after the hour of
6:00 p.m. on WEDNESDAY. the 19TH day of MAY, A.O., 2021. by intravenous injection of substance or substances
in a lethal quantity sufficient to cause death and until the said QUINTIN PHILLIPPE JONES is dead.
Herein fail not, and due return make hereof in accordance with law.
Witness my signature and seal of office on this the 18TH day ofNOVEMBER, A.O., 2020.
Issued under my hand and seal of Office in the City of Fort Worth, Tarrant County Texas this 18TH day of
NOVEMBER, 2020.
THOMAS A. WILDER,
CLERK OF THE DISTRJCT (O'jRT~.QJ':
TAR
NT COUNTY, TEX.\S.

BY

App.026

'

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

RETURN OF Tl IE DIRECTOlt OF THE TEXAS DEPARTMENT OF CORRECTIONS

Came to hnnd, this the _ _ day of _ _ _ _ _ , _ _ nnd executed the_ dny of _ _ _ _ , _ by the
dcnth of

QUINTIN PHILLIPPE JONES

DISPOSITION OF 80DY:

DATE:
TIME:

DIRECTOR OF TEXAS DEPARTMENT OF CORRECTIONS

BY: _ _ _ _ _ _ _ _ _ _ _ _ _ _ _ __

App.027

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

flLE:O
dOMAS A WILDER, DIST. CLb·
TARRANT COUNTY, TEXAS

CAUSE NO. 0744493D
THE STATE OF TEXAS
vs.

QUINTIN PHILLIPPE JONES

§

§
§
§
§

NOV 1 8 2020
'!ME

.KEG\ 0 :;.d1oVh._.

IN THE CRIMINAL DISTRICT

COURT NO. 1 OF
TARRANT COUNTY, TEXAS

DUPLICATE ORDER SETTING EXECUTION DATE
The Court has reviewed the State's Motion for Court to Enter Order Setting
Execution Date filed on October 12, 2020, and finds that the motion should be

GRANTED and a date of execution be set in this case.
On February 21,2001, a Tarrant County jury convicted Defendant for the capital
murder of his eighty-three-year-old great aunt, Berthena Bryant, whom he beat to death
with a baseball bat and robbed. CR 3: 397. On February 26, 2001, the jury returned an
affirmative answer to the future-dangerousness special issue and a negative answer to
the mitigation special issue, and this Court sentenced Defendant to death by lethal
injection. CR 3: 408.
The Court of Criminal Appeals of Texas affirmed Defendant's conviction and
sentence on direct appeal on November 5, 2003, and the Supreme Court of the United
States denied his petition for a writ of certiorari on June 14, 2004. Jones v. State, 119
S.W.3d 766 (Tex. Crim. App. 2003), cert. denied, 542 U.S. 905 (2004).
On September 14, 2005, the Court of Criminal Appeals denied Defendant's state
QUINTIN PlIILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DA TE, Page 1 of 5

App.028

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

application for a writ of habeas corpus. Ex parte Jones, 2005 WL 2220030 (Tex. Crim.
App. Sept. 14, 2005) (unpublished per curiam order); and subsequently, on September
14, 2006, Defendant untimely filed his federal petition for writ of habeas corpus, and
the United States District Court for the Northern District of Texas, Fort Worth
Division, dismissed it as time-barred. Jones v. Quarterman, 2007 WL 2756755 (N.D.
Tex. Sept. 21, 2007) ( unpublished mem. op. & order). The district court later appointed
Defendant new counsel and vacated its dismissal to give Defendant an opportunity to
respond. Jones v. Quarterman, 2008 WL 4166850 (N.D. Tex. Sept. 10, 2008)
(unpublished order). After Defendant responded, the district court again dismissed his
petition as time-barred. Jones v. Quarterman, 2009 WL 559959 (N.D. Tex. Mar. 4,
2009) (unpublished mem. op. & order). Defendant appealed, and the United States
Court of Appeals for the Fifth Circuit vacated and remanded for reconsideration in
light of the principle of equitable tolling. Jones v. Thaler, 2010 WL 2464998 (5th Cir.
June 17, 2010) (per curiam) (unpublished). Ultimately, the district court reversed
course, and Defendant filed an amended petition. Jones v. Stephens, 998 F. Supp. 2d
529 (N.D. Tex. 2014). On January 13, 2016, the district court denied Defendant's
claims for relief and denied a certificate of appealability on all of his claims. Jones v.

Stephens, 157 F. Supp. 3d 623 (N.D. Tex. 2016).
The Fifth Circuit granted Defendant a certificate of appealability on his claim
that his Fifth Amendment rights were violated by admission of an unmirandized
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 2 of 5

App.029

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

confession at the punishment phase of his trial. Jones v. Davis, 927 F.3d 365 (5th Cir.
2019). On June 18, 2019, the Fifth Circuit affirmed the district court's judgment. Id.
Lastly, the Supreme Court of the United States denied Defendant's petition for a writ
of certiorari on March 23, 2020. Jones v. Davis, 140 S. Ct. 2519 (2020).
IT IS THEREFORE EVIDENT that Defendant has exhausted his avenues for

relief through the state and federal courts, and further there are no stays of execution in
effect in this case.
ACCORDINGLY, IT IS HEREBY ORDERED that the Defendant, Quintin

Phillippe Jones, who has been adjudged to be guilty of capital murder as charged in the
indictment and whose punishment has been assessed by the verdict of the jury and
judgment of the Court at DEATH, shall be kept or taken into the custody of the
Director of the Correctional Institutions Division of the Texas Department of Criminal
Justice

until the 19 th day of May 2021, upon which day, at the Correctional

Institutions Division of the Texas Department of Criminal Justice, at some time after
the hour of six o'clock p.m., in a room designated by the Correctional Institutions
Division of the Texas Department of Criminal Justice and arranged for the purpose of
execution, the said Director, acting by and through the executioner designated by said
Director, as provided by law, is hereby commanded, ordered and directed to carry out
this sentence of death by intravenous injection of a substance or substances in a lethal
quantity sufficient to cause the death of the Defendant, Quintin Phillippe Jones, until
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 3 of 5

App.030

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

Quintin Phillippe Jones is dead. Such procedure shall be determined and supervised by
the said Director of the Correctional Institutions Division of the Texas Department of
Criminal Justice.

IT IS FURTHER ORDERED that the Clerk of this Court shall issue and
deliver to the Sheriff of Tarrant County, Texas, a Death Warrant in accordance
with this sentence and Order, directed to the Director of the Correctional Institutions
Division of the Texas Department of Criminal Justice, at Huntsville, Texas,
commanding the said Director, to put into execution the Judgment of Death against the
said Quintin Phillippe Jones.

The Sheriff of Tarrant County, Texas IS HEREBY ORDERED, upon
receipt of said Death Warrant, to deliver said Warrant to the Director of the
Correctional Institutions Division of the Texas Department of Criminal Justice,
Huntsville, Texas together with Defendant, Quintin Phillippe Jones.

IT IS FURTHER ORDERED that the Clerk of this Court shall deliver a copy
of this order, by first-class mail, e-mail, or fax not later than the second business day
after the Court enters the order, to:
1. The attorney who represented the Defendant in the most recently
concluded stage of a state or federal post-conviction proceeding, Michael
Mowla, michael@mnwlalaw.com. See TEX. CODE CRIM. PROC. art.
43.14l(b-l).
2. Benjamin Wolff, Director, Office of Capital and Forensic \Vrits,
Benjamin. \Volff(c{)ocfw.texas.!!ov. See Id.
3. Rachel
Patton,
Assistant
Attorney
General,
QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 4 of 5

App.031

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

Rachel.Patton@oag.texas.gov.

4. The Post-Conviction Section of the Tarrant County Criminal District
Attorney's Office, ccaappcl latealcrts(wtarrnntcountvtx.!2ov.

SIGNED AND ENTERED this /

t(}J.,,

day of_~!~~r;&bAr~~930 .

J;,-- ·IJ; ___ ~·-flt
7/A--~~
HON. ELIZABETH BEACH- : :~:.::JUDGE PRESIDfNQ~., ' __ w-~~7·
.:::::···,'--'' ....... .c. ....

.

··~

. -..

...

~~·<,---

CRIMINAL DISTR)fif~tt~f'NO. 1
. , . : . ; . : • l, \ \ • •

QUINTIN PHILLIPPE JONES, CAUSE NO. 0744493D - ORDER SETTING EXECUTION DATE, Page 5 of 5

App.032

A CERTIFIED COPY
ATTEST: 04/14/2021
THOMAS A. WILDER
DISTRICT CLERK
TARRANT COUNTY, TEXAS
BY: /s/ Kim Wheeler-Mendoza

TEXAS COURT OF CRIMINAL APPEALS
Austin, Texas
CORRECTED MANDATE

MANDATE

THE STATE OF TEXAS,
TO THE CRIMINAL DISTRICT COURT NUMBER ONE OF TARRANT COUNTY -

GREETINGS:

Before our COURT OF CRIMINAL APPEALS, on the 5th day of NOVEMBER, A.D. 2003, the cause upon
appeal to revise or reverse your Judgment between:

QillNTIN PHILLIPPE JONES

vs.

THE STATE OF TEXAS
CCRA NO. 74.060
TRIAL COURT NO. 0744493D
was determined; and therein our said COURT OF CRIMINAL APPEALS made its order in these words:
"This cause came on to be heard on the record of the Court below, and the same being considered, because it is the
Opinion of this Court that there was no error in the judgment, it is ORDERED, ADJUDGED AND DECREED by the
Court that the judgment be AFFIRMED, in accordance wHh the Opinion of this Court, and that this Decis.iun be certified
below for observance."

WHEREFORE, We command you to observe the Order of our said COURT OF CRIMINAL APPEALS in this
behalf and in all things have it duly recognized, obeyed and executed.
WITNESS, THE HONORABLE SHARON KELLER,
Presiding Judge of our said COURT OF CRIMINAL APPEALS,
with the Seal thereof annexed, at the City of Austin,
this

l...

rt day of DECEMBER, A.D. 2003.

TROY C. BENNETT, JR., Clerk
Veronica Arellano

Deputy Clerk

App.033

AFFIDAVIT OF JOHN F. EDENS, PH.D.

I, John F. Edens, swear under penalties of perjury that the information in this
affidavit is true and correct:
I. Background and Qualifications

1.

I have personal knowledge of the facts stated in this affidavit. I am

signing this affidavit knowingly, voluntarily, and freely. I fully understand the
contents of this affidavit. I read, write, and speak English.
2.

I am a Full Professor in the Department of Psychological and Brain

Sciences at Texas A&M University (TAMU). I am also formerly the Director of
Clinical Training (2012-2016) of the doctoral training program in Clinical
Psychology at TAMU, as well as a licensed psychologist for 20 years in the state
of Texas until I retired my license (in good standing) in 2019. Over the years, I
have been actively involved in education and training in the areas of psychological
and personality assessment, violence risk assessment, forensic psychology,
abnormal psychology, research methodology, and professional ethics. I have taught
scores of courses within these areas to hundreds of doctoral students and thousands
of undergraduate students. I also have been invited to conduct numerous advanced
training workshops in these and related areas for mental health, legal, and criminal
justice professionals throughout North America, Europe, Asia, and Australia.

1

App.034

3.

I have conducted research on psychological assessment and diagnosis

and the prediction of human behavior since the 1990s and have published
approximately 200 peer-reviewed journal articles, book chapters, and professional
manuals related to these topics. Most of my research has focused on forensic and
correctional mental health assessment issues, such as the scientific reliability and
validity of psychological testing and diagnosis among criminal offender
populations and the potential for criminal offenders to engage in future violence
and other forms of socially deviant behavior inside and outside institutional
settings.i For example, I was a co-investigator on a $1.3 million multi-site federal
research grant from the National Institute of Mental Health that examined the role
of psychopathic personality disorder (psychopathy) and antisocial personality
disorder (ASPD) in the adjustment and future conduct of criminal offenders.
4.

I believe it is fair to say that my research in the area of forensic and

clinical psychology has been highly influential in the scientific and professional
community. For example, I am in the top 1% of cited researchers in the fields of
Psychology and Psychiatry (as documented by Essential Science Indicators) and I
have received national awards and honors from various professional and scientific
organizations over the course of my career (e.g., the Saleem Shah Award for Early
Career Contributions to Law and Psychology, jointly awarded by the American
Psychology-Law Society and the American Academy of Forensic Psychology

2

App.035

[2001 ], the Theodore Millon Award in Personality Psychology, jointly awarded by
the American Psychological Foundation and the Society of Clinical Psychology
[2015]). I have also been awarded Fellow status by the two largest professional
organizations in psychology in the United States: the American Psychological
Association and the Association for Psychological Science.
5.

I am the lead author of the Personality Assessment Inventory

Interpretive Report/or Correctional Settings (PAI-CS).ii The PAI-CS is an
empirically derived, actuarial interpretative system designed to aid in the
identification of inmates who have mental health problems and/or are likely to
have difficulties adjusting to prison. This interpretive report is used in numerous
state prison systems as part of their mental health screening and assessment
procedures for newly incarcerated inmates.
6.

I have published extensively on controversies concerning various

psychiatric diagnoses, psychological tests, and assessment instruments and
procedures used in forensic and correctional settings, particularly those intended to
assess psychopathy, such as the Hare Psychopathy Checklist-Revised (PCL-R), as
well as antisocial personality disorder (ASPD).iii I also have consulted with
numerous prosecution offices, defense counsel, and state agencies (e.g., probation
departments) on issues related to forensic mental health assessment, particularly in

3

App.036

terms of the scientific reliability and validity of various tests, psychiatric
diagnoses, and assessment methodologies.
7.

Because of my background and expertise in forensic and correctional

psychology, I am frequently called on to evaluate the work of other social
scientists and mental health professionals. For example, I am formerly an
Associate Editor of the peer-reviewed scientific journals Psychological
Assessment, the Journal ofPersonaHty Assessment, and Assessment. In these
editorial roles, I have been responsible for judging the scientific merit of research
manuscripts submitted for publication and making editorial decisions, with input
from peer reviewers, regarding whether these research reports are scientifically
rigorous and warrant publication. At these journals, I have been primarily
responsible for evaluating submissions that focus on forensic mental health topics
(e.g., psychopathic and antisocial personality disorder, malingered mental illness,
violence risk assessment, adjudicative competence). I also have served on the
editorial boards of multiple peer-reviewed psychology-law journals (e.g., Law and
Human Behavior, Behavioral Science and the Law, International Journal of
Forensic Mental Health), where I provide peer reviews for research manuscripts
submitted for publication. In this capacity, I provide the Editor or Associate Editor
with a review of the methodological rigor of the research and a recommendation
concerning its overall contribution to the scientific literature. Over the course of

4

App.037

my career, I have been asked to serve as an editor or reviewer for hundreds of
scientific research reports from a multitude of social science and medical journals.
8.

As I noted above, I have contributed extensively to and am very

familiar with the research literature on the Hare PCL-R, psychopathy, ASPD, and
other personality disorders. Because of my expertise in this area, I have been asked
to submit affidavits and declarations (similar in content to this document) that have
expressed my grave reservations about the use of the PCL-R, labels such as
"psychopath," and diagnoses of ASPD in numerous state and federal capital
murder cases.
II. Referral Question

9.

I was asked by defense counsel for Quintin P. Jones to review

evidence presented by mental health experts who testified at his sentencing hearing
in February 2001 and comment on the potential implications of the introduction of
the PCL-R in Mr. Jones's capital murder trial. The PCL-R is a 20-item
checklist/rating scale that is intended to be used by trained professionals to
measure the personality disorder of psychopathy. The 20 items consist of
prototypically psychopathic traits (e.g., remorselessness, grandiosity, superficial
charm) but also include items that focus on a history of antisocial and criminal acts
(e.g., juvenile delinquency, past revocation of conditional release). The PCL-R
typically is scored based on a semi-structured interview and review of available

5

App.038

collateral information (e.g., institutional files, past mental health evaluations).
Examinees can be given a score ranging from 0 (zero) to 40, with higher scores
indicating that they are being rated by an examiner as more psychopathic.
10.

I should highlight that I have not conducted a PCL-R evaluation of

Mr. Jones and I have no opinion as to what would have been an accurate score on
the PCL-R at the time of his sentencing hearing. That I have not evaluated Mr.
Jones myself has no bearing on the points of concern that I raise about PCL-R
evidence in this affidavit. In fact, one of the primary criticisms of this checklist in
the scientific literature is that the scores derived from it in adversarial legal cases
are so unreliable across different examiners that they lack any substantive
probative value. Additionally, this general problem with the unreliability of PCL-R
scores is evident in the competing forensic evaluations performed on Mr. Jones at
the time of his original trial.
11.

In his testimony describing his forensic mental health evaluation of

Mr. Jones during his sentencing hearing, Dr. Randall Price provided a PCL-R total
score of 31, which would place Mr. Jones at approximately the 88th percentile
compared to the PCL-R's male prisoner normative sample. During the punishment
phase Dr. Price diagnosed Mr. Jones as a "psychopath," stating to the jury, "A
psychopath is a personality disorder that is characterized by a set of traits and
behaviors that are, in a nutshell, the person doesn't have a conscious or has little

6

App.039

conscience." (See Record, Volume 36, page 58). Dr. Price also related psychopathy
to a propensity for future dangerousness within the context of the first special
issue. (See Record, Volume 36, page 74). However, another forensic mental health
expert, Dr. Raymond Finn, testified during this sentencing hearing that his scoring
of Mr. Jones on the PCL-R was only 9.5, which would place Mr. Jones between
the 8th and 9th percentile when compared to the PCL-R's normative sample,
essentially concluding that Mr. Jones would be one of the least psychopathic
individuals housed in a prison environment. It is self-evident that two scores
ranging from the 8th or 9th to the 88th percentile in a given case clearly reflect
extreme disagreement on exactly how psychopathic Mr. Jones actually was at that
time.
12.

The extreme scoring discrepancies on the PCL-R that are evident in

the competing evaluations of Mr. Jones unfortunately are not unique to his
particular case. Although I am unfamiliar with any prior PCL-R testimony
provided by Dr. Finn in other cases, I was retained as an expert witness in a recent
Texas capital murder trial in which Dr. Price had administered the PCL-R to the
defendant. In this case Dr. Price's score was vastly higher (placing the defendant at
the 91 st percentile) than a score that a TDCJ-employed mental health professional
provided for the same defendant (18 th percentile).

7

App.040

III. Relevant Scientific Literature
13.

The extent to which separate mental health examiners will produce

approximately similar scores for the same defendant (which in the diagnostic and
testing literature is described by the term "inter-rater reliability") is not a question
that appears to be commonly raised in adversarial legal settings in which PCL-R
scores have been introduced. iv This is unfortunate because the extant scientific
research indicates that PCL-R scores are highly unreliable in real world legal cases
(as opposed to controlled scientific research studies). Several "field studies" of the
PCL-R have reported that in adversarial settings, mental health experts disagree
considerably on the scoring of this rating scale and, not surprisingly, results also
suggest that prosecution-retained experts tend to give higher scores than do
defense-retained experts.V It is unclear whether prosecution witnesses overestimate
psychopathy, defense witnesses underestimate psychopathy, or both, but the key
point is that how psychopathic defendants are described to be at trial is to some
extent contingent on which side is retaining the expert witness.
14.

That being said, even examiners who are employed or retained by the

same "side" of a case (and examiners who are independently appointed) may give
markedly different scores on the PCL-R, indicating that the scores themselves are
to some extent a function of the expert conducting the assessment rather than
simply being an objective assessment of the ''true" level of psychopathic traits

8

App.041

exhibited by the defendant. More specifically, it has been estimated that over 30%
of the variability in PCL-R scoring across contested legal cases is explained by the
individual examiners who are conducting the evaluation rather than a reflection of
genuine differences in the defendants who are being assessed. Put somewhat more
simply, approximately a third of any given PCL-R score in these cases does not
represent his or her actual level of psychopathic traits but instead reflects the
idiosyncratic scoring approach of the person performing the evaluationregardless of whether the expert examiner was retained by the prosecution or the
defense.vi
15.

Also of particular concern is that since the publication of the first

PCL-R professional manual in 1991, it has been known that the "personality" items
contained within the PCL-R (e.g., lack of remorse, inflated self-worth,
conning/manipulative) have lower levels of inter-rater reliability than do the more
criminogenic items (e.g., juvenile delinquency, revocation of conditional release).
The more recent field studies cited above also demonstrate that personality
characteristics appear to be extremely difficult to assess reliably in adversarial
legal settings-which is particularly troubling given that they seem to have the
most pronounced prejudicial effect on jurorsvii (an issue to which I return in
subsequent paragraphs below). Levels of inter-rater agreement in the published

9

App.042

field studies have been well below accepted standards of what would constitute
minimal reliability for forensic mental health practice. viii
16.

The reasons for the unreliability of psychopathy evaluations across

examiners have not been fully articulated in the literature, but there is recent
evidence that even those trained by the instrument developer, Robert Hare (through
his Darkstone Research Group workshops), struggle to assess reliably the
personality traits included in the PCL-R. Blais, Forth, and Hare (2017)ix
summarized reliability statistics for 280 participants in this training program who
went on to score a series of practice cases that were then evaluated for accuracy.
The interpretation of what constitutes minimally acceptable reliability is open to
some degree of interpretation, but the effects of this formalized training program
on inter-rater reliability were disappointing regardless of the standard. In
particular, the inter-rater reliability of the 'personality' items on the PCL-R was
quite poor, indicating a large degree of variability in rating traits such as
remorselessness, superficial charm, and lack of empathy. Again, it should be
stressed that this unacceptable level of inter-rater reliability in assessing these
personality traits was produced by professionals who had just completed a

formalized training program conducted by the developer ofthe instrument, leading
the authors to conclude that those raters' PCL-R scores "did not meet the standard
recommended for criminal cases" (p. 762).

App.043

17.

Even if PCL-R scores could be reliably produced in adversarial legal

cases, there are additional reasons to question their relevance and probative value
in capital murder trials. For example, mock jury research has shown that
individuals who believe a defendant is highly psychopathic also believe that such a
defendant will be highly dangerous in the future.x Despite this intuitive association
between psychopathy and violence, at present there is little evidence to support the
assertion that psychopathy diagnoses have any bearing on a convicted capital
defendant's potential for future violent acts. That is, the available scientific studies
suggest that psychopathy diagnoses are at best very weakly related to violent

behavior in U.S. prisons. This assertion is based on the results of a published metaanalysisxi in which my colleagues and I statistically aggregated the results of all
available individual research studies examining the relationship between the most
widely used assessment of psychopathy in forensic settings, the PCL-R, and
violence in U.S. prisons, which consisted of an aggregated sample size of over 800
inmates across five individual research studies.
18.

Although I am very familiar with the professional literature

concerning psychopathy, I am unaware of any published studies of the PCL-R that
have examined whether they can reliably predict the violent behavior specifically
of capital defendants, life sentenced offenders, or those offenders who are placed
in administrative segregation-but the fact that PCL-R scores have not performed

11

App.044

well in the existing prison studies of non-capital prison inmates suggests that their
very poor accuracy would be similar or worse among capital defendants serving
life sentences.xii
19.

As such, although well-controlled research studies suggest that PCL-R

scores may be modestly to moderately related to future criminal behavior among
individuals if they are released back into the community,xiii the available scientific
findings do not support the argument that this instrument can identify prisoners
who are likely to engage in serious violence while spending the rest of their lives
incarcerated. Therefore, claims that an inmate is more likely to be violent in the
future if serving out a life sentence because that inmate has been judged by a
mental health professional to be "psychopathic" are based on almost no scientific
support and actually ignore what are known to be legitimate correlates of violence
in prison settings (e.g., young age, limited education, prison gang membership).
20.

To the extent that PCL-R scores have a modest to moderate predictive

relationship with violence if prisoners are released back into the community, it
should be noted that extant research findings indicate that it is not the personality
traits (e.g., remorselessness, conning/manipulative) related to this diagnosis that
are relevant to identifying those most at risk for future violent crime. Rather, it is
the more criminalistic characteristics measured by the PCL-R (e.g., juvenile
delinquency, past failure on conditional release, poor behavioral controls) that are

12

App.045

most important to predicting criminal recidivism. Knowing whether a soon-to-be
released inmate appears to lack remorse and is grandiose and unempathic is much
less informative about his or her potential for future community violence than
knowing whether he or she has an extensive history of irresponsible, impulsive,
and criminal behavior. As such, the PCL-R items that are likely to be the most
influential on jurors' decisions concerning a death sentence are the ones that are
the least relevant to predicting future crime in the community.xiv
21.

To summarize, in the context of a capital murder trial, testimony that a

defendant is "a psychopath" based on a high PCL-R score is unreliable,
unscientific, and misleading in relation to the likelihood of a defendant being a
future danger to society if serving a life sentence in prison. Given our concerns
about misuses and abuses of psychopathy evidence in capital cases, several other
forensic mental health experts and I have recently detailed several of the
limitations of this checklist for this specific purpose in a Statement of Concerned
Experts on the Use of the Hare Psychopathy Checklist-Revised in Capital
Sentencing to Assess Risk for Institutional Violence.xv
22.

In addition to having very limited probative value due to poor inter-

rater reliability and almost no predictive validity for prison violence, the
introduction of the PCL-R into capital proceedings has a strong likelihood of
unduly prejudicing jurors against a defendant. Among venirepersons, the

13

App.046

psychopath label evokes images of real-world serial killers such as Ted Bundy, as
well as fictional villains such as Hannibal Lecter.xvi In fact, among a sample of
over 400 venirepersons participating in a survey in Dallas County, Texas, Charles
Manson was the most common response (20%) when participants were asked to
spontaneously identify the person they first thought of when hearing the term
"psychopath" (followed by Jeffrey Dahmer [14%], Adolf Hitler [12%], and Ted
Bundy [11 %]). xvii In a recent meta-analysisxviii published by my research laboratory
that examined how perceptions of psychopathic traits are related to attitudes about
criminal defendants, we found that mock jurors who believe a defendant to be
highly psychopathic are more likely to support death verdicts (in capital murder
trial simulations) and more likely to recommend longer criminal sentences (in noncapital trial simulations) than are participants who believe a defendant to be less
psychopathic. Additionally, they are more likely to rate a defendant as more
dangerous and more "evil" than are participants who believe a defendant to be less
psychopathic.
23.

Research summarized in the preceding paragraph indicates that mock

jurors who perceive a defendant to be highly psychopathic also have more punitive
attitudes about their case dispositions. Such findings do not directly examine,
however, the extent to which expert testimony concerning psychopathy may
influence case outcomes (e.g., jury verdicts). In a series of research studies,xix my

14

App.047

colleagues and I have experimentally manipulated the presence of psychopathy
evidence in capital case vignettes presented to mockjurors. The results of these
studies indicate that defendants who were described as psychopaths were viewed
as considerably more dangerous than defendants who were not described as
psychopaths, even though all other facts of the cases other than diagnoses were
described identically. In these studies, support for executing a psychopathic
defendant was considerably higher than support for executing him when not
described as psychopathic. For example, in one of these studies,xx 60% of the
participants learning that the defendant was described as psychopathic indicated
they would support a death sentence for the defendant, whereas only 38% did so
when he was described as non-mentally disordered, and only 30% did so when he
was described as psychotic (e.g., experiencing delusions and hallucinations). (In
the lone study my research lab has published in which psychopathy evidence did
not predict greater support for death verdicts,xxi post-testing of the research
participants indicated that many did not understand the complicated sentencing
instructions we provided them, such as the definition of mitigating evidence.) A
recent meta-analysisxxii of this area of scientific literature confirmed that the
introduction of evidence that a defendant is psychopathic in mock jury trials results
in more punitive outcomes when compared to cases in which this diagnosis is not
introduced.

15

App.048

24.

I should note that some experimental researchxxm has suggested that

expert testimony that a defendant is psychopathic may not always have a
significant impact on mock jurors. These types of findings only seem to occur,
however, when mock jurors already believe a defendant is highly psychopathic

prior to reviewing any mental health evidence about his diagnostic status. In
replicating some of this earlier research, my research labxxiv recently demonstrated
that when jurors are informed that a defendant has a history of being remorseless,
manipulative, and superficial, they tend believe that he is highly psychopathic regardless of whatever subsequent diagnostic label an expert witness provides
(e.g., "psychopathic," "schizophrenic"). The results of this research suggest that,
once a juror believes that a defendant is highly psychopathic, the introduction of
the label "psychopath" by an expert witness may in fact have little additional
prejudicial impact. It does not, however, support the conclusion that testimony
about psychopathy will have little or no prejudicial impact on jurors who have yet
to form an opinion about a defendant's mental health status.
25.

Although mock jury studies in isolation are not dispositive in terms of

establishing the stigmatizing effects of a psychopathy diagnosis, field research also
has demonstrated that perceived psychopathic traits have a strong relationship with
juror attitudes about criminal defendants. For example, Sundby (1998) published
research from the Capital Jury Project indicating that actual jurors in capital

16

App.049

murder trials described defendants whom they had sentenced to death with phrases
such as "blase," "cocky," "very unremorseful," "cocksure," "nonchalant," "no
remorse-almost a cocky attitude," and "clever, smart, [and] calculating."xxv
IV. Opinion

26.

PCL-R psychopathy evidence provided by examiners in adversarial

legal settings is highly unreliable, has little or no probative value concerning prison
violence risk, and has the strong potential to stigmatize capital defendants with an
irrelevant and pejorative label and associated set of personality traits (e.g.,
remorselessness, conning/manipulative). As such, it is very difficult if not
impossible to argue that labeling a defendant as psychopathic has any
demonstrated probative value in capital cases. As was highlighted in earlier
sections of this affidavit, the general unreliability of PCL-R scores is in fact
evident in this particular case, with Dr. Finn and Dr. Price providing extremely
divergent scores (8 th or 9th percentile vs 88 th percentile). In sum, testimony based
on the PCL-R that a defendant is "a psychopath" is unreliable, unscientific, and
misleading in relation to the likelihood of a defendant being a future danger to
society if serving a life sentence in prison.
End of testimony.

17

App.050

John F. Edens, Ph.D.

Wei\ 19

Professor
Department of Psychological and Brain
Sciences
Texas A&M University

On this day,
I d-O;}.. \
(date), appeared before me, the
undersigned authority,te affiant, who being duly sworn stated under oath that the
above affidavit signed by the affiant is true and correct and within his or her personal
knowledge.

~~11i1~
Notary Public

18

App.051

End Notes

i

See, e.g: Buffington-Vollum, J. K., Edens, J. F., Johnson, D. W., & Johnson, J. (2002).
Psychopathy as a predictor of institutional misbehavior among sex offenders: A
prospective replication. Criminal Justice and Behavior, 29, 497-511.

Douglas, K. S., Vincent, G., & Edens, J. F. (2006). Risk for criminal recidivism: The role of
psychopathy. In C. Patrick (Ed.), Handbook ofpsychopathy (pp. 533-554). New York:
Guilford.
Edens, J. F., Buffington-Vollum, J. K., Colwell, K. W., Johnson, D. W., & Johnson, J. (2002).
Psychopathy and institutional misbehavior among incarcerated sex offenders: A
comparison of the Psychopathy Checklist-Revised and the Personality Assessment
Inventory. International Journal ofForensic Mental Health, 1, 49-58.
Edens, J. F., & Campbell, J. S. (2007). Identifying youths at risk for institutional misconduct: A
meta-analytic investigation of the Psychopathy Checklist measures. Psychological
Services, 4, 13-27.
Edens, J. F., Campbell, J. S., & Weir, J.M. (2007). Youth psychopathy and criminal recidivism:
A meta-analysis of the Psychopathy Checklist measures. Law and Human Behavior, 31,
53-75.
Edens, J. F ., & Cahill, M. A. (2007). Psychopathy in adolescence and criminal recidivism in
young adulthood: Longitudinal results from a multi-ethnic sample of youthful offenders.
Assessment, 14, 57-64.
Edens, J. F., Poythress, N. G., & Lilienfeld, S. 0. (1999). Identifying inmates at risk for
disciplinary infractions: A comparison of two measures of psychopathy. Behavioral
Sciences and the Law, 17, 435-443.
Edens, J. F., & Ruiz, M.A. (2006). On the validity of validity scales: The importance of
defensive responding in the prediction of institutional misconduct. Psychological
Assessment, 18, 220-224.
Edens, J. F., Skeem, J. L., & Douglas, K. S. (2006). Incremental validity analyses of the
Violence Risk Appraisal Guide and the Psychopathy Checklist: Screening Version in a
civil psychiatric sample. Assessment, 13, 368-374.

ii

Edens, J. F., Ruiz, M.A., & PAR Staff. (2005). Personality Assessment Inventory Interpretive
Report for Correctional Settings (PAI-CS). Odessa, FL: Psychological Assessment
Resources, Inc.

19

App.052

iii

See, e.g: Amenta, A. E., Guy, L. S., & Edens, J. F. (2003). Sex offender risk assessment: A
cautionary note regarding measures attempting to quantify violence risk. Journal of
Forensic Psychology Practice, 3, 39-50.

DeMatteo, D., Hart, S. D., Heilbrun, K., Boccaccini, M. T., Cunningham, M. D., Douglas, K.
S ... Reidy, T. J. (2020). Statement of concerned experts on the use of the Hare
Psychopathy Checklist-Revised in capital sentencing to assess risk for institutional
violence. Psychology, Public Policy, and Law, 26, 133-144.
DeMatteo, D., Hart, S. D., Heilbrun, K., Boccaccini, M. T., Cunningham, M. D., Douglas, K.
S ... Reidy, T. J. (2020). Death is different: Reply to Olver et al. (2020). Psychology,
Public Policy, and Law, 26, 511-518.
Edens, J. F. (2006). Unresolved controversies concerning psychopathy: Implications for clinical
and forensic decision-making. Professional Psychology: Research and Practice, 37, 5965.
Edens, J. F., & Boccaccini, M. T. (2017). Taking forensic mental health assessment 'out of the
lab' and into 'the real world': Introduction to the special issue on the field utility of
forensic assessment instruments and procedures. Psychological Assessment, 29, 710-719.
Edens, J. F., Buffington-Vollum, J. K., Keilen, A., Roskamp, P., & Anthony, C. (2005).
Predictions of future dangerousness in capital murder trials: Is it time to "disinvent the
wheel?" Law and Human Behavior, 29, 55-86.
Edens, J. F ., & Douglas, K. S. (2006). Assessment of interpersonal aggression and violence:
Introduction to the special issue. Assessment, 13, 1-6.
Edens, J. F., Magyar, M. S., & Cox, J. (2013). Taking psychopathy measures "out of the lab" and
into the legal system: Some practical concerns. In K. Kiehl & W. Sinnott-Armstrong
(Eds.), Handbook on psychopathy and law (pp. 250-272). New York: Oxford University
Press.
Edens, J. F., & Otto, R. K. (2001). Release decision making and planning. In J.B. Ashford, B. D.
Sales, & W. H. Reid (Eds.), Treating adult andjuvenile offenders with special needs (pp.
335-371). Washington, DC: American Psychological Association.
Edens, J. F., Petrila, J., & Kelley, S.E. (2018). Legal and ethical issues in the assessment and
treatment of psychopathy. In C. Patrick (Ed.), Handbook ofpsychopathy (2nd ed.). New
York: Guilford.
Edens, J. F., Petrila, J., & Buffington-Vollum, J. K. (2001). Psychopathy and the death penalty:
Can the Psychopathy Checklist-Revised identify offenders who represent "a continuing
threat to society?" Journal ofPsychiatry and Law, 29, 433-481.

20

App.053

Edens, J. F., Skeem, J. L., Cruise, K. R., & Cauffman, E. (2001). Assessment of 'juvenile
psychopathy' and its association with violence: A critical review. Behavioral Sciences
and the Law, 19, 53-80.
Kelley, S. E., Edens, J. F., Mowle, E. N., Rulseh, A., & Penson, B. N. (2019). Dangerous,
depraved, and death-worthy: A meta-analysis of the correlates of perceived psychopathy
injury simulation studies. Journal ofClinical Psychology, 75, 627-643.
Truong, T. N., Kelley, S. E., & Edens, J. F. (2021). Does psychopathy influence juror decisionmaking in capital murder trials? "The devil is in the (methodological) details." Criminal
Justice and Behavior, 48, 690-707.

iv

DeMatteo, D., Edens, J. F., Galloway, M., Cox, J., Smith, S. T., & Formon, D. (2014). The role
and reliability of the Psychopathy Checklist-Revised in U.S. sexually violent predator
evaluations: A case law survey. Law and Human Behavior, 38, 248-255.

DeMatteo, D., Edens, J. F., Galloway, M., Cox, J., Smith, S. T., Koller, J.P., & Bersoff, B.
(2014). Investigating the role of the Psychopathy Checklist-Revised in United States case
law. Psychology, Public Policy, and Law, 20, 96-107.
Edens, J. F., Cox, J., Smith, S. T., DeMatteo, D., & Sorman, K. (2015). How reliable are
Psychopathy Checklist-Revised scores in Canadian criminal trials? A case law review.
Psychological Assessment, 27, 447-456.
Edens, J. F., Petrila, J., & Kelley, S. E. (2018). Legal and ethical issues in the assessment and
treatment of psychopathy. In C. Patrick (Ed.), Handbook ofpsychopathy (2nd Ed.) (pp.
732-751). New York: Guilford.

v

Boccaccini, M.T., Turner, D.T. & Murrie, D.C. (2008). Do some evaluators report consistently
higher or lower scores on the PCL-R?: Findings from a statewide sample of sexually
violent predator evaluations. Psychology, Public Policy, and Law, 14, 262-283.

DeMatteo, D., Edens, J. F., Galloway, M., Cox, J., Smith, S. T., & Formon, D. (2014). The role
and reliability of the Psychopathy Checklist-Revised in U.S. sexually violent predator
evaluations: A case law survey. Law and Human Behavior, 38, 248-255.
Edens, J.F., Boccaccini, M.T., & Johnson, D.W. (2010). Inter-rater reliability of the PCL-R total
and factor scores among psychopathic sex offenders: Are personality features more prone
to disagreement than behavioral features? Behavioral Sciences and the Law, 28, 106-119.
Edens, J. F., Cox, J., Smith, S. T., DeMatteo, D., & Sorman, K. (2015). How reliable are
Psychopathy Checklist-Revised scores in Canadian criminal trials? A case law review.
Psychological Assessment, 27, 447-456.

21

App.054

Jeandarme, I., Edens, J. F., Habets, P., Bruckers, L., Oei, K., & Bogaerts, S. (2017). Psychopathy
Checklist- Revised field validity in prison and hospital settings. Law and Human
Behavior, 41, 29-43.
Lloyd, C.D., Clark, H.J., & Forth, A.E. (2010). Psychopathy, expert testimony and indeterminate
sentences: Exploring the relationship between Psychopathy Checklist-Revised testimony
and trial outcome in Canada. Legal and Criminological Psychology, 15, 323-339.
Miller, C. S., Kimonis, E. R., Otto, R. K., Kline, S. M., & Wasserman, A. L. (2012). Reliability
of risk assessment measures used in sexually violent predator proceedings. Psychological
Assessment, 24, 944-953.
Murrie, D.C., Boccaccini, M., Johnson, J. & Janke, C. (2008). Does interrater (dis)agreement on
Psychopathy Checklist scores in sexually violent predator trials suggest partisan
allegiance in forensic evaluations? Law and Human Behavior, 32, 352-362.
Murrie, D.C., Boccaccini, M., Turner, D., Meeks, M., Woods, C., & Tussey, C. (2009). Rater
(dis)agreement on risk assessment measures in sexually violent predator proceedings:
Evidence of adversarial allegiance in forensic evaluation? Psychology, Public Policy, and
Law, 15, 19-53.

vi

Boccaccini, M.T., Turner, D.T. & Murrie, D.C. (2008). Do some evaluators report consistently
higher or lower scores on the PCL-R?: Findings from a statewide sample of sexually
violent predator evaluations. Psychology, Public Policy, and Law, 14, 262-283.

Sturup, J., Edens, J. F., S5rman, K., Karlberg, D., Fredriksson, B., & Kristiansson, M. (2014).
Field reliability of the Psychopathy Checklist-Revised among life sentenced prisoners in
Sweden. Law and Human Behavior, 38, 315-324.

vii

Edens, J.F., Boccaccini, M.T., & Johnson, D.W. (2010). Inter-rater reliability of the PCL-R
total and factor scores among psychopathic sex offenders: Are personality features more
prone to disagreement than behavioral features? Behavioral Sciences and the Law, 28,
106-119.

Miller, C. S., Kimonis, E. R., Otto, R. K., Kline, S. M., & Wasserman, A. L. (2012). Reliability
of risk assessment measures used in sexually violent predator proceedings. Psychological
Assessment, 24, 944-953.
Stump, J., Edens, J. F., S5rman, K., Karlberg, D., Fredriksson, B., & Kristiansson, M. (2014).
Field reliability of the Psychopathy Checklist-Revised among life sentenced prisoners in
Sweden. Law and Human Behavior, 38, 315-324.

22

App.055

viii

Heilbrun, K. (1992). The role of psychological testing in forensic assessment. Law and
Human Behavior, 16, 257-272.

Nunnally, J., & Bernstein, I. (1994). Psychometric theory (3rd ed.). New York, NY: McGrawHill.
ix

Blais, J., Forth, A., & Hare, R. (2017). Examining the interrater reliability of the Hare
Psychopathy Checklist-Revised across a large sample of trained raters. Psychological
Assessment, 29(6), 762-775.

x

Kelley, S. E., Edens, J. F., Mowle, E. N., Rulseh, A., & Penson, B. N. (2019). Dangerous,
depraved, and death-worthy: A meta-analysis of the correlates of perceived psychopathy
injury simulation studies. Journal of Clinical Psychology, 75, 627-643.

xi

Guy, L. S., Edens, J. F., Anthony, C., & Douglas, K. S. (2005). Does psychopathy predict
institutional misconduct among adults? A meta-analytic investigation. Journal of
Consulting and Clinical Psychology, 73, 1056-1064.

xii

Cunningham, M. D., & Sorensen, J. R. (2006). Actuarial models for assessing prison violence
risk: Revisions and extensions of the Risk Assessment Scale for Prison (RASP).
Assessment, 13, 253-265.

Cunningham, M. D., Sorensen, J. R., & Reidy, T. J. (2005). An actuarial model for assessment of
prison violence risk among maximum security inmates. Assessment, 12, 40-49.
Edens, J. F., Buffington-Vollum, J. K., Keilen, A., Roskamp, P., & Anthony, C. (2005).
Predictions of future dangerousness in capital murder trials: Is it time to "disinvent the
wheel?" Law and Human Behavior, 29, 55-86.
Edens, J. F., Petrila, J., & Buffington-Vollum, J. K. (2001). Psychopathy and the death penalty:
Can the Psychopathy Checklist-Revised identify offenders who represent "a continuing
threat to society?" Journal ofPsychiatry and Law, 29, 433-481.
Marquart, J. W., Ekland-Olson, S., & Sorensen, J. (1989). Gazing into the crystal ball: Can jurors
accurately predict future dangerousness in capital cases? Law and Society Review, 23,
449-468.
Marquart, J. W., Ekland-Olson, S., & Sorensen, J. (1994). The rope, the chair, and the needle:
Capital punishment in Texas, 1923-1990. Austin, TX: University of Texas Press.
Marquart, J. W., & Sorensen, J. (1988). Institutional and postrelease behavior ofFurmancommuted inmates in Texas. Criminology, 26, 677-693.
23

App.056

Marquart, J. W., & Sorensen, J. (1989). A national study of the Furman-commuted inmates:
Assessing the threat to society from capital offenders. Loyola ofLos Angeles Law
Review, 23, 5-28.
Sorensen, J. R., & Pilgrim, R. L. (2000). An actuarial risk assessment of violence posed by
capital murder defendants. Journal ofCriminal Law & Criminology, 90, 1251-1270.
Sorensen, J. R., & Wrinkle, R.D. (1996). No hope for parole: Disciplinary infractions among
death-sentenced and life-without-parole inmates. Criminal Justice and Behavior, 23, 542552.
Zamble, E. (1992). Behavior and adaptation in long-term prison inmates: Descriptive
longitudinal results. Criminal Justice and Behavior, 19, 409-425.

xiii

Kennealy, P., Skeem, J., Walters, G., & Camp, J. (2010). Do core interpersonal and affective
traits of PCL-R psychopathy interact with antisocial behavior and disinhibition to predict
violence? Psychological Assessment, 22, 569-580.

Singh, J., Grann, M., & Fazel, S. (2011). A comparative study of violence risk assessment tools:
A systematic review and metaregression analysis of 68 studies involving 25,980
participants. Clinical Psychology Review, 31, 499-513.
Yang, M., Wong, S., & Coid, J. (2010). The efficacy of violence prediction: A meta-analytic
comparison of nine risk assessment tools. Psychological Bulletin, 136, 740-767.

xiv

Kennealy, P., Skeem, J., Walters, G., & Camp, J. (2010). Do core interpersonal and affective
traits of PCL-R psychopathy interact with antisocial behavior and disinhibition to predict
violence? Psychological Assessment, 22, 569-580.

See also:
Edens, J. F., Kelley, S. E., Lilienfeld, S. 0., Skeem, J. L., & Douglas, K. S. (2015). DSM-5
antisocial personality disorder: Predictive validity in a prison sample. Law and Human
Behavior, 39, 123-129.
Walters, G.D., & Knight, R. A. (2010). Antisocial personality disorder with and without
antecedent childhood conduct disorder: Does it make a difference? Journal ofPersonality
Disorders, 24, 258-271.

xv

DeMatteo, D., Hart, S. D., Heilbrun, K., Boccaccini, M. T., Cunningham, M. D., Douglas, K.
S... Reidy, T. J. (2020). Statement of concerned experts on the use of the Hare
Psychopathy Checklist-Revised in capital sentencing to assess risk for institutional
violence. Psychology, Public Policy, and Law, 26, 133-144.
24

App.057

See also:
DeMatteo, D., Hart, S. D., Heilbrun, K., Boccaccini, M. T., Cunningham, M. D., Douglas, K.
S ... Reidy, T. J. (2020). Death is different: Reply to Olver et al. (2020). Psychology,
Public Policy, and Law, 26, 511-518.
For commentaries on this position statement, see:
Hare, R. D., Olver, M. E., Stockdale, K. C., Neumann, C. S., Mokros, A., Baskin-Sommers, A.,
Brand, E., Folino, J., Gacono, C., Gray, N. S., Kiehl, K., Knight, R., Leon-Mayer, E.,
Logan, M., Meloy, J. R., Roy, S., Salekin, R. T., Snowden, R. J., Thomson, N., ... Yoon,
D. (2020). The PCL-R and capital sentencing: A commentary on "Death is different"
DeMatteo et al (2020a). Psychology, Public Policy, and Law, 26, 519-522.
Olver, M. E., Stockdale, K. C., Neumann, C. S., Hare, R. D., Mokros, A.,Baskin-Sommers,
A., ... Yoon, D. (2020). Reliability and validity of the Psychopathy Checklist-Revised in
the assessment of risk for institutional violence: A cautionary note on DeMatteo et al.
(2020). Psychology, Public Policy, and Law, 26, 490-510.

xvi

Helfgott, J.B. (1997, March). The popular conception of the psychopath: Implications for
criminal justice policy and practice. Paper presented at the 34th Annual Meeting of the
Academy of Criminal Justice Sciences, Louisville, KY.

Rogers, R., Dion, K. L., & Lynett, E. (1992). Diagnostic validity of antisocial personality
disorder: A prototypical analysis. Law and Human Behavior, 16, 677-689.
Smith, S. T., Edens, J. F., Clark, J., & Rulseh, A. (2014). "So, what is a psychopath?"
Venireperson perceptions, beliefs and attitudes about psychopathic personality. Law and
Human Behavior, 38, 490-500.
xvii

Edens, J. F., Clark, J., Smith, S. T., Cox, J., & Kelley, S. (2013). Bold, smart, dangerous and
evil: Perceived correlates of core psychopathic traits among jury panel members.
Personality and Mental Health, 7, 143-153.

xviii

Kelley, S. E., Edens, J. F., Mowle, E. N., Rulseh, A., & Penson, B. N. (2019). Dangerous,
depraved, and death-worthy: A meta-analysis of the correlates of perceived psychopathy
injury simulation studies. Journal of Clinical Psychology, 75, 627-643.

See, also: Truong, T. N., Kelley, S. E., & Edens, J. F. (2021). Does psychopathy influence juror
decision-making in capital murder trials? "The devil is in the (methodological) details."
Criminal Justice and Behavior, 48, 690-707.
xix

Edens, J. F., Desforges, D. M., Fernandez, K., & Palac, C. A. (2004). Effects of psychopathy
25

App.058

and violence risk testimony on mock juror perceptions of dangerousness in a capital
murder trial. Psychology, Crime, and Law, 10, 393-412.
Edens, J. F., Davis, K. M., Fernandez Smith, K., & Guy, L. S. (2013). No sympathy for the devil:
Attributing psychopathic traits to capital murderers also predicts support for executing
them. Personality Disorders: Theory, Research, and Treatment, 4, 175-181.
Edens, J. F., Guy, L. S., & Fernandez, K. (2003). Psychopathic traits predict attitudes toward a
juvenile capital murderer. Behavioral Sciences and the Law, 21, 807-828.

xx

Edens, J. F., Colwell, L. H., Desforges, D. M., & Fernandez, K. (2005). The impact of mental
health evidence on support for capital punishment: Are defendants labeled psychopathic
considered more deserving of death? Behavioral Sciences and the Law, 23, 603-625.

xxi

Edens, J. F., Desforges, D. M., Fernandez, K., & Palac, C. A. (2004). Effects of psychopathy
and violence risk testimony on mock juror perceptions of dangerousness in a capital
murder trial. Psychology, Crime, and Law, 10, 393-412.

xxii

Berryessa, C. M., & Wohlstetter, B. (2019). The psychopathic "label" and effects on
punishment outcomes: A meta-analysis. Law and Human Behavior, 43(1), 9-25.

xxiii

xxiv

xxv

Saks, M. J., Schweitzer, N. J., Aharoni, E. and Kiehl, K. A. (2014). The impact of
neuroimages in the sentencing phase of capital trials. Journal of Empirical Legal Studies,
11, 105-131.
Truong, T. N., Kelley, S. E., & Edens, J. F. (2021). Does psychopathy influence juror
decision-making in capital murder trials? "The devil is in the (methodological) details."
Criminal Justice and Behavior, 48, 690-707.
Sundby, S.E. (1998). The capital jury and absolution: The intersection of trial strategy,
remorse, and the death penalty. Cornell Law Review, 83, 1557-1598.

26

App.059

Psychology, Public Policy, and Law
Statement of Concerned Experts on the Use of the Hare
Psychopathy Checklist—Revised in Capital Sentencing to
Assess Risk for Institutional Violence
David DeMatteo, Stephen D. Hart, Kirk Heilbrun, Marcus T. Boccaccini, Mark D. Cunningham, Kevin
S. Douglas, Joel A. Dvoskin, John F. Edens, Laura S. Guy, Daniel C. Murrie, Randy K. Otto, Ira K.
Packer, and Thomas J. Reidy
Online First Publication, January 30, 2020. http://dx.doi.org/10.1037/law0000223

CITATION
DeMatteo, D., Hart, S. D., Heilbrun, K., Boccaccini, M. T., Cunningham, M. D., Douglas, K. S., Dvoskin,
J. A., Edens, J. F., Guy, L. S., Murrie, D. C., Otto, R. K., Packer, I. K., & Reidy, T. J. (2020, January 30).
Statement of Concerned Experts on the Use of the Hare Psychopathy Checklist—Revised in
Capital Sentencing to Assess Risk for Institutional Violence. Psychology, Public Policy, and Law.
Advance online publication. http://dx.doi.org/10.1037/law0000223

App.060

Psychology, Public Policy, and Law
© 2020 American Psychological Association
ISSN: 1076-8971

2020, Vol. 1, No. 999, 000
http://dx.doi.org/10.1037/law0000223

Statement of Concerned Experts on the Use of the Hare Psychopathy
Checklist—Revised in Capital Sentencing to Assess Risk for
Institutional Violence
David DeMatteo

Stephen D. Hart

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

Drexel University

Simon Fraser University

Kirk Heilbrun

Marcus T. Boccaccini

Drexel University

Sam Houston State University

Mark D. Cunningham

Kevin S. Douglas

Seattle, Washington

Simon Fraser University

Joel A. Dvoskin

John F. Edens

University of Arizona College of Medicine

Texas A&M University

Laura S. Guy

Daniel C. Murrie

Simon Fraser University

University of Virginia

Randy K. Otto

Ira K. Packer

University of South Florida

University of Massachusetts Medical School

Thomas J. Reidy

Monterey, California
Psychopathy as measured by the Hare Psychopathy Checklist—Revised (PCL–R; Hare, 1991, 2003) is
related to a range of rule-breaking and antisocial behaviors. Given this association, psychopathy has
received considerable attention from researchers and legal professionals over the past several decades.
Concerns remain, however, about using PCL–R scores to make precise and accurate predictions in certain
contexts, including an individual’s risk for committing serious violence in high-security custodial
facilities. After a brief introduction to psychopathy and the PCL–R, we discuss capital sentencing in the
United States and then summarize the empirical literature regarding the ability of PCL–R scores to
predict violence, with a particular focus on the PCL–R’s ability to predict serious institutional violence.
As described, we believe the research demonstrates that the PCL–R cannot precisely or accurately predict

The authors are presented in alphabetical order following the third
author. The Statement presented in the Appendix of this article represents
the consensus of our views as individual forensic mental health professionals; it does not necessarily reflect the views of this journal’s Editorial
Board and publisher, the American Psychological Association, or any other
agencies or organizations with which we are affiliated or for which we
work. As any statement derived by consensus reflects compromise in the
choice of language, each member comprising the Group of Concerned
Forensic Mental Health Professionals may a have preferred manner of
expressing the findings and opinions that differs from that in the Statement
in nuance or detail. We thank Kellie Wiltsie for providing research assistance for this article.
Correspondence concerning this article should be addressed to David
DeMatteo, Department of Psychology, Drexel University, 3141 Chestnut Street, Stratton Suite 119, Philadelphia, PA 19104. E-mail:
david.dematteo@drexel.edu

X David DeMatteo, Department of Psychology & Thomas R. Kline
School of Law, Drexel University; X Stephen D. Hart, Department
of Psychology, Simon Fraser University; X Kirk Heilbrun, Department of
Psychology, Drexel University; Marcus T. Boccaccini, Department of
Psychology and Philosophy, Sam Houston State University; Mark D.
Cunningham, Private Practice, Seattle, Washington; Kevin S. Douglas,
Department of Psychology, Simon Fraser University; Joel A. Dvoskin,
Department of Psychiatry, University of Arizona College of Medicine;
X John F. Edens, Department of Psychological & Brain Sciences, Texas
A&M University; Laura S. Guy, Department of Psychology, Simon Fraser
University; Daniel C. Murrie, Institute of Law, Psychiatry, and Public
Policy, University of Virginia; Randy K. Otto, Department of Mental
Health Law & Policy, University of South Florida; X Ira K. Packer,
Department of Psychiatry, University of Massachusetts Medical School;
X Thomas J. Reidy, Private Practice, Monterey, California.
1

App.061

2

DEMATTEO ET AL.
an individual’s risk for committing serious violence in high-security custodial facilities. Finally, we
present a Statement of Concerned Experts that summarizes our findings and opinions, concluding the
PCL–R cannot and should not be used to make predictions that an individual will engage in serious
institutional violence with any reasonable degree of precision or accuracy, especially when making
high-stakes decisions about legal issues such as capital sentencing.
Keywords: psychopathy, Psychopathy Checklist—Revised, violence risk, institutional violence, capital
sentencing

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

Supplemental materials: http://dx.doi.org/10.1037/law0000223.supp

There is an essential tension that underlies the study of psychopathy in forensic mental health. On one hand, it continues to
garner considerable attention in the scientific and professional
literature, and there is a large body of work indicating that the
construct is related to a broad range of adverse behavioral outcomes, including antisocial and criminal conduct. Much of this
literature focuses on the use of the Hare Psychopathy Checklist—
Revised (PCL–R; Hare, 1991, 2003), a psychological rating scale
that is often identified as the “gold standard” for the assessment of
psychopathy. Perhaps the best summary of the literature to date is
that symptoms of psychopathy, as assessed using the PCL–R, are
associated with general rule-breaking and trouble-making across
settings and populations. But serious concerns have been expressed about the limitations of using both research on psychopathy and scores on the PCL–R to make reliable (i.e., consistent)
and accurate (i.e., valid) predictions. This is especially true when
those predictions concern specific individuals, specific populations, specific antisocial acts, and specific settings or are made
with the goal of assisting decisions about specific legal issues.
It may strike some people as confusing or even logically incoherent to conclude that the scientific and professional literature
can, simultaneously, support the general usefulness of psychopathy as a construct but fail to support the use of psychopathy rating
scales by forensic mental health professionals to make certain
predictions of violence. Yet, that is exactly what we—a group of
concerned forensic mental health professionals— believe to be true
and exactly what motivated us to prepare the Statement of Concerned Experts (“Statement”) presented in this article, which focuses on what we consider to be the inappropriate use of the
PCL–R to draw conclusions about an individual’s risk for committing serious violence in high-security custodial facilities. We
conclude that the literature does not support the use of the PCL–R
to predict serious institutional violence. Our interpretation of the
research literature is that not only is there an absence of proof it
can do so, but that the literature demonstrates it cannot do so
precisely or accurately; that is, there is “proof of absence” of such
an association. This conclusion has important real-world implications because PCL–R scores are sometimes offered in capital
sentencing evaluations to draw conclusions regarding an offender’s “future dangerousness” in the sense of risk for serious institutional violence. Not only do PCL–R scores lack probative value
with respect to determining risk for serious institutional violence,
there is compelling evidence to suggest that characterizing defendants as “psychopaths” has a substantial prejudicial impact that
may make jurors more inclined to support the death penalty for
them (Kelley, Edens, Mowle, Penson, & Rulseh, 2019). Quite
simply, the question of whether or how much to rely on the PCL–R

to assess risk for serious institutional violence may be a matter of
life or death.
We begin this article with a brief introduction to the concept
of psychopathy and the PCL–R. We then move on to discuss the
relevance of risk for serious institutional violence to capital
sentencing decisions and summarize what is known and what is
not known with respect to the use of the PCL–R to make precise
and accurate predictions of serious institutional violence. Finally, we present the full Statement that summarizes the available scientific literature and ends by concluding the PCL–R
cannot make predictions that an individual will engage in
serious institutional violence with any reasonable degree of
precision or accuracy and should not be used for this purpose in
capital sentencing evaluations

Psychopathy and the PCL–R
The disorder currently known as psychopathy has been recognized by various names for hundreds of years, but the conceptualization of psychopathy historically included a wide
range of poorly defined and conceptually inconsistent traits (see
Millon, Simonsen, & Birket-Smith, 1998). However, the publication of several seminal books and articles on psychopathy in
the 1940s, including Cleckley’s (1941) The Mask of Sanity and
Karpman’s (1946, 1948) description of primary psychopathy,
marked a shift in our understanding of the disorder. As conceptualized by Cleckley, Karpman, and others who followed
them, psychopathy refers to a distinct constellation of interpersonal, affective, and behavioral personality traits that are extreme and maladaptive, including egocentricity, lack of empathy, shallow affect, impulsivity, and a tendency to violate social
norms (Hare & Neumann, 2009).
Since the 1980s, the construct of psychopathy often has been
operationalized using instruments developed by Robert Hare and
colleagues, including the Psychopathy Checklist (PCL; Hare,
1980), later revised and eventually commercially published as the
Hare Psychopathy Checklist—Revised (PCL–R; Hare, 1991,
2003). The Hare scales (as they are sometimes referred to) appear
to reflect the interpersonal and affective characteristics of the
disorder highlighted by Cleckley (1941), Karpman (1946, 1948),
and others better than do many other commonly used psychological tests and diagnostic criteria. We focus on the PCL–R, as it is
the Hare scale that is most widely researched and most commonly
used in practice by forensic mental health professionals around the
world, and also because it formed the basis for the development of
other rating scales, among them the Screening Version and Youth

App.062

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

PCL–R AND RISK FOR INSTITUTIONAL VIOLENCE

Version of the PCL–R (PCL:SV and PCL:YV, respectively; Hart,
Cox, & Hare, 1995; Forth, Kosson, & Hare, 2003).
The PCL–R is a 20-item symptom construct rating scale for
the assessment of psychopathy in adult correctional offenders
and forensic mental health patients (Hare, 2003). Each of the 20
items reflects a different (putative) feature or characteristic of
psychopathy. Standard administration of the PCL–R includes a
semistructured interview and a review of collateral records, and
on the basis of this information evaluators rate the lifetime
presence of each feature using a 3-point ordinal scale (briefly,
0 ⫽ item does not apply to the individual, 1 ⫽ item applies to
a certain extent, 2 ⫽ item applies). Scores on individual items
can be summed to form various composites, the most commonly
used of which is total score, reflecting the unit-weighted sum of
all 20 items. Total score ranges from 0 to 40, with higher scores
indicating higher levels of psychopathy. Scores of 30 and
higher are frequently considered diagnostic of psychopathy,
although the PCL–R manual (Hare, 2003) makes clear that this
is a cutoff of convenience. Although the general descriptive
utility of this particular cutoff is supported by research (e.g.,
Hare, 1991), it is nevertheless arbitrary. There is no good
theoretical or empirical basis for assuming that psychopathy
forms a natural taxon; indeed, most research tends to support
the view that psychopathy is most parsimoniously and usefully
conceptualized in dimensional rather than categorical terms
(e.g., Edens, Marcus, Lilienfeld, & Poythress, 2006). Also,
there is remarkable heterogeneity— both potential and actual—
among those at or above the PCL–R cutoff score of 30 and
higher (e.g., Balsis, Busch, Wilfong, Newman, & Edens, 2017;
see also Mokros et al., 2015; Poythress et al., 2010).
One strength of PCL–R scores is their high level of interrater
reliability (i.e., agreement among independent evaluators with
respect to PCL–R scores) reported in professional manuals and
in many published research reports. Many studies have found
that well-trained evaluators in controlled research contexts produce scores with high levels of interrater reliability and, consequently, a small standard error of measurement (“margin of
error”) with respect to the expected level of disagreement
between raters (see DeMatteo, Murrie, Edens, & Lankford,
2019, for a review). The PCL–R manual (Hare, 2003) reports
the following intraclass correlation coefficients (ICCs): the
pooled ICC for male criminal offenders was .86 for a single
rating (ICC1) and .92 for the average of two ratings (ICC2);
ICC1 was .88 and ICC2 was .93 for the male forensic psychiatric
patients; and ICC1 was .94 and ICC2 was .97 for the female
criminal offenders, with these values suggesting acceptable
reliability (Nunnally & Bernstein, 1994).
But interrater reliability is a property of scores obtained for a
particular sample of people and in a particular context; it is not a
stable property of the test itself that necessarily generalizes
across samples or contexts. Research conducted over the past 10
to 15 years raises concerns about the interrater reliability of
PCL–R scores made in psycholegal contexts, and several
caselaw reviews have examined the interrater reliability of
PCL–R scores in court cases. For example, in their review of
United States sexually violent predator (SVP) cases involving
use of the PCL–R, DeMatteo et al. (2014a) identified 29 cases
in which the same offender was assessed with the PCL–R by two
evaluators. In those 29 cases, the ICC1 was .58, and only 41% of

3

the score differences were within one standard error of measurement (SEM). Further, scores by prosecutor-retained experts were
significantly higher than the scores produced by defense-retained
experts; prosecution experts reported PCL–R scores of 30 or above
in nearly 50% of the cases, compared with less than 10% of the
same cases appraised by defense experts. In a caselaw survey that
included 102 criminal cases from Canada, the single-rater ICC was
.59 for all cases, with an ICC of .66 for cases involving a sexual
offense and an ICC .46 for nonsexual offense cases (Edens, Cox,
Smith, DeMatteo, & Sörman, 2015).
From a practical perspective, it is useful to note that if the ICC
for PCL–R ratings in adversarial legal proceedings do in fact
approximate .60 as suggested above, then the corresponding 95%
confidence interval around an average PCL score would fall between the 11th and 89th percentiles (Edens & Boccaccini, 2017).
This analysis ignores certain important qualifiers, such as the
fact that the PCL–R normative data are not normally distributed
and that reliability estimates are not constant across the range of
possible test score results (i.e., they tend to decrease the further
away an obtained score is from the mean), which may further
reduce the expected agreement among raters (Cooke & Michie,
2010).
Taken together, these results reveal two things. First, there is a
tendency for examiners in adversarial settings to disagree with
each other to an extent that is much greater than would be expected
based on the ICC values reported in the PCL–R professional
manual (Hare, 2003). Second, there is a tendency for prosecutionretained evaluators to report higher PCL–R scores than do defenseretained evaluators in evaluations of the same person, made around
the same time, and even when made on the same information base.
This tendency for some experts to drift from more objective
findings to ratings that better support the party that retained them
has been termed adversarial allegiance (Murrie & Boccaccini,
2015). Adversarial allegiance has been examined in both field
studies and controlled research. In the first field study to examine
adversarial allegiance, Murrie, Boccaccini, Johnson, and Janke
(2008) collected PCL–R scores assigned by petitioner-retained1
and respondent-retained psychologists in 23 SVP cases in Texas;
these cases permitted the examination of PCL–R scores that opposing evaluators assigned to the same offender. There was a large
difference between PCL–R scores assigned by petitioner-retained
and respondent-retained evaluators (Cohen’s d ⫽ 1.03) that reflected a low level of interrater agreement across raters (ICC ⫽
.39). In 14 of the 23 cases (61%), there was a difference of more
than 6.0 points between the two PCL–R total scores; given the
SEM of roughly 3.0 points for PCL–R scores, differences of this
magnitude should occur by chance in less than 5% of cases. In
each case, the petitioner-retained evaluator assigned a higher score
than the respondent-retained evaluator. A follow-up study that
included 35 SVP cases revealed similar allegiance effects in
PCL–R scoring (Murrie et al., 2009).
Although the results of field studies suggest the presence of
adversarial allegiance in PCL–R scoring, the nature of field
1
As civil proceedings, SVP hearings use slightly different terminology
than criminal proceedings. The petitioner, which is the party seeking civil
commitment of the offender, is roughly analogous to the prosecution in
criminal proceedings, whereas the respondent is roughly analogous to the
defendant in criminal proceedings.

App.063

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

4

DEMATTEO ET AL.

studies does not permit alternative explanations for the observed results to be ruled out. It is possible, for example, that
the observed pattern in PCL–R scoring in the field studies may
be due to savvy attorneys selecting experts who are most
favorable to their perspective on the case. It is also possible that
the nature of caselaw reviews, which comprise only published
cases, is contributing to the appearance of adversarial allegiance. In other words, contentious cases are more likely to go
to trial, whereas the large majority of cases that never went to
trial may have involved similar PCL–R scores by prosecutionretained and defense-retained experts. Finally, it is possible that
one unreliable PCL–R score may lead the parties to reach a plea
bargain instead of proceeding to trial, thereby making the case
unavailable for research purposes.
Fortunately, some experimental research (which does not
have the same limitations as field studies) has examined adversarial allegiance in PCL–R scoring. Murrie, Boccaccini,
Guarnera, and Rufino (2013) recruited more than 100 forensic
psychologists and psychiatrists under the guise of performing a
forensic consultation. These forensic mental health professionals were (without their awareness) randomly assigned to either
a prosecution-allegiance or defense-allegiance group. Participants met for 10 to 15 minutes with an attorney who posed as
leading either a public defender service or specialized prosecution unit, and the attorney then requested that the expert score
two tests, one of which was the PCL–R, based on extensive
offender records. Each participant was scoring the same four
case files that spanned from low risk to high risk. As hypothesized, the PCL–R scores assigned by prosecution experts and
defense experts showed evidence of adversarial allegiance. On
average, prosecution evaluators assigned significantly higher
PCL–R scores than did defense evaluators for three of four
cases, with effect sizes in the medium to large range (Cohen’s
d of .55 to .85). Follow-up analyses examined how likely it was
that a randomly selected prosecution expert and a randomly
selected defense expert would assign scores that were so different that they could not be explained by random measurement
error. Results revealed that more than 20% of the score pairings
for each case reflected a score difference that was more than
twice the SEM in the PCL–R manual. Further, most large (ⱖ2
SEM) differences were in the direction of adversarial allegiance, with the prosecution expert assigning higher scores and
the defense expert assigning lower scores (Murrie et al., 2013).

Capital Sentencing in the United States and the Issue
of Risk for Serious Institutional Violence
Capital sentencing is the process by which criminal offenders
are sentenced to death or life in prison after being convicted of a
capital offense. The Supreme Court of the United States has
provided many substantive and procedural constitutional restrictions on imposing the death penalty. Among other rulings, the
Supreme Court has held that the death penalty (a) cannot be
mandatorily imposed (Roberts v. Louisiana, 1976); (b) can only be
imposed for crimes involving death (Kennedy v. Louisiana, 2008);
(c) cannot be imposed on individuals who were juveniles at the time
of the offense (Roper v. Simmons, 2005), individuals who are intellectually disabled (Atkins v. Virginia, 2002), or individuals who are
not competent to be executed (Ford v. Wainwright, 1986; Panetti v.

Quarterman, 2007); (d) requires a jury to reach findings of fact
concerning aggravating factors (Ring v. Arizona, 2002); and (e) must
be based on individualized consideration of each crime and defendant
(Eddings v. Oklahoma, 1982; Lockett v. Ohio, 1978).
In several death penalty decisions dating back to the reinstatement
of capital punishment in 1976, the Supreme Court has held that the
sentencing jury must be given guidance in deciding whether death is
an appropriate punishment (e.g., Gregg v. Georgia, 1976). The guidance provided to sentencing juries takes the form of statutorily defined
aggravating factors (which support the imposition of the death penalty) and a nonexhaustive statutory list of mitigating factors (which
support the imposition of life in prison). Aggravating factors, which
are intended to narrow the class of offenders for whom death is
appropriate, pertain to the offense and offender (e.g., murdering
certain classes of people, committing murder in the course of a felony,
an offender’s history of prior violent felonies), whereas mitigating
factors can be anything that is relevant to the determination of whether
death is an appropriate sentence. One aggravating factor outlined by
some states is a capital defendant’s risk of future danger (see DeMatteo, Murrie, Anumba, & Keesler, 2011; Fairfax-Columbo & DeMatteo, 2017).
In capital sentencing contexts, future dangerousness is the probability that an individual, absent a penalty of death, will engage in
future violent behavior. Currently, of the 29 states that have the death
penalty, three states (Oregon, Texas, and Virginia) explicitly require
that sentencing juries consider future dangerousness as an aggravating
factor, three states (Idaho, Oklahoma, Wyoming) explicitly permit
consideration of future dangerousness as an aggravating factor, 12
states (Alabama, Arkansas, California, Colorado, Georgia, Kentucky,
Missouri, North Carolina, Pennsylvania, South Carolina, South Dakota, Utah) permit consideration of future dangerousness as a nonstatutory aggravating factor, and six states (Florida, Indiana, Kansas,
Mississippi, Ohio, Tennessee) prohibit consideration of future dangerousness as an aggravating factor, with the remaining five states
(Louisiana, Montana, Nebraska, Nevada, New Hampshire) making no
mention of future dangerousness in the death penalty statute. In many
death penalty jurisdictions, considering risk for future violence is
quite commonplace, with research suggesting that future dangerousness often plays a prominent role in capital sentencing contexts (e.g.,
Cunningham & Goldstein, 2003; Cunningham & Reidy, 1999; Shapiro, 2009).
When considering the role of future dangerousness in capital
sentencing proceedings, it is important to frame the question
properly. As noted, at the capital sentencing stage, the jury usually
deliberates between sentencing the defendant to death or life in
prison; in most cases, release to the community is not an option, at
least in the foreseeable future and barring unforeseen circumstances.2 Therefore, as noted by a number of researchers and
scholars, questions about violence risk in capital cases primarily
2
A few states impose capital sentences with the possibility of release or
parole in the distant future. As such, in these cases, forensic mental health
professionals may be asked to opine about the defendant’s risk for violence
if and when the offender is released to the community many years in the
future. These circumstances are rare, however. Most violence risk assessments in capital sentencing proceedings focus on risk of violence in the
prison context, and it is difficult to imagine a scenario in which a violence
risk assessment for capital sentencing would address risk of violence in the
community in the near future.

App.064

5

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

PCL–R AND RISK FOR INSTITUTIONAL VIOLENCE

involve whether the defendant will be violent while incarcerated in
a high-security correctional facility (e.g., Cunningham, 2006,
2008; DeMatteo et al., 2011; Edens, Buffington-Vollum, Keilen,
Roskamp, & Anthony, 2005). Many courts have explicitly recognized that violence risk assessments in capital cases are specific to
the prison context (e.g., United States v. Sablan, 2006), although
some have taken a broad and amorphous view of what it means to
be a potential “danger to society” (e.g., Coble v. Texas, 2010). In
this article, we are focusing specifically on the use of the PCL–R
to predict serious (i.e., nontrivial) violence in high-security correctional settings. It is generally accepted in the field of forensic
mental health that violence risk is—and therefore violence risk
assessment must be— context specific (e.g., Conroy & Murrie,
2007; Heilbrun, 1992, 2009).
As this review makes clear, future dangerousness may be a
relevant consideration in capital sentencing evaluations. The
PCL–R has been used to asses psychopathy as a risk factor for
future violence in such evaluations (e.g., Busby v. Stephens, 2015;
Martinez v. Dretke, 2004; United States v. Barnette, 2000; United
States v. Fell, 2008). Accordingly, it is essential to evaluate the
predictive validity of PCL–R scores, and in particular to evaluate
its predictive validity with respect to serious institutional violence.
In the following section, we turn to this issue.

Predictive Validity of the PCL–R
As noted previously, a well-developed body of research suggests that psychopathy is related to several outcomes that are of
considerable interest to the criminal justice system. PCL–R scores
are associated with diverse forms of antisocial and criminal behavior in diverse settings and populations (see Patrick, 2018, for a
review). As a result, researchers, clinicians, and legal professionals
are attentive to psychopathy in a variety of legal contexts. Research suggests that psychopathy evidence, typically in the form of
PCL–R scores, is offered in legal proceedings in the United States,
the United Kingdom, and Canada (DeMatteo et al., 2014b;
Gagnon, Douglas, & DeMatteo, 2007; Howard, Khalifa, Duggan,
& Lumsden, 2012). PCL–R scores may be of use in some psycholegal evaluations when considered as part of a comprehensive,
individualized, and contextualized evaluation. But because of their
imperfect interrater reliability (which is, of course, a concern in
any evaluation) and variability in their predictive validity across
outcomes, settings, and samples (which is a concern with respect
to prediction of serious institutional violence), PCL–R scores may
lack probative value or, worse, have a prejudicial impact. (For a
fuller discussion of the potential prejudicial impact of PCL–R
scores, see DeMatteo, Hodges, & Fairfax-Columbo, 2016, and
DeMatteo et al., 2019.)
The predictive validity (accuracy) of PCL–R scores with respect
to general institutional misconduct has been studied for many
years. Some early retrospective studies provided evidence of an
association between PCL–R scores and past institutional misconduct. However, to the extent that PCL–R scores could have been
biased or contaminated by the violence history of people being
evaluated, such research is of little or no value in evaluating
predictive accuracy. Later studies specifically examined the ability
of PCL measure scores to predict institutional misconduct using
true prospective research designs. In meta-analyses of such studies, Walters (2003a) reported a moderate association between

PCL–R Total scores and institutional adjustment, including both
violent and nonviolent institutional conduct (rw ⫽ 0.27), and small
(rw ⫽ 0.18) to moderate (rw ⫽ .27) associations between PCL–R
Factor 1 and 2 scores, respectively, for violent and nonviolent
infractions (Walters, 2003b). Still, Walters (2003a, 2003b) did not
distinguish between more serious institutional violence and other
infractions.
In a large meta-analysis of published and unpublished studies,
Guy, Edens, Anthony, and Douglas (2005) coded 273 effect sizes
to examine the association between PCL, PCL–R, and PCL:SV
scores and institutional misconduct in civil psychiatric, forensic
psychiatric, and correctional facilities. Importantly, they were able
to specifically analyze the association with more serious institutional violence, in this case, physical violence (i.e., any actual or
attempted physical harm). The association between total scores
and physical violence was small (rw ⫽ .17) – indeed, much smaller
than the typical violence risk assessment meta-analytic effect sizes,
which are best described as moderate in size (rs ⬵ .30 –35; see
Campbell, French, & Gendreau, 2009; Fazel, Singh, Doll, &
Grann, 2012; Singh, Grann, & Fazel, 2011; for a review of risk
assessment meta-analyses, see Douglas, 2019).
A few studies published after the Guy et al. (2005) metaanalysis found that PCL measures predict institutional misconduct
(e.g., Huchzermeier, Bruss, Geiger, Kernbichler, & Aldenhoff,
2008), but most studies have reported similarly weak effects (e.g.,
Camp, Skeem, Barchard, Lilienfeld, & Poythress, 2013; Hogan &
Olver, 2016; McDermott, Edens, Quanbeck, Busse, & Scott, 2008;
Morrissey et al., 2007; Walters & Mandell, 2007). It should also be
noted that the rate of serious institutional violence among capital
murderers sentenced to death is very low (e.g., Cunningham,
Reidy, & Sorensen, 2005; Sorensen & Wrinkle, 1996), which
would tend to further reduce the predictive validity of the PCL–R.

Conclusion
Two major findings emerged from our review of the literature,
summarized above. First, the interrater reliability of PCL–R scores
in field settings, and in particular in adversarial contexts, is problematically low. Second, the overall association between PCL–R
scores and violence at the group level is only moderate in terms of
effect size, both in absolute terms and relative to the effect size of
other established risk factors for violence; the association between
PCL–R scores and violence in institutional settings is small in
terms of effect size; and the association between PCL–R scores
and serious institutional violence is negligible. Our conclusion
based on these findings was that one cannot use the PCL–R in the
context of capital sentencing evaluations to make predictions that
an individual will engage in serious violence in high-security
institutional settings with adequate precision or accuracy to justify
reliance on the PCL–R scores.
Accordingly, we established a Group of Concerned Forensic
Mental Health Professionals and developed a Statement to summarize our findings and opinions in this respect (see the Appendix
and the online supplemental materials). Our goal in developing and
disseminating the Statement was to educate others concerning the
current state of the scientific literature and the appropriate use of
the PCL–R when making capital sentencing and other high-stakes
decisions. We emphasize that although this Statement focuses on
the PCL–R, this is only because it is the instrument most widely

App.065

6

DEMATTEO ET AL.

used to assess psychopathy in forensic mental health contexts; all
our concerns about relying on the PCL–R to predict whether an
individual will commit serious institutional violence apply equally
or to an even greater degree to the use of other means of assessing
psychopathy for that purpose.

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

References
American Psychiatric Association. (2013). Diagnostic and statistical manual of mental disorders (5th ed.). Washington, DC: American Psychiatric Press.
Atkins v. Virginia, 536 U.S. 304 (2002).
Balsis, S., Busch, A. J., Wilfong, K. M., Newman, J. W., & Edens, J. F.
(2017). A statistical consideration regarding the threshold of the Psychopathy Checklist—Revised. Journal of Personality Assessment, 99,
494 –502. http://dx.doi.org/10.1080/00223891.2017.1281819
Boccaccini, M. T., Turner, D. B., & Murrie, D. C. (2008). Do some
evaluators report consistently higher or lower PCL–R scores than others? Findings from a statewide sample of sexually violent predator
evaluations. Psychology, Public Policy, and Law, 14, 262–283. http://
dx.doi.org/10.1037/a0014523
Busby v. Stephens, 2015 WL 1037460 (N. D. Tex. Mar. 10, 2015).
Camp, J. P., Skeem, J. L., Barchard, K., Lilienfeld, S. O., & Poythress,
N. G. (2013). Psychopathic predators? Getting specific about the relation
between psychopathy and violence. Journal of Consulting and Clinical
Psychology, 81, 467– 480. http://dx.doi.org/10.1037/a0031349
Campbell, M. A., French, S., & Gendreau, P. (2009). The prediction of
violence in adult offenders: A meta-analytic comparison of instruments
and methods of assessment. Criminal Justice and Behavior, 36, 567–
590. http://dx.doi.org/10.1177/0093854809333610
Cleckley, H. (1941). The mask of sanity. St. Louis, MO: Mosby.
Coble v. Texas, 330 S. W. 3d 253 (Tx. Ct. App. 2010).
Conroy, M. E., & Murrie, D. C. (2007). Forensic assessment of violence
risk: A guide for risk assessment and risk management. Hoboken, NJ:
Wiley. http://dx.doi.org/10.1002/9781118269671
Cooke, D. J., & Michie, C. (2010). Limitations of diagnostic precision and
predictive utility in the individual case: A challenge for forensic practice.
Law and Human Behavior, 34, 259 –274. http://dx.doi.org/10.1007/
s10979-009-9176-x
Cunningham, M. D. (2006). Dangerousness and death: A nexus in search
of science and reason. American Psychologist, 61, 828 – 839. http://dx
.doi.org/10.1037/0003-066X.61.8.828
Cunningham, M. D. (2008). Forensic psychology evaluations at capital
sentencing. In R. Jackson (Ed.), Learning forensic assessment (pp.
211–238). New York, NY: Routledge/Taylor & Francis Group.
Cunningham, M. D., & Goldstein, A. M. (2003). Sentencing determinations in death penalty cases. In A. M. Goldstein & I. B. Weiner (Eds.),
Handbook of psychology: Vol. 11. Forensic psychology (pp. 407– 436).
Hoboken, NJ: Wiley.
Cunningham, M. D., & Reidy, T. J. (1999). Don’t confuse me with the
facts: Common errors in violence risk assessment at capital sentencing.
Criminal Justice and Behavior, 26, 20 – 43. http://dx.doi.org/10.1177/
0093854899026001002
Cunningham, M. D., Reidy, T. J., & Sorensen, J. R. (2005). Is death row
obsolete? A decade of mainstreaming death-sentenced inmates in Missouri. Behavioral Sciences & the Law, 23, 307–320. http://dx.doi.org/
10.1002/bsl.608
DeMatteo, D., Edens, J. F., Galloway, M., Cox, J., Smith, S. T., & Formon,
D. (2014a). The role and reliability of the Psychopathy Checklist—
Revised in U.S. sexually violent predator evaluations: A case law
survey. Law and Human Behavior, 38, 248 –255. http://dx.doi.org/10
.1037/lhb0000059
DeMatteo, D., Edens, J. F., Galloway, M., Cox, J., Smith, S. T., Koller,
J. P., & Bersoff, B. (2014b). Investigating the role of the Psychopathy

Checklist—Revised in United States case law. Psychology, Public Policy, and Law, 20, 96 –107. http://dx.doi.org/10.1037/a0035452
DeMatteo, D., Hodges, H., & Fairfax-Columbo, J. (2016). An examination
of whether Psychopathy Checklist-Revised (PCL–R) evidence satisfies
the relevance/prejudice admissibility standard. In B. H. Bornstein &
M. K. Miller (Eds.), Advances in psychology and law (Vol. 2, pp.
205–239). New York, NY: Springer. http://dx.doi.org/10.1007/978-3319-43083-6_7
DeMatteo, D., Murrie, D. C., Anumba, N. M., & Keesler, M. E. (2011).
Forensic mental health assessments in death penalty cases. New York,
NY: Oxford University Press. http://dx.doi.org/10.1093/acprof:oso/
9780195385809.001.0001
DeMatteo, D., Murrie, D. C., Edens, J. F., & Lankford, C. (2019). Psychopathy in the courts. In M. DeLisi (Ed.), Routledge international
handbook of psychopathy and crime (pp. 645– 664). New York, NY:
Routledge/Taylor & Francis Group.
Douglas, K. S. (2019). Evaluating and managing risk for violence using
structured professional judgment. In A. Day, C. Hollin, & D. Polaschek
(Eds.), Handbook of correctional psychology (pp. 427– 445). Hoboken,
NJ: Wiley. http://dx.doi.org/10.1002/9781119139980.ch26
Eddings v. Oklahoma, 455 U.S. 104 (1982).
Edens, J. F., & Boccaccini, M. T. (2017). Taking forensic mental health
assessment “out of the lab” and into “the real world”: Introduction to the
special issue on the field utility of forensic assessment instruments and
procedures. Psychological Assessment, 29, 599 – 610. http://dx.doi.org/
10.1037/pas0000475
Edens, J. F., Boccaccini, M. T., & Johnson, D. W. (2010). Inter-rater
reliability of the PCL–R total and factor scores among psychopathic sex
offenders: Are personality features more prone to disagreement than
behavioral features? Behavioral Sciences & the Law, 28, 106 –119.
http://dx.doi.org/10.1002/bsl.918
Edens, J. F., Buffington-Vollum, J. K., Keilen, A., Roskamp, P., & Anthony, C. (2005). Predictions of future dangerousness in capital murder
trials: Is it time to “disinvent the wheel”? Law and Human Behavior, 29,
55– 86. http://dx.doi.org/10.1007/s10979-005-1399-x
Edens, J. F., Cox, J., Smith, S. T., DeMatteo, D., & Sörman, K. (2015).
How reliable are Psychopathy Checklist-Revised scores in Canadian
criminal trials? A case law review. Psychological Assessment, 27, 447–
456. http://dx.doi.org/10.1037/pas0000048
Edens, J. F., Marcus, D. K., Lilienfeld, S. O., & Poythress, N. G., Jr.
(2006). Psychopathic, not psychopath: Taxometric evidence for the
dimensional structure of psychopathy. Journal of Abnormal Psychology,
115, 131–144. http://dx.doi.org/10.1037/0021-843X.115.1.131
Faigman, D. L., Monahan, J., & Slobogin, C. (2014). Group to individual
(G2i) inference in scientific expert testimony. The University of Chicago
Law Review, 81, 417– 480.
Fairfax-Columbo, J., & DeMatteo, D. (2017). Reducing the dangers of
future dangerousness testimony: Applying the Federal Rules of Evidence to capital sentencing. The William and Mary Bill of Rights
Journal, 25, 1047–1072.
Fazel, S., Singh, J. P., Doll, H., & Grann, M. (2012). Use of risk assessment
instruments to predict violence and antisocial behaviour in 73 samples
involving 24 827 people: Systematic review and meta-analysis. BMJ:
British Medical Journal, 345, e4692. http://dx.doi.org/10.1136/bmj
.e4692
Ford v. Wainwright, 477 U.S. 399 (1986).
Forth, A. E., Kosson, D. S., & Hare, R. D. (2003). The Psychopathy
Checklist: Youth Version. Toronto, Canada: Multi-Health Systems.
Gagnon, N., Douglas, K., & DeMatteo, D. (2007, June). The introduction
of the Psychopathy Checklist—Revised in Canadian courts: Uses and
misuses. Paper presented at the 7th Annual Conference of the International Association of Forensic Mental Health Services, Montreal, Quebec, Canada.
Gregg v. Georgia, 428 U.S. 153 (1976).

App.066

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

PCL–R AND RISK FOR INSTITUTIONAL VIOLENCE
Guy, L. S., Edens, J. F., Anthony, C., & Douglas, K. S. (2005). Does
psychopathy predict institutional misconduct among adults? A metaanalytic investigation. Journal of Consulting and Clinical Psychology,
73, 1056 –1064. http://dx.doi.org/10.1037/0022-006X.73.6.1056
Hare, R. D. (1980). A research scale for the assessment of psychopathy in
criminal populations. Personality and Individual Differences, 1, 111–
119. http://dx.doi.org/10.1016/0191-8869(80)90028-8
Hare, R. D. (1991). The Hare Psychopathy Checklist—Revised manual.
North Tonawanda, NY: Multi-Health Systems.
Hare, R. D. (2003). The Hare Psychopathy Checklist—Revised manual
(2nd ed.). North Tonawanda, NY: Multi-Health Systems.
Hare, R. D., & Neumann, C. S. (2009). Psychopathy: Assessment and
forensic implications. Canadian Journal of Psychiatry, 54, 791– 802.
http://dx.doi.org/10.1177/070674370905401202
Hart, S. D., & Cooke, D. J. (2013). Another look at the (im-)precision of
individual risk estimates made using actuarial risk assessment instruments. Behavioral Sciences & the Law, 31, 81–102. http://dx.doi.org/10
.1002/bsl.2049
Hart, S. D., Cox, D. N., & Hare, R. D. (1995). The Hare PCL: Screening
version. North Tonawanda, NY: Multi-Health Systems.
Hart, S. D., Michie, C., & Cooke, D. J. (2007). Precision of actuarial risk
assessment instruments: Evaluating the ‘margins of error’ of group v.
individual predictions of violence. The British Journal of Psychiatry,
190(S49), S60 –S65. http://dx.doi.org/10.1192/bjp.190.5.s60
Heilbrun, K. (1992). The role of psychological testing in forensic assessment. Law and Human Behavior, 16, 257–272. http://dx.doi.org/10
.1007/BF01044769
Heilbrun, K. (2009). Evaluation for risk of violence in adults. New York,
NY: Oxford University Press. http://dx.doi.org/10.1093/med:psych/
9780195369816.001.0001
Hogan, N. R., & Olver, M. E. (2016). Assessing risk for aggression in
forensic psychiatric inpatients: An examination of five measures. Law
and Human Behavior, 40, 233–243. http://dx.doi.org/10.1037/lhb
0000179
Howard, R., Khalifa, N., Duggan, C., & Lumsden, J. (2012). Are patients
deemed ‘dangerous and severely personality disordered’ different from
other personality disordered patients detained in forensic settings? Criminal Behaviour and Mental Health, 22, 65–78. http://dx.doi.org/10.1002/
cbm.827
Huchzermeier, C., Bruss, E., Geiger, F., Kernbichler, A., & Aldenhoff, J.
(2008). Predictive validity of the psychopathy checklist: Screening version for intramural behaviour in violent offenders-a prospective study at
a secure psychiatric hospital in Germany. The Canadian Journal of
Psychiatry / La Revue canadienne de psychiatrie, 53, 384 –391. http://
dx.doi.org/10.1177/070674370805300608
Karpman, B. (1946). A yardstick for measuring psychopathy. Federal
Probation, 10, 26 –31.
Karpman, B. (1948). The myth of the psychopathic personality. The
American Journal of Psychiatry, 104, 523–534. http://dx.doi.org/10
.1176/ajp.104.9.523
Kelley, S. E., Edens, J. F., Mowle, E. N., Penson, B. N., & Rulseh, A.
(2019). Dangerous, depraved, and death-worthy: A meta-analysis of the
correlates of perceived psychopathy in jury simulation studies. Journal
of Clinical Psychology, 75, 627– 643. http://dx.doi.org/10.1002/jclp
.22726
Kennedy v. Louisiana, 554 U.S. 407 (2008).
Koo, T. K., & Li, M. Y. (2016). A guideline of selecting and reporting
intraclass correlation coefficients for reliability research. Journal of
Chiropractic Medicine, 15, 155–163. http://dx.doi.org/10.1016/j.jcm
.2016.02.012
Leistico, A. M. R., Salekin, R. T., DeCoster, J., & Rogers, R. (2008). A
large-scale meta-analysis relating the hare measures of psychopathy to
antisocial conduct. Law and Human Behavior, 32, 28 – 45. http://dx.doi
.org/10.1007/s10979-007-9096-6

7

Lockett v. Ohio, 438 U.S. 586 (1978).
Martinez v. Dretke, 99 Fed. Appx. 538 (5th Cir. 2004).
McDermott, B. E., Edens, J. F., Quanbeck, C. D., Busse, D., & Scott, C. L.
(2008). Examining the role of static and dynamic risk factors in the
prediction of inpatient violence: Variable- and person-focused analyses.
Law and Human Behavior, 32, 325–338. http://dx.doi.org/10.1007/
s10979-007-9094-8
Miller, C. S., Kimonis, E. R., Otto, R. K., Kline, S. M., & Wasserman,
A. L. (2012). Reliability of risk assessment measures used in sexually
violent predator proceedings. Psychological Assessment, 24, 944 –953.
http://dx.doi.org/10.1037/a0028411
Millon, T., Simonsen, E., & Birket-Smith, M. (1998). Historical conceptions of psychopathy in the United States and Europe. In T. Millon & E.
Simonsen (Eds.), Psychopathy: Antisocial, criminal, and violent behavior (pp. 3–31). New York, NY: Guilford Press.
Mokros, A., Hare, R. D., Neumann, C. S., Santtila, P., Habermeyer, E., &
Nitschke, J. (2015). Variants of psychopathy in adult male offenders: A
latent profile analysis. Journal of Abnormal Psychology, 124, 372–386.
http://dx.doi.org/10.1037/abn0000042
Morrissey, C., Hogue, T., Mooney, P., Allen, C., Johnston, S., Hollin, C.,
. . . Taylor, J. L. (2007). Predictive validity of the PCL–R in offenders
with intellectual disability in a high secure hospital setting: Institutional
aggression. Journal of Forensic Psychiatry & Psychology, 18, 1–15.
http://dx.doi.org/10.1080/08990220601116345
Murrie, D. C., & Boccaccini, M. T. (2015). Adversarial allegiance among
expert witnesses. Annual Review of Law and Social Science, 11, 37–55.
http://dx.doi.org/10.1146/annurev-lawsocsci-120814-121714
Murrie, D. C., Boccaccini, M. T., Guarnera, L. A., & Rufino, K. A. (2013).
Are forensic experts biased by the side that retained them? Psychological Science, 24, 1889 –1897. http://dx.doi.org/10.1177/0956797613
481812
Murrie, D. C., Boccaccini, M. T., Johnson, J. T., & Janke, C. (2008). Does
interrater (dis)agreement on Psychopathy Checklist scores in sexually
violent predator trials suggest partisan allegiance in forensic evaluations? Law and Human Behavior, 32, 352–362. http://dx.doi.org/10
.1007/s10979-007-9097-5
Murrie, D. C., Boccaccini, M. T., Turner, D., Meeks, M., Woods, C., &
Tussey, C. (2009). Rater (dis)agreement on risk assessment measures in
sexually violent predator proceedings: Evidence of adversarial allegiance in forensic evaluation? Psychology, Public Policy, and Law, 15,
19 –53. http://dx.doi.org/10.1037/a0014897
Nunnally, J., & Bernstein, I. (1994). Psychometric theory (3rd ed.). New
York, NY: McGraw-Hill.
Panetti v. Quarterman, 551 U.S. 930 (2007).
Patrick, C. J. (Ed.), (2018). Handbook of psychopathy (2nd ed.). New York,
NY: Guilford Press.
Poythress, N. G., Edens, J. F., Skeem, J. L., Lilienfeld, S. O., Douglas,
K. S., Frick, P. J., . . . Wang, T. (2010). Identifying subtypes among
offenders with antisocial personality disorder: A cluster-analytic study.
Journal of Abnormal Psychology, 119, 389 – 400. http://dx.doi.org/10
.1037/a0018611
Ring v. Arizona, 536 U.S. 584 (2002).
Roberts v. Louisiana, 428 U.S. 325 (1976).
Roper v. Simmons, 543 U.S. 551 (2005).
Shapiro, M. (2009). An overdose of dangerousness: How “future dangerousness” catches the least culpable capital defendants and undermines
the rationale for the executions it supports. American Journal of Criminal Law, 35, 145–200. http://dx.doi.org/10.2139/ssrn.1402362
Singh, J. P., Grann, M., & Fazel, S. (2011). A comparative study of
violence risk assessment tools: A systematic review and metaregression
analysis of 68 studies involving 25,980 participants. Clinical Psychology
Review, 31, 499 –513. http://dx.doi.org/10.1016/j.cpr.2010.11.009
Sorensen, J. R., & Wrinkle, R. D. (1996). No hope for parole: Disciplinary
infractions among death-sentenced and life-without-parole inmates.

App.067

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

8

DEMATTEO ET AL.

Criminal Justice and Behavior, 23, 542–552. http://dx.doi.org/10.1177/
0093854896023004002
Sturup, J., Edens, J. F., Sörman, K., Karlberg, D., Fredriksson, B., &
Kristiansson, M. (2014). Field reliability of the Psychopathy Checklist—
Revised among life sentenced prisoners in Sweden. Law and Human
Behavior, 38, 315–324. http://dx.doi.org/10.1037/lhb0000063
United States v. Barnette, 211 F. 3d 803 (4th Cir. 2000).
United States v. Fell, 531 F. 3d 197 (2nd Cir. 2008).
United States v. Sablan, 555 F. Supp. 2d 1177 (D. Colo, 2006).
Walters, G. D. (2003a). Predicting criminal justice outcomes with the
Psychopathy Checklist and Lifestyle Criminality Screening Form: A
meta-analytic comparison. Behavioral Sciences & the Law, 21, 89 –102.
http://dx.doi.org/10.1002/bsl.519
Walters, G. D. (2003b). Predicting institutional adjustment and recidivism
with the psychopathy checklist factor scores: A meta-analysis. Law and

Human Behavior, 27, 541–558. http://dx.doi.org/10.1023/A:1025
490207678
Walters, G. D., & Mandell, W. (2007). Incremental validity of the psychological inventory of criminal thinking styles and psychopathy checklist: Screening version in predicting disciplinary outcome. Law and
Human Behavior, 31, 141–157. http://dx.doi.org/10.1007/s10979-0069051-y
World Health Organization. (1992). ICD-10: International statistical classification of diseases and related health problems (10th rev.). Geneva,
Switzerland: Author.
Zapf, P. A., & Dror, I. E. (2017). Understanding and mitigating bias in
forensic evaluation: Lessons from forensic science. The International
Journal of Forensic Mental Health, 16, 227–238. http://dx.doi.org/10
.1080/14999013.2017.1317302

Appendix
Statement of Concerned Experts on the Use of the Hare Psychopathy Checklist—Revised (PCL–R) in Capital
Sentencing to Assess Risk for Institutional Violence
Many of us have conducted training workshops on the
clinical-forensic use of the PCL–R. Many of us have used
the PCL–R in the course of our practice as forensic mental
health professionals, and some of us have been qualified to
give expert testimony about or based on the PCL–R before
courts throughout the United States.

We, a group of concerned forensic mental health professionals
comprising the individuals listed in Attachment A, state the following:
1. It is our consensus opinion that the Hare Psychopathy
Checklist—Revised (PCL–R), a quantitative psychological
test (Hare, 1991, 2003), is not generally accepted in the
field of forensic mental health as a reliable and valid means
of predicting serious institutional violence, that is, of estimating or determining the likelihood that a person will
commit such violence in the future.
2. Our qualifications and the foundation of our consensus
opinion are set out herein.

Qualifications
3. We are forensic scientists who have helped to develop,
validate, and test the PCL–R in both laboratory and realworld settings and are familiar with research and practice
related to the PCL–R.
4. We are active as researchers or practitioners in the field of
forensic mental health. We have played prominent roles in
that field as members of scientific and professional associations or the editorial boards of leading scientific and
professional journals. We have conducted research on the
evaluation of the PCL–R and presented the findings of our
research in the form of articles in peer-reviewed journals,
books and book chapters, and conference presentations.

5. None of us has an actual, potential, or perceived conflict of
interest with respect to the PCL–R by which we would
gain commercially or in some other way from offering the
specific opinions herein or that would otherwise compromise our neutrality or objectivity.

The Nature of Quantitative Psychological Tests
6. Psychological tests are, most generally, evaluative devices
or procedures intended to provide information relevant to
some target construct that is either a real object (i.e., a part
of the natural world) or an ideal object (i.e., a linguistic,
inferential, or theoretical concept). Some (but not all)
psychological tests are quantitative in nature, relying on
numeric algorithms to generate scores or decisions that
measure (i.e., gauge, represent, or predict) the target construct.
7. In contemporary practice, quantitative psychological tests
are developed and evaluated using psychometric theory,
which is a set of concepts, principles, and statistical procedures designed specifically for that purpose.

(Appendix continues)

App.068

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

PCL–R AND RISK FOR INSTITUTIONAL VIOLENCE

designed to assess features of a construct known as psychopathic personality disorder in correctional and forensic
mental health settings. There is active debate in the scientific community concerning the nature of the construct of
psychopathic personality disorder and how best to measure it. It is not included as a distinct diagnostic category
in the fifth edition of the Diagnostic and Statistical Manual of Mental Disorders (DSM–5; American Psychiatric
Association, 2013) or in the tenth edition of the International Statistical Classification of Diseases and Related
Health Problems (ICD-10; World Health Organization,
1992). There is active debate concerning the degree to
which the nature of the construct of psychopathic personality disorder and way in which it is measured using the
PCL–R relate to antisocial personality disorder as defined
and diagnosed according to DSM–5 and dissocial personality disorder as defined and diagnosed in ICD-10.

8. Two primary concepts in psychometric theory are reliability and validity. In this context, reliability is potential
freedom from measurement error and reflects the degree to
which test scores or decisions may be precise, replicable,
stable, and consistent; and validity is potential meaningfulness of measurement and reflects the degree to which
test scores or decisions may be logically or empirically
coherent with, representative of, or predictive of the target
construct. Reliability limits validity: Test scores or decisions may be high in reliability and low in validity (e.g.,
precise measures of the wrong thing) but cannot be high in
validity unless they are also high in reliability.
9. The steps in developing a quantitative psychological test
typically include: derivation, or selection of its format and
content; initial validation (also known as construction), or
administration of the test in one or more data sets with the
goal of exploring the reliability and validity of test scores
or decisions and refining the test’s format and content; and
cross-validation (also known as calibration), or confirmation of the reliability and validity of test scores or decisions made using the final version of the test in one or
more new data sets.
10. In forensic mental health practice, quantitative psychological test scores and decisions are expected to have a high
level of reliability and validity, due to the important potential consequence of forensic decisions. The decision to
use a quantitative psychological test therefore requires
evaluators to conclude that the test scores or decisions are
likely to have both high reliability and high validity in the
case at hand. This conclusion requires two things: First,
there is a body of research that provides strong direct or
indirect support of the test’s reliability and validity for
similar purposes, in similar contexts, and for people with
similar background; and second, the evaluators have sufficient expertise (i.e., training, supervision, and experience) in the use of the test to ensure they can accurately
and appropriately administer, score, and interpret the test.
Use of a quantitative psychological test in the absence of
supporting research or sufficient expertise is contrary to
standards of practice in forensic mental health.

The PCL–R
11. The PCL–R is a specific type of quantitative psychological
test known as a symptom construct rating scale. It is

9

12. The PCL–R comprises 20 individual items, presented in
Attachment B. Each item is defined in detail in the test
manual. Trained evaluators use judgment to rate each
feature on a 3-point scale (briefly, 0 ⫽ absent, 1 ⫽
partially present, 2 ⫽ present) based on all available
clinical data, including an interview with and observation
of the person, interviews with collateral informants, and
case history information.
13. Scores on the individual PCL–R items are summed to
yield facet, factor, and total scores. Total scores, comprising all 20 items, are relied on most heavily as a global
measure of the construct in research and practice. The
PCL–R test manual suggests that total scores of 30 and
higher (out of a maximum possible 40 points) are generally considered indicative of psychopathic personality
disorder.

Reliability of PCL–R Scores in Forensic Mental
Health Practice
14. Because the PCL–R is a symptom construct rating scale,
PCL–R scores rely heavily on the judgment of evaluators.
For this reason, a specific facet of reliability known as
interrater reliability—that is, measurement precision related to agreement between evaluators with respect to test
scores—is an issue of paramount importance. In particular, it is critical to understand how this interrater reliability
impacts the expected disagreement between two independent evaluators, rating the same person at the same time on
the basis of the same information, with respect to the
PCL–R total scores they obtain; for the sake of simplicity,
we will refer to this expected disagreement as the “margin
of error” of PCL–R total scores.

(Appendix continues)

App.069

10

DEMATTEO ET AL.

Wasserman, 2012; Murrie et al., 2013; Murrie et al., 2008;
Murrie, Boccaccini, Turner, Meeks, Woods, & Tussey,
2009). This phenomenon has been referred to as “adversarial
bias” or “allegiance bias” and may be considered a special
case of what is referred to more generally in forensic decision
making as “confirmatory bias” (Zapf & Dror, 2017).

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

15. Prior to the mid-2000s, the available research evidence
indicated that, overall, the interrater reliability of PCL–R
scores was moderate in magnitude. But the research base
at that time had two important limitations:
a. Most studies were conducted for the purpose of research or in research settings, in which the PCL–R
was administered by specially trained research assistants under conditions of anonymity; there was an
absence of studies on interrater reliability conducted
in the context of forensic mental health practice or in
applied settings (i.e., “field settings”), in which the
PCL–R was administered by health care professionals
as part of routine clinical or forensic practice.
b. Most studies used statistical methods of older rather
than more contemporary psychometric theory (i.e.,
Classical Test Theory as opposed to Generalizability
Theory and Modern Test Theory).
16. Since the mid-2000s, several studies on the interrater reliability of PCL–R scores were conducted in the context of forensic mental health practice or in applied settings, or used
methods of contemporary psychometric theory. These studies
have yielded two new and important findings.
17. The first new and important finding is that the interrater
reliability of PCL–R scores is often substantially lower when
the test is evaluated in the context of forensic mental health
practice or in applied settings than it is when evaluated for
research purposes or in research settings. The interrater reliability of PCL–R is typically indexed using intraclass correlation coefficients (ICCs). There are actually many different
specific types of ICCs, all of which reflect the agreement
between evaluators under different conditions or assumptions. ICCs have a theoretical range from ⫺1 (perfect disagreement among two or more evaluators) to 0 (chance
levels of agreement) to ⫹ 1 (perfect agreement). Prior to the
mid-2000s, the ICCs reported for agreement between independent evaluators working in research contexts were typically summarized as falling in the range of .80 to .90 (e.g.,
Hare, 1991, 2003), which may be characterized according to
various interpretive guidelines as “good” but not “excellent”
(Koo & Li, 2016). Since that time, however, studies in field
settings reported ICCs that were much lower, falling in the
range of .40 to .70 (e.g., Boccaccini, Turner, & Murrie, 2008;
Edens, Boccaccini, & Johnson, 2010; Sturup et al., 2014),
which may be characterized as “poor” to “moderate” (Koo &
Li, 2016). The relatively low interrater reliability observed in
field settings can be attributed in part to the limited quality
and quantity of information on which evaluators relied, as
well as to the limited training, supervision, and experience of
those evaluators; although there is further evidence that it
may also be due to the adverse impact of adversarial proceedings on the judgment of evaluators (DeMatteo et al.,
2014b; Edens et al., 2015; Miller, Kimonis, Otto, Kline, &

18. The second new and important finding is that, for a given
estimate of the interrater reliability of PCL–R scores, the
expected disagreement between evaluators or “margin of
error” is substantially larger than was estimated previously.
For example, prior to the mid2000s, the expected disagreement for PCL–R total scores was estimated to be ⫾3 points
(out of a total of 40 points) in 68% of cases, and ⫾6 points
in 95% of cases (e.g., Hare, 1991, 2003). Put simply, the total
scores of two independent evaluators were expected to be
within 3 points of each other most of the time, and within 6
points almost all the time. But since that time, more precise
calculations based on contemporary psychometric theory indicate the margin of error— even assuming the same level of
interrater reliability, that is, .85—is actually ⫾3 points in
only 68% of cases, but ⫾9 points in 95% of cases (e.g.,
Cooke & Michie, 2010). Additional analyses indicate that
even this is an overly optimistic estimate of the margin of
error, for two reasons (Cooke & Michie, 2010). First, it
assumes that the interrater reliability of PCL–R total scores is
about .85, whereas in field settings the interrater reliability
may be considerably lower. Second, it is an estimate of the
margin of error around the center of the distribution of
PCL–R scores (i.e., about 20 points out of 40); however, the
margin of error in fact becomes asymmetric and increases as
scores approach the extremes or “tails” of the distribution
(i.e., ⬍10 and ⬎30). This means the margin of error is larger
at or around the score typically used to define psychopathic
personality disorder, which is 30 points or higher out of 40.
Thus, if one assumes that the interrater reliability of PCL–R
scores is .80 (i.e., only slightly lower than the value of .85
assumed in the PCL–R manual), and assuming the evaluator
reported a PCL–R total score of 30 points out of 40, then the
total score obtained by independent evaluators would be
expected to fall somewhere between 24 and 33 points out of
40 in 68% of cases, and between 19 and 36 points in 95% of
cases (Cooke & Michie, 2010). In sum, the consequence of
this large margin of error is considerable—and possibly even
grave— uncertainty about the accuracy of a PCL–R total
score obtained by a given evaluator. For example, if an
evaluator administers the PCL–R and obtains a total score of
30, then one out of three evaluators who independently
readministered the PCL–R would obtain scores less than or
equal to 23 or, alternatively, greater than or equal to 34. This
is true even assuming the interrater reliability for PCL–R
total scores is good (i.e., .80), the evaluators all have the same
level of training and experience, and the assessments were
conducted at the same time and on the basis of the same
information.

(Appendix continues)

App.070

PCL–R AND RISK FOR INSTITUTIONAL VIOLENCE

Validity of PCL–R With Respect to Prediction of
Serious Institutional Violence

health facilities) or in the United States (as opposed to
other countries).

19. According to the test manual and the writings of the test
developer, the PCL–R was not developed and is not recommended to estimate the likelihood or predict that a
person will commit violence in the future, either in the
community or in an institution. As the test manual states,
“Properly used, the PCL–R provides a reliable and valid
assessment of an important clinical construct—psychopathy. Strictly speaking, that is all it does” (Hare, 2003, p.
15; emphasis in original).
This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

11

20. Prior to the mid-2000s, the available research evidence
indicated that, overall, PCL–R scores were associated
with increased risk for violence in general; but they
could not be used, either on their own or in combination
with other risk factors, to estimate the likelihood of or
predict future institutional violence by an individual
with high reliability or validity. There were at least two
major reasons for this:
a. There was little or no research on the prediction of
serious institutional violence using the PCL–R generally, and none at all on the prediction of serious
violence in federal prisons in the United States.
b. There was no research at all on the prediction of
violence using the PCL–R at the individual level, as
opposed to the group level.
21. Since the mid-2000s, several studies on prediction of
serious institutional violence using the PCL–R have
been conducted. These studies have yielded two new
and important findings.
22. The first new and important finding is that the predictive validity of PCL–R scores is inadequate to support
its use as a tool to assess risk for serious institutional
violence. For example, a number of meta-analytic reviews of the literature (e.g., Campbell et al., 2009; Guy
et al., 2005; Leistico, Salekin, DeCoster, & Rogers,
2008) have demonstrated that the association between
PCL–R total scores and serious institutional violence is
limited; and, furthermore, the magnitude of the association tended to be even smaller in studies that were
conducted in prisons (as opposed to forensic mental

23. The second new and important finding is that there are
significant challenges inferring an individual’s likelihood of recidivism from group-level data with a high
degree of accuracy and precision. A number of scholars
(e.g., Cooke & Michie, 2010; Faigman, Monahan, &
Slobogin, 2014; Hart & Cooke, 2013; Hart, Michie, &
Cooke, 2007) have discussed the logical, methodological, and statistical barriers to defining and estimating
individual-level predictions of violence risk, including
predictions of violence using the PCL–R.
24. These two new and important findings concerning the
validity of the PCL–R with respect to the prediction of
institutional violence are likely due, at least in part, to
the limited interrater reliability and substantial margin
of error of PCL–R total scores.

Changes Over Time in the Evidence Base Concerning
the Interrater Reliability and Predictive Validity of the
PCL–R
25. Prior to the mid-2000s, the existing evidence base (i.e.,
body of peer-reviewed research) concerning the PCL–R
was limited in important respects. There was no research supporting either the interrater reliability of the
PCL–R in field settings or the predictive validity of the
PCL–R with respect to serious institutional violence—
that is, there was an “absence of proof” of the PCL–R’s
reliability and validity in these respects.
26. Since the mid-2000s, the evidence base concerning the
PCL–R has expanded greatly. There is now a body of
research indicating serious problems with the interrater
reliability of the PCL–R in field settings and the predictive validity of the PCL–R with respect to serious
institutional violence—that is, there is now “proof of
absence” of the PCL–R’s reliability and validity in
these respects.
27. For these reasons, it is our consensus opinion that
PCL–R scores cannot and should not be used to estimate the likelihood or predict that people will commit
serious institutional violence. The use of PCL–R scores
for such purposes is inconsistent with standards of
practice in the field of forensic mental health.

(Appendix continues)

App.071

12

DEMATTEO ET AL.

Attachment A

This document is copyrighted by the American Psychological Association or one of its allied publishers.
This article is intended solely for the personal use of the individual user and is not to be disseminated broadly.

Members of the Group of Concerned Forensic Mental
Health Professionals
Marcus T. Boccaccini
Department of Psychology and Philosophy, Sam Houston State
University
Mark D. Cunningham
Private Practice, Seattle, Washington
David DeMatteo
Department of Psychology & Thomas R. Kline School of Law,
Drexel University
Kevin S. Douglas
Department of Psychology, Simon Fraser University
Joel A. Dvoskin
Department of Psychiatry, University of Arizona College of
Medicine
John F. Edens
Department of Psychological & Brain Sciences, Texas A&M
University
Laura S. Guy
Department of Psychology, Simon Fraser University
Stephen D. Hart
Department of Psychology, Simon Fraser University
Kirk Heilbrun
Department of Psychology, Drexel University
Daniel C. Murrie
Institute of Law, Psychiatry, and Public Policy, University of
Virginia
Randy K. Otto
Department of Mental Health Law & Policy, University of
South Florida

Ira K. Packer
Department of Psychiatry, University of Massachusetts Medical
School
Thomas J. Reidy
Private Practice, Monterey, California

Attachment B
Items in the Hare Psychopathy Checklist—Revised
Item
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.
20.

Glibness/superficial charm
Grandiose sense of self worth
Need for stimulation/proneness to boredom
Pathological lying
Conning/manipulative
Lack of remorse or guilt
Shallow affect
Callous/lack of empathy
Parasitic lifestyle
Poor behavioral controls
Promiscuous sexual behavior
Early behavioral problems
Lack of realistic, long-term goals
Impulsivity
Irresponsibility
Failure to accept responsibility for own actions
Many short-term marital relationships
Juvenile delinquency
Revocation of conditional release
Criminal versatility

App.072

Received October 25, 2019
Revision received November 25, 2019
Accepted November 26, 2019 䡲

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 1 of 71

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS
____________________________________
)
UNITED STATES OF AMERICA
)
)
v.
)
Criminal Action No. 01-10384-LTS
)
GARY LEE SAMPSON
)
_)
SEALED MEMORANDUM AND ORDER ON RULE 12.2 MOTIONS
September 2, 2016
SOROKIN, J.
Gary Lee Sampson pled guilty to two counts of carjacking resulting in death and was
sentenced to death in 2004. The First Circuit affirmed the judgment. United States v. Sampson,
486 F.3d 13 (1st Cir. 2007). In 2011, the Court (Wolf, J.) vacated the death sentence in light of
juror misconduct, and the First Circuit affirmed, ruling that Sampson is entitled to a new penalty
phase trial pursuant to 28 U.S.C. § 2255. Sampson v. United States, 724 F.3d 150, 170 (1st Cir.
2013). The case was reassigned to this session of the Court on January 6, 2016.
This Order resolves eight motions in limine raising issues related to expert testimony on
the subject of Sampson’s mental condition, which the parties anticipate offering at trial during
the defense’s mitigation case and the government’s rebuttal case pursuant to Federal Rule of
Criminal Procedure 12.2. The motions are fully briefed and supported by voluminous exhibits as
described below. Certain motions were the subject of a sealed evidentiary hearing during the
week of July 25, 2016, and the Court heard oral argument on all motions at the conclusion of the
hearing. The Court will address each pending motion in turn, after providing a brief summary of
the relevant facts and legal standards, in the sections that follow.

App.073

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 2 of 71

TABLE OF CONTENTS
I.

BACKGROUND .....................................................................................................3

II.

RELEVANT LEGAL STANDARDS .....................................................................7

III.

DISCUSSION ........................................................................................................11
A. Dr. Ruben Gur ..................................................................................................11
B. Dr. Geoffrey Aguirre .......................................................................................17
C. Dr. Thomas Guilmette .....................................................................................22
1. Malingering and SVTs ...............................................................................23
2. Other Challenges ........................................................................................30
3. Final Observations .....................................................................................31
D. Dr. Michael Welner .........................................................................................32
1. Background and Issues Raised...................................................................33
2. Disqualification ..........................................................................................35
3. Psychopathy ...............................................................................................36
4. Antisocial Personality Disorder .................................................................41
5. Hearsay ......................................................................................................47
6. Excluded or Withdrawn Evidence .............................................................49
7. Malingering ................................................................................................52
8. Defense Experts .........................................................................................54
9. Other Matters .............................................................................................56
10. Revision of Expert Report .........................................................................59
E. Other Motions ..................................................................................................61
1.
2.
3.
4.

IV.

The Parameters Motion ..............................................................................61
The Judicial Determinations Motion .........................................................63
The Expert Designation Motion.................................................................65
The “Peer Review” Motion........................................................................66

CONCLUSION ......................................................................................................67

APPENDIX A ....................................................................................................................69

2

App.074

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 36 of 71

Insofar as Dr. Welner’s report includes facts deemed inadmissible by prior orders of
Judge Wolf or this Court, the appropriate remedy is to eliminate references to and reliance upon
such facts as discussed below. Although the Court does not find them to be grounds for
disqualification, the prior cases Sampson identifies in which questions have arisen surrounding
Dr. Welner’s compliance with court orders do provide a troubling lens through which the Court
has assessed the other issues raised in Sampson’s motions. 28 See Doc. No. 2345 at 16-19
(summarizing instances in which other federal trial courts, in three capital cases, have explored
allegations that Dr. Welner violated orders issued pursuant to Rule 12.2).
Under these circumstances, the request for disqualification is DENIED.
3. Psychopathy 29
Sampson asks the Court to preclude testimony by Dr. Welner that Sampson is a
psychopath, alleging unreliability and significant prejudicial effect. Doc. No. 2345 at 20-37. In
both of his 2016 reports, Dr. Welner diagnoses Sampson with psychopathy, applying the twenty
criteria contained in the Hare Psychopathy Checklist-Revised (“PCL-R”), the so-called “gold
standard” for making such a diagnosis. PCL-R Manual at 1; Doc. No. 2428 at 49. Dr. Welner
made the same diagnosis of Sampson in 2003, and Judge Wolf precluded him from testifying
about it then based on concerns about the risk of jurors considering such evidence as proof of

part of the government’s rebuttal evidence at trial, and Dr. Welner’s testimony will be
circumscribed to conform with all relevant Court orders as discussed below.
It is not accurate, as the government suggests, that Judge Wolf “rejected Sampson’s additional
arguments regarding purported ‘violations’ by Dr. Welner in . . . other cases.” Doc. No. 2355 at
17. Rather, the transcript of the relevant hearing reveals that Judge Wolf did not view those
allegations as a reason to disqualify Dr. Welner at that time, but did not rule on the merits of
Sampson’s assertions related to those prior incidents. Doc. No. 1873 at 83.
28

Although Sampson discusses psychopathy and ASPD together, the record before the Court
reveals material differences that warrant separate analysis of each diagnosis.

29

36

App.075

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 37 of 71

future dangerousness – a nonstatutory aggravator alleged by the government in 2003 and
realleged now. United States v. Sampson, 335 F. Supp. 2d 166, 222 n.27 (D. Mass. 2004). After
careful consideration, Sampson’s request to bar testimony about psychopathy is ALLOWED for
two reasons.
First, as this Court has said before, it generally intends to adhere to Judge Wolf’s rulings
from the first penalty phase trial regarding the exclusion of evidence. Doc. No. 2189 at 35-36.
The government appropriately argues that the Court should not view as binding Judge Wolf’s
prior ruling in this regard, as the relevant evidence will be part of the government’s rebuttal case,
the scope of which depends on Sampson’s mitigation presentation and, thus, is not the same as it
was during the first trial. Doc. No. 2355 at 23. The Court agrees with this framework.
However, the primary concern Judge Wolf expressed regarding evidence of psychopathy – i.e.,
the danger of “injecting expert comment on future dangerousness into [jurors’] discussion,” Tr.
of Dec. 4, 2003 Sealed Lobby Conf. at 6 – remains unchanged. Pursuant to Rule 12.2(c)(4), Dr.
Welner’s testimony in this case is admissible only insofar as it rebuts evidence of mental
condition Sampson offers in mitigation. It may not be offered in support of the government’s
aggravating factors. This is true regardless how Sampson may reformulate his mental condition
mitigators at his new penalty phase trial. Thus, there is no reason to believe that the
circumstances of the retrial will somehow eliminate Judge Wolf’s worry that jurors, even with
appropriate limiting instructions, would be tempted to consider testimony that Sampson is a
psychopath as evidence probative of future dangerousness, a topic upon which Dr. Welner would
not be permitted to opine directly. This is especially so where evidence supporting a diagnosis
of psychopathy would include specific testimony about how Sampson satisfies the PCL-R

37

App.076

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 38 of 71

criteria, such as “lack of remorse or guilt,” “lack of empathy,” and “criminal versatility.” PCL-R
Manual at 1.
Although Dr. Welner testified he did not use the PCL-R “as a prospective instrument”
intended to predict future danger, Doc. No. 2428 at 155, the very first page of the PCL-R Manual
touts the test as having an “unparalleled” and “unprecedented” ability “to predict violence.” See
Doc. No. 2436 at 146 (reflecting testimony by Dr. Edens about contexts in which the PCL-R is
used to assess risk of reoffending). Studies have shown that jurors connect information about
psychopathy and its criteria with concepts of future dangerousness. 30 Id. at 144. Not only would
such a connection be impermissible within the bounds of Rule 12.2, it also would be misleading.
Dr. Edens testified that the PCL-R is widely used as “a risk assessment tool” in contexts
requiring decisions about whether to release certain offenders. See id. at 146 (referencing use in
“civil commitment cases” and in California parole decisions). In such contexts, where
decisionmakers are assessing the chance of “community recidivism,” Dr. Edens said there is
evidence of some relationship between high scores on the PCL-R and likelihood of rearrest
following release. Id. at 144-45. But release is not an option for Sampson; the only two
sentences available for the jury’s consideration are death, or life in prison without the possibility
of parole. See United States v. Sampson, 275 F. Supp. 2d 49, 108 (D. Mass. 2003) (Wolf, J.).
According to Dr. Edens, a high PCL-R score does not meaningfully predict aggressive behavior

Again, Dr. Welner’s own words are revealing on this subject. He has written that “call[ing]
someone a psychopath in a forensic examination” is “really like putting the mark of Cain on his
or her forehead,” and has described the diagnosis as “damning.” Michael Welner, Hidden
Diagnosis & Misleading Testimony: How Courts Get Shortchanged, 24 Pace L. Rev. 193, 203
(2003); see also Doc. No. 2345 at 31-33 (citing an article by the PCL-R checklist’s creator, in
which he discusses common assumptions about “psychopaths,” and studies suggesting jurors are
more likely to view defendants as dangerousness after hearing information about psychopathy
and its criteria).
30

38

App.077

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 39 of 71

in prison – the only relevant context in which future dangerousness is at issue here. Id. Under
these circumstances, Judge Wolf’s reasoning remains persuasive. The Court concurs with his
finding that evidence of psychopathy would fail the § 3593(c) balancing test, and further believes
that the principles underlying § 2255 support applying that finding in the context of Sampson’s
retrial.
Second, based on the evidence offered by the parties in support of their briefs and during
the evidentiary hearing on these motions, the Court concludes that testimony about psychopathy
is inadmissible as rebuttal evidence under Daubert and Rule 702. Psychopathy is not a disorder
listed in the Diagnostic and Statistical Manual of Mental Disorders, Fifth Edition (“DSM-5”).
See Doc. No. 2428 at 257 (reflecting testimony by Dr. Sanislow that “[e]very psychiatric
diagnosis recognized by the field is in the DSM”); see also id. at 102-03 (noting the PCL-R
creator has tried and, so far, failed to secure a place in the DSM for psychopathy). Published by
the American Psychiatric Association, the DSM-5 “is a classification of mental disorders with
associated criteria designed to facilitate more reliable diagnoses of these disorders.” DSM-5 at
xli. Psychopathy’s absence from the DSM underscores its status as a “construct,” as distinct
from a “disorder.” See Doc. No. 2436 at 6-7 (reflecting testimony by Dr. Woods that a
“construct . . . hasn’t really gained the number of consistent symptoms” to be considered a
syndrome or disorder).
Despite its increased popularity among psychiatrists over the past decade or so, 31 the
record before the Court demonstrates that substantial questions exist as to the reliability and
validity of psychopathy as a diagnosis. Dr. Edens – a Professor of Psychology at Texas A&M

To the extent the test has gained popularity due to growing use as a tool to assess likelihood of
recidivism as part of parole decisions and in other similar contexts, such increased popularity
does not establish reliability or general acceptance for present purposes.
31

39

App.078

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 40 of 71

University whose research and writing largely focus on psychopathy and related disorders, see
Curriculum Vitae of John F. Edens, Ph.D., Edens Binder (“Edens CV”) – described his own
studies and the evolution of his thinking on the subject, citing problems with inter-rater
reliability (i.e., the chance that two separate doctors will score the PCL-R the same when
assessing the same examinee) and a large standard error measurement (i.e., the range around a
single rater’s score within which an examinee’s true score falls). Doc. No. 2436 at 95-112.
Other witnesses testified about similar concerns with the diagnosis. E.g., id. at 26-29 (reflecting
testimony by Dr. Woods about concerns including lack of exclusion criteria, confirmatory bias,
and lack of guidance defining criteria). The Court credits the defense experts’ testimony in this
regard.
Dr. Welner was the only testifying expert to endorse use of the PCL-R without
reservation. His testimony, however, did not answer the concerns identified by the defense
experts, at least one of whom has studied the test over two decades and published numerous
peer-reviewed articles about its strengths and limitations. See Edens CV at 3-20. Furthermore,
his application of the PCL-R in this case did not incorporate at least two techniques
recommended in the test’s manual for avoiding biases and enhancing reliability. See PCL-R
Manual at 18, 20 (recommending “strongly” the “averaging [of] PCL-R scores of two or more
independent raters” in order to increase test reliability and reduce measurement error, 32 and
advising raters to score each item separately and “make written notes on a separate sheet of paper
to justify [each] rating” 33). That other courts have permitted experts (including Dr. Welner) to
Here, not only was Dr. Welner the only rater, he also scored Sampson using the PCL-R three
separate times. See Doc. No. 2322-1 at 223-24, 293. This practice, it seems to the Court, would
tend to magnify any biases and decrease reliability, rather than protecting against such problems.
32

The PCL-R Manual acknowledges “two common rating biases” – a “halo effect (basing each
item score on a global impression of the individual, perhaps unduly influenced by the nature of
33

40

App.079

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 41 of 71

opine on the subject of psychopathy in other cases does not overcome this Court’s concerns
about the reliability of such testimony in this case. See Doc. No. 2355 at 20-21 (citing cases in
which courts permitted psychopathy evidence). 34
In sum, psychopathy evidence – including testimony by Dr. Welner as to his
administration and scoring of the PCL-R and his diagnosis of Sampson as a psychopath – will
not be admitted at Sampson’s retrial. The Court precludes such evidence (a) under the § 3593(c)
balancing test due to an overwhelming risk of prejudice and of misleading the jury as to the
purpose of the evidence; (b) in its § 2255 discretion, based on Judge Wolf’s decision to exclude
such evidence in Sampson’s first trial for reasons that apply with equal force now; and (c) as
unreliable under Daubert and Rule 702, based primarily on the concerns identified by Dr. Edens
in his testimony and expert declaration. 35
4. Antisocial Personality Disorder
Sampson also seeks to preclude testimony by Dr. Welner that Sampson suffers from
ASPD. Doc. No. 2345 at 20-37. He makes the same claims of unreliability and prejudice as to
the offenses),” and a “‘nice- or bad-guy’ bias (rating all items low or high).” As far as the Court
is aware, no contemporaneous notes exist showing Dr. Welner’s justifications for his scoring. In
fact, although his reports suggest he scored Sampson three separate times, it appears he
completed the scoring form that is to be used when administering the test only once – on July 20,
2016, the date of his revised report, and a year after his most recent examination of Sampson.
See Doc. No. 2355-5.
In at least one case cited by the government, psychopathy evidence was treated as “probative
of . . . future dangerousness.” United States v. Lee, 274 F.3d 485, 495 (8th Cir. 2001).
34

The Court notes – but does not rely upon as a basis for this decision – a discrepancy in the
record as to whether Dr. Welner has received training in administering the PCL-R. Compare
Doc. No. 2428 at 49, 143-44 (reflecting testimony before this Court that Dr. Welner is “trained
specifically on the PCL-R” and took “the training program . . . tout[ed by the test’s creator] as
being necessary in order to properly administer th[e] test” in 2000 or 2001), with Doc. No. 23831 at 3, 6 (reflecting testimony from another case in which Dr. Welner denied having received
training in scoring the PCL-R); see also Doc. No. 2383 (providing Dr. Welner’s explanation for
the differing testimony).
35

41

App.080

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 67 of 71

from Dr. Welner’s testimony at Sampson’s first trial). However, where the allegedly
independent “peer review” process concededly was not used here, any description of that process
(even in describing Dr. Welner’s qualifications) would be irrelevant and misleading in this case.
Accordingly, to the extent the “Peer Review” Motion (Doc. No. 2336) seeks to preclude
testimony characterizing the Forensic Panel generally or its members specifically as
“independent” and/or as utilizing “internal oversight and peer review,” the motion is
ALLOWED.
IV.

CONCLUSION
For the foregoing reasons, the Court ORDERS as follows:
1) the Gur Motion (Doc. No. 2325) is DENIED;
2) the Aguirre Motion (Doc. No. 2331) is DENIED;
3) the Malingering Motion (Doc. No. 2339) is ALLOWED IN PART and DENIED IN
PART as described above;
4) the Welner Motion (Doc. No. 2333) is ALLOWED IN PART and DENIED IN PART
as described above, and on or before September 23, 2016, the government shall
provide to the defense and the Court a revised expert report prepared by Dr. Welner
in conformance with the rulings set forth in Discussion § III(D) above;
5) the Parameters Motion (Doc. No. 2322) is DENIED;
6) the Judicial Determinations Motion (Doc. No. 2328) is DENIED;
7) The Expert Designation Motion (Doc. No. 2334) is DENIED; and
8) the “Peer Review” Motion (Doc. No. 2336) is ALLOWED IN PART and DENIED
IN PART.

67

App.081

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 68 of 71

The motion papers and supporting documents as to each of these motions are sealed, as is
this Memorandum and Order. 59 These items will remain sealed until the conclusion of the trial
for two reasons. First, all of the relevant motions arise from evidence that is within the scope of
Rule 12.2, which is aimed at protecting a defendant’s Fifth Amendment rights. If Sampson
elects not to offer evidence of mental condition at trial, none of the issues raised in these motions
or the information underlying them will be admitted at trial. His Fifth Amendment protections in
this regard are only completely waived when he offers his own expert mental condition evidence
at trial. Until then, sealing is required consistent with Rule 12.2. Second, the motions, the
supporting documents, and this Memorandum and Order contain certain information that will not
be admissible during the trial in this matter, as well as other information the admissibility of
which will depend on how the defense elects to shape its mitigation presentation at trial. As
such, continued sealing is appropriate. See In re Globe Newspaper Co., 729 F.2d 47, 55 (1st Cir.
1984). If mental condition evidence is offered at trial, the Court anticipates unsealing all
motions, briefs, and exhibits related to these motions, as well as this Memorandum and Order,
after the conclusion of the trial.
SO ORDERED.
/s/ Leo T. Sorokin
Leo T. Sorokin
United States District Judge

The parties may share copies of this Memorandum and Order with the relevant expert
witnesses to assist in preparations for trial. Those experts who receive or review this
Memorandum and Order may not disseminate it and are bound by the sealing order.
59

68

App.082

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 69 of 71

APPENDIX A
Expert Reports & Declarations
1. Michael Welner, October 31, 2003 Report (Doc. No. 2333-2)
2. Michael Welner, April 4, 2016 Report (Doc. No. 2322-1, pp. 188-277)
3. Michael Welner, June 20, 2016 Report (Doc. No. 2322-1, pp. 279-333)
4. Michael Welner, July 13, 2016 Declaration, (Doc. No. 2355-1)
5. Thomas Guilmette, April 3, 2016 Report (Doc. No. 2322-1, pp. 29-140)
6. Thomas Guilmette, June 20, 2016 Report (Doc. No. 2322-1, pp. 142-186)
7. Thomas Guilmette, July 13, 2016 Declaration (Doc. No. 2355-3)
8. Geoffrey Aguirre, August 4, 2015 Report (Doc. No. 2322-1, pp. 3-16)
9. Geoffrey Aguirre, June 20, 2016 Report (Doc. No. 2322-1, pp. 18-27)
10. Erin Bigler, April 6, 2016 Report (Doc. No. 2322-2, pp. 8-9)
11. Erin Bigler, June 20, 2016 Report (Doc. No. 2322-2, pp. 11-17)
12. Erin Bigler, July 22, 2016 Letter (Doc. No. 2369-1)
13. John Edens, June 17, 2016 Declaration (Doc. No. 2322-2, pp. 19-35)
14. James Gilligan, March 22, 2010 Declaration (Doc. No. 1041-194, pp. 2-30)
15. James Gilligan, April 8, 2016 Report (Doc. No. 2322-2, pp. 37-49)
16. Ruben Gur, May 8, 2009 Report (Doc. No. 2325-2)
17. Ruben Gur, November 11, 2009 Report (Doc. No. 2354-3, pp. 26-28)
18. Ruben Gur, § 2255 Declaration (Doc. No. 2325-1)
19. Ruben Gur, March 5, 2010 Supplemental Declaration (Doc. No. 2354-4)
20. Ruben Gur, April 7, 2016 Report (Doc. No. 2322-2, pp. 51-55)
21. Ruben Gur, May 17, 2016 Letter (Doc. No. 2322-2, pp. 57-82; Doc. No. 2322-3, pp.1-5)
22. Ruben Gur, June 6, 2016 Letter (Doc. No. 2322-3, pp. 14-16)
23. Ruben Gur, June 19, 2016 Letter (Doc. No. 2322-3, pp. 6-12)
24. Ruben Gur, July 15, 2016 Letter (Doc. No. 2356-9)
25. Ruben Gur, July 15, 2016 Response (Doc. No. 2356-10)
26. Leslie Lebowitz, March 28, 2010 Declaration (Doc. Nos. 1041-201, -202)
27. Leslie Lebowitz, April 8, 2016 Report (Doc. No. 2322-3, pp. 18-19)
28. Leslie Lebowitz, June 20, 2016 Report (Doc. No. 2322-3, pp. 21-30)
29. Michael Lipton, July 20, 2015 Report (Doc. No. 2322-3, pp. 32-34)
30. Michael Lipton, May 30, 2016 Report (Doc. No. 2322-3, pp. 36-39)
31. James Merikangas, April 8, 2016 Report (Doc. No. 2322-4, pp. 1-3)
32. Paul Moberg, April 7, 2016 Report (Doc. No. 2322-4, pp. 5-16)
33. Paul Moberg, June 20, 2016 Report (Doc. No. 2322-4, pp. 18-22)
34. Charles Sanislow, June 20, 2016 Report (Doc. No. 2322-4, pp. 30-59)
35. George Woods, March 24, 2010 Declaration (Doc. No. 1041-203, -204, -205)
36. George Woods, April 8, 2016 Report (Doc. No. 2322-4, pp. 61-101)
37. George Woods, June 20, 2016 Report (Doc. No. 2322-4, pp. 103-133)
Other Exhibits to Briefs
38. Ruben C. Gur et al., “Behavioral Imaging” – A Procedure for Analysis and Display of
Neuropsychological Test Scores: I. Construction of Algorithm and Initial Clinical
Evaluation, Neuropsychiatry, Neuropsychology, & Behavior Neurology, Vol. 1, No. 1, p.
53 (1988) (Doc. No. 2325-4)
69

App.083

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 70 of 71

39. Ruben C. Gur et al., “Behavioral Imaging” – II. Application of the Quantitative
Alogrithm to Hypothesis Testing in a Population of Hemiparkinsonian Patients,
Neuropsychiatry, Neuropsychology, & Behavior Neurology, Vol. 1, No. 2, p. 87 (1988)
(Doc. No. 2325-5)
40. Ruben C. Gur et al., “Behavioral Imaging” – III. Interexpert Agreement and Reliability of
Weightings, Neuropsychiatry, Neuropsychology, & Behavior Neurology, Vol. 3, No. 2,
p. 113 (1990) (Doc. No. 2325-6)
41. Trial Transcript, Vol. 43, United States v. McCluskey, No. 10-cr-2734-JCH (D.N.M. Oct.
24, 2013) (Doc. No. 2325-7)
42. Hearing Transcript, United States v. Northington, No. 07-cr-550-RBS (E.D. Pa. Oct. 17,
2012) (Doc. No. 2325-8)
43. Ronald A. Yeo et al., Neuropsychological Methods of Localizing Brain Dysfunction:
Clinical Versus Empirical Approaches, Neuropsychiatry, Neuropsychology, & Behavior
Neurology, Vol. 3, No. 4, p. 290 (1990) (Doc. No. 2325-9)
44. William J. Lynch, Letter to Assistant District Attorney Martin Murray (Jan. 6, 2005)
(Doc. No. 2325-11)
45. Deposition Transcript, United States v. Duong, No. 01-cr-20154-JF (N.D. Cal. Dec. 3,
2010) (Doc. No. 2325-13)
46. Partial Jury Trial Transcript, United States v. Green, No. 06-cr-19-TBR (W.D. Ky. May
19, 2009) (Doc. No. 2325-14)
47. Partial Hearing Transcript, United States v. Montgomery, No. 05-cr-6002-GAF (W.D.
Mo. Sept. 4-5, 2007) (Doc. Nos. 2325-15, -16)
48. Partial Trial Transcripts, Commonwealth v. Chism, Nos. 2013-1446, 2013-1447, 20140109 (Mass. Super. Ct. Essex Cty. Dec. 3 & 10, 2015) (Doc. No. 2325-17)
49. Ruben C. Gur Curriculum Vitae (Doc. No. 2356-1)
50. Letters of Reference re: Gur (Doc. No. 2356-2)
51. Ruben C. Gur et al., Response to Yeo et al.’s Critique of Behavioral Imaging,
Neuropsychiatry, Neuropsychology, & Behavior Neurology, Vol. 3, No. 4, p. 304 (1990)
(Doc. No. 2356-6)
52. Exhibit 63-65 in Support of Petition for Executive Clemency – Donald Jay Beardslee
(Doc. No. 2356-7)
53. David R. Roalf Letter, July 8, 2016 (Doc. No. 2356-8)
54. Geoffrey K. Aguirre Curriculum Vitae (Doc. No. 2354-5)
55. Medical Records re 2003 MRI of Gary Sampson (Doc. No. 2354-6)
56. Medical Records re 2009 MRI of Gary Sampson (Doc. No. 2354-7)
57. Transcript of Interview of Gary Sampson by Michael Welner, October 29, 2003 (Doc.
No. 2333-1)
58. Cory S. Flashner Letter to William E. McDaniels (June 25, 2015) (Doc. No. 2333-4)
59. Transcript of Interview of Gary Sampson by Michael Welner, July 16, 2015 (Doc. No.
2333-5)
60. Transcript of Interview of Gary Sampson by Michael Welner, July 17, 2015 (Doc. No.
2333-6)
61. E-mails between Zachary Hafer and Michael Burt (May 2016) (Doc. No. 2333-8)
62. Leigh D. Hagan and Thomas J. Guilmette, DSM-5: Challenging Diagnostic Testimony,
International Journal of Law & Psychiatry 42-43 (2015) 128-134 (Doc. No. 2333-13)

70

App.084

Case 1:01-cr-10384-LTS Document 2459 Filed 09/02/16 Page 71 of 71

63. Sanford L. Drob et al., Clinical and Conceptual Problems in the Attribution of
Malingering in Forensic Evaluations, J. Am. Acad. Psychiatry Law 37:98-106 (2009)
(Doc. No. 2341-7)
64. Michael F. Martelli et al., Masquerades of Brain Injury Part III: Critical Evaluation of
Symptom Validity Testing and Diagnostic Realities in Assessment, Journal of
Controversial Medical Claims, Vol. 9 No. 2 p.19 (2002) (Doc. No. 2341-8)
65. Richard Rogers et al., Assessment of Malingering with Repeat Forensic Evaluations:
Patient Variability and Possible Misclassification on the SIRS and Other Feigning
Measures, J. Am. Acad. Psychiatry Law 38:109-14 (2010) (Doc. No. 2341-9)
66. Michael Welner Curriculum Vitae (Doc. No. 2355-2)
67. Thomas J. Guilmette Curriculum Vitae (Doc. No. 2355-4)
68. Hare PCL-R: 2nd Edition Score Sheets of Gary Sampson by Michael Welner (June 20,
2016) (Doc. No. 2355-5)
69. Jennifer Cox et al., The Effect of the Psychopathy Checklist – Revised in Capital Cases:
Mock Jurors’ Responses to the Label of Psychopathy, Behav. Sci. Law 28: 878-891
(2010) (Doc. No. 2355-6)
70. John F. Edens Curriculum Vitae (Doc. No. 2355-7)
71. Mark D. Cunningham and Thomas J. Reidy, Antisocial Personality Disorder Versus
Psychopathy as Diagnostic Tools (1998) (Doc. Non. 2355-8)
Evidentiary Hearing Exhibits
72. Thomas J. Guilmette 12.2 Witness Binder (“Guilmette Binder”)
73. Dr. Michael Welner 12.2 Witness Binder (“Welner Binder”)
74. Charles A. Sanislow 12.2 Witness Binder (“Sanislow Binder”)
75. Dr. George Woods 12.2 Witness Binder (“Woods Binder”)
76. Dr. John F. Edens 12.2 Witness Binder (“Edens Binder”)
77. Hare Psychopathy Checklist – Revised (PCL-R): 2nd Edition, Technical Manual (“PCLR Manual”)
78. David DeMatteo et al., Investigating the Role of the Psychopathy Checklist-Revised in
United States Case Law, 20 Psychol., Pub. Pol’y & L. 96 (2014)
79. M.E. Thomas, Confessions of a Sociopath: A Life Spent Hiding in Plain Sight (2014)
(excerpts)
80. John F. Edens et al., Bold, Smart, Dangerous & Evil: Perceived Correlates of Core
Psychopathic Traits Among Jury Panel Members, 7 Personality & Mental Health 143
(2013)
81. John F. Edens et al., Use of the Personality Assessment Inventory to Assess Psychopathy
in Offender Populations, 12 Psychol. Assessment 132 (2000)
82. Darrel B. Turner et al., Jurors Report that Risk Measure Scores Matter in Sexually
Violent Predator Trials, but that Other Factors Matter More, 33 Behav. Sci. & L. 56
(2015)
83. Jennifer Cox et al., The Effect of the Psychopathy Checklist – Revised in Capital Cases:
Mock Jurors’ Responses to the Label of Psychopathy, 28 Behav. Sci. & L. 878 (2010)
84. Welner Excluded Evidence Tracking Chart (Doc. No. 2390)
85. Zachary Hafer Post-Hearing Letter and attachments, Aug. 1, 2016 (Doc. No. 2383)
86. Michael Burt Post-Hearing Letter, Aug. 2, 2016 (Doc. No. 2387)

71

App.085

FORT WORTH INDEPENDENT SCHOOL DISTRICT

PSYCHOLOGICAL SERVICES DEPARTMENT
· 3210 W~ST LANCASTER
FORT WORTH, TEXAS a101

INTELLECTUAL SUMMARY

Name:
DOB :
Age:

School:
Grade:

Dat~ of Evaluation :
Reason for Referral:

~·spe•:ial Education , _ _ _,..Parent, - - - - - - - - - .•Other.

-----------------------------------------------------------------------------------------------------------------Previous Test Results:

Tests and Results:
WISC-R:

yerbalIQ

Verbal Subtests
Information
Similarities
Arithmetic
Vocabu lary
Comprehension
f'.'),~;t

_/r...0....../_,~erformance
Scaled Scores
/~

'z:

_9____
,.2

;-3,

Stanford-Binet:

~Full Sea le IQ.___,.,/,.._).....C_.
1 _ _•

Performance Subtests
Picture Completion
Picture Anrangement
Block Design
Object Assembly
Coding

::X:

~·'-

Slosson:

9'?$'

IQ

· Scaled Scnres

9

/0

JS

9
to

· IQ ______ , MA _ _ _ _ __

Raw Score _ _ _, ~ge Deviation _ _ _ , Stanine _____ ,
Percentile Rank _ __

WRAT-R:

Reading
Spelling
Arithmetic

'{law Score

Woodcock-Johnson:
Reading
Math
Written Language
Knowledge

St.andard Score
'

Grade Levrel

I

Other test results :

9

::-J -~ -

Ruman Figure Drawing Test:

prade Equivalent

JJercentile Rank-Grade/Age

/,3 -

Bender Visual-Motor Gestalt Test:

J?ercentile

1;;tt; -"

~tandard Score

<g9

_ _ _ _ _ Emotional indicators _ _ __

------- Emotional

indicators

Interpretations and Recommendi:itions :

App.086

/
G::S,

a tI£-\ a ~
<

.- - -

(£:n:fCsz .UZh.A

.1
.I

:.a

APPLIED NEUROPSYCHOLOGY, 16: 91–97, 2009
Copyright # Taylor & Francis Group, LLC
ISSN: 0908-4282 print=1532-4826 online
DOI: 10.1080/09084280902864329

Interpretation of Intelligence Test Scores in Atkins Cases:
Conceptual and Psychometric Issues
Frank M. Gresham
Department of Psychology, Louisiana State University, Baton Rouge, Louisiana

So-called Atkins cases refer to individuals who have been sentenced to death for capital
crimes who claim that the death penalty constitutes ‘‘cruel and unusual punishment’’
under the Eighth Amendment. Psychological testimony is influential because this testimony strikes at the very core issue in these cases; namely, whether or not the individual
is mentally retarded. Despite the importance of psychological testimony, courts have
not been made to understand the subtleties and complexities of the issues in diagnosing
mental retardation. Five such issues are discussed in this article: (a) the nature of intellectual functioning, (b) the Flynn Effect, (c) measurement error, (d) practice effects, and
(e) the nature of school ‘‘diagnoses.’’ Examples of each of these issues are illustrated
with an actual Atkins case (Walker v. True, 2006).

Key words:

Flynn Effect, intelligence, measurement error, psychometric

Around midnight on August 16, 1996, Daryl Renard
Atkins and an accomplice (William Jones) abducted
Erich Nesbitt with a semiautomatic handgun and
robbed him of his money. Subsequently, they drove
Nesbitt to an ATM and forced him to withdraw cash.
He was then taken to an isolated spot where he was shot
eight times and killed. During trial, both Atkins and
Jones testified and confirmed each other’s account of
the incident, except that Jones’ testimony was considered more credible than Atkins’. In fact, Atkins’ court
testimony was substantially inconsistent with the testimony he gave police upon his arrest, whereas Jones
declined to make a statement to authorities upon his
arrest (Miranda Rights). During the penalty phase of
the trial, the defense relied on Dr. Evan Nelson, a forensic psychologist, who had evaluated Atkins prior to trial
and concluded that he was mildly mentally retarded
based on a review of school and court records and a
tested full scale IQ of 59 on the Wechsler Adult
Intelligence Scale-III (WAIS-III). Atkins, however,
was sentenced to death, and Jones plea bargained with
Address correspondence to Frank M. Gresham, Department
of Psychology, Louisiana State University, Baton Rouge, LA 70803.
E-mail: gresham@lsu.edu

the prosecution in return for testimony against Atkins
and was spared the death penalty.
At a second sentencing hearing, another forensic
psychologist, Dr. Stanton Samenow, expressed the
opinion that Atkins was not mentally retarded and
was functioning in the range of ‘‘average’’ intelligence.
This opinion was based on two interviews with Atkins,
a review of school records, the Wechsler Memory Scale
(Wechsler, 1972), and interviews with correctional officers. Dr. Samenow did not administer an intelligence
test but opined that Atkins’ poor academic performance
while in school was due to his frequent inattention and
his overall tendency toward noncompliance in school.
How can two board-certified, licensed, forensic psychologists come to two diametrically opposed opinions
regarding the presence or absence of mental retardation?
Atkins’ measured intelligence was over 2.7 standard
deviations below the mean, which almost pushed him
into the moderate range of mental retardation (American Psychiatric Association, 2000). Despite this fact,
the prosecution’s psychologist considered Atkins to be
of average intelligence. This finding, as is demonstrated
throughout this special issue, is neither unusual nor
unexpected for a variety of reasons that will be discussed

App.087

92

GRESHAM

in this article. I start with a very brief overview of
mental retardation, particularly mild mental retardation, and continue with a discussion of interpretative
and psychometric issues in the assessment of intelligence. The article concludes with recommendations
for psychologists who may one day find themselves as
experts in Atkins cases.

MENTAL RETARDATION
Mental retardation is defined by most organizations and
states as significantly subaverage intellectual functioning
that concurrently exists with deficits in adaptive
behavior and which has an onset prior to age 18. The
Diagnostic and Statistical Manual of Mental Disorders
(DSM-IV; American Psychiatric Association, 2000) specifies that significantly subaverage intellectual functioning should be two standard deviations below the
mean, however, it acknowledges that the existence of
five points in measurement error should be considered
in making a diagnosis of mental retardation. As such,
it is possible to diagnose an individual as having mental
retardation with an IQ up to 75 if they also have substantial deficits in adaptive behavior. Adaptive behavior
refers to how well an individual copes with life demands
and how well they meet the standards of personal
independence expected of someone in their age group,
sociocultural background, and community setting (APA,
2000). DSM-IV specifies four degrees of severity for
mental retardation: mild mental retardation (IQ 50–55
to 70–75), moderate mental retardation (IQ 35–40 to
50–55), severe mental retardation (IQ 20–25 to 35–40)
and profound mental retardation (IQ below 20 or
25). As will be described later, the debate in the Atkins
cases has never been about individuals with moderate,
severe, or profound mental retardation. It has always
been about persons who might be considered to have
mild mental retardation.
The American Association on Intellectual and
Developmental Disabilities (AAIDD, 2002) defines an
intellectual disability as being characterized by significant limitations both in intellectual functioning and in
adaptive behavior as expressed in conceptual, social,
and practical adaptive skills and originates before the
age of 18. Similar to DSM-IV, significant limitations in
intellectual functioning is defined as performance that
is two standard deviations below the mean (70–75 and
below); imitations in adaptive behavior is defined as performance that is at least two standard deviations below
the mean in one of the three adaptive behavior domains
(conceptual, social, or practical) or a total adaptive behavior (composite) score on a standardized adaptive behavior measure (see Greenspan and Reschly’s discussion of
adaptive behavior, this issue). Unlike DSM-IV, however,

AAIDD does not classify mental retardation by severity
(mild, moderate, severe, or profound), but rather uses the
concept of levels of supports needed to promote the
development, education, interests, and personal wellbeing of an individual with intellectual disability.
An extremely important issue in Atkins cases that is
often misunderstood by the courts is the nature of mild
mental retardation (MMR) as being distinct from more
severe forms. First, MMR has no identified or specified
biological etiology, whereas more severe forms of
mental retardation often have an identified biological
etiology (e.g., Down syndrome, Fragile X syndrome,
and microcephaly). Second, MMR is most often diagnosed only at school entry or shortly thereafter, whereas
severe forms of mental retardation are often diagnosed
at birth or shortly thereafter. Third, adaptive behavior
functions of persons with MMR may be adequate in
some areas (e.g., practical skills), but severely deficient
in others (e.g., conceptual). Individuals with severe
forms of mental retardation almost always have pervasive adaptive behavior deficits. Finally, persons with
MMR may ‘‘blend’’ into society after school exit
(Edgerton, 1993) and appear to function normally in
community settings, whereas persons with severe forms
of mental retardation will always ‘‘stand out’’ because
of their physical anomalies and severely pervasive intellectual and adaptive behavior deficits. It is apparent that
the courts have a preconceived notion of what mental
retardation looks like that is inconsistent with what
MMR looks like to professionals in the field who have
training and experience in the field of mental retardation. Unfortunately, this bias is often perpetuated by
forensic experts who testify for the prosecution, who,
more often than not, have little or no training in the field
of mental retardation.

INTERPRETIVE ISSUES IN INTELLECTUAL
ASSESSMENT
The remainder of this article will discuss various
interpretive issues in intellectual assessment that courts
have failed to understand or consider in deciding
Atkins cases. These interpretive issues are: (a) the nature
of intellectual functioning, (b) the Flynn effect, (c) the
concept of measurement error, (d) practice effects, and
(e) the effect of school diagnoses. Each of these issues
will be illustrated with actual Atkins cases and court
decisions.
Nature of Intellectual Functioning
A major issue confronting the courts in Atkins cases
resides in their understanding (or misunderstanding) of
what intelligence tests measure and how well they

App.088

INTELLIGENCE TESTING

measure the construct of intelligence. The courts have
a difficult time comprehending that in a psychometric
world; an individual can have more than one true score.
For example, suppose an individual is administered
a WAIS-III, a Stanford Binet Intelligence Scale-IV
(SB-V), and a Woodcock-Johnson Test of Cognitive
Abilities-III (WJ Cognitive-III). All three tests yield
an overall or composite intelligence score, and an
individual taking all three tests will have three true
scores, one for each test.
In classical test theory, an individual’s true score on
any attribute is entirely dependent on the measurement
process that is used. In the biological and physical
sciences, an individual can have only one true score
and that score is independent of the measurement process that is used. This is known as the absolute true score
(Crocker & Algina, 1986). For example, a laboratory
may analyze an individual’s DNA as part of evidence
presented in court in a capital case. Individuals
have only one true score for their DNA, and the courts
have come to understand this phenomenon. However,
different labs may obtain different results in their
DNA analyses and thus errors of measurement occur.
This does not alter the fact that only one true score
exists, and different labs would never average the results
of various lab tests to derive a true score. Yet, this is
precisely how we interpret true scores on psychological
measures of intelligence and other attributes.
An Atkins case in which I testified brings this interpretive difficulty to light. Darick DeMorris Walker
was convicted of two capital murders and sentenced to
death in Virginia. Walker claimed that the death penalty
violated his Eight Amendment rights that protect him
from ‘‘cruel and unusual punishment’’ because he is
mentally retarded. Walker had a history of belowaverage intelligence and a school history of being placed
into special education classrooms. Eventually, Walker
dropped out of school in the eighth grade with substantial deficits in reading and math skills and a long school
history of disruptive=noncompliant behavior.
Throughout his life, Walker has been administered
no less than seven intelligence tests, each producing
different results. What is particularly notable in these
results is the disparity between Walker’s crystallized
and fluid intelligence. On the various Wechsler tests,
Walker’s Verbal IQ ranged from 70 to 87 with a median
of 78. On various measures of fluid intelligence, his
scores ranged from 61 to 68 with a median IQ score of
63. The question before the court was whether or not
these scores were indicative of mental retardation. There
are two answers to this question which, as expected,
confused rather than enlightened the court. If one takes
the crystallized measures as being indicative of mental
retardation, it is clear that Walker is not mentally
retarded. If one takes the fluid measures as indicators

93

of mental retardation, Walker is, clearly, mildly
mentally retarded.
One approach that could be taken would be to argue
that different measures of intelligence have different g
loadings, or that they vary in how well they measure a
general intelligence factor. It is well established that
measures of crystallized intelligence (vocabulary, verbal
abstract reasoning, and general information) have
much higher g loadings than most measures of fluid
intelligence. As such, it could be argued that measures
of crystallized intelligence in most circumstances
provide better estimates of g than most measures of fluid
intelligence. This, however, could be disputed on the
basis that some measures of fluid intelligence have g
loadings approaching loadings that are produced by
measures of crystallized intelligence (Keith, 2005).
Apart from this argument, the U.S. District Court
(Eastern District) ruled against Walker, stating that he
failed to show by a preponderance of the evidence
that he is mentally retarded. His case was appealed to
the U.S. Fourth Circuit Court of Appeals which vacated
and remanded the District Court’s judgment and
granted Walker an evidentiary hearing to determine
whether he is mentally retarded under Virginia law. It
further ordered that the district court should consider
all relevant evidence pertaining to the developmental
origin, intellectual functioning, and adaptive behavior
aspects of Walker’s claim.
Flynn Effect
It is well established that there has been a substantial
increase in measured intelligence test performance over
time because IQ test norms become obsolete. As such,
intelligence test norms have to periodically be recalibrated to maintain their accuracy in reflecting an individual’s level of intelligence. The general upward trend in
IQ scores has become known as the Flynn Effect, named
after James Flynn who first documented this phenomenon (Flynn, 1984). Based on his extensive review of
the literature, Flynn established that Americans gain
approximately 0.3 IQ points per year or 3 points per
decade in measured intelligence. Thus, an IQ test
normed in 1972 would reflect a 10.8 point gain in IQ
today (36 ! 0.3 ¼ 10.8 points).
The Flynn Effect has a substantial influence on the
number of persons who might be classified as mentally
retarded using a specified cutoff score (Ceci, Scullin, &
Kanaya, 2003). For example, if you used the WISC-R
that was normed in 1972 and specified a cutoff score
of 70 and below, you would identify 2.27% of the population as being mentally retarded using the intellectual
criterion. However, if you used the WISC-III that was
normed in 1989, you would identify 5.48% of the population as being mentally retarded—more than double the

App.089

94

GRESHAM

prevalence rate based on a normal distribution. Based
on the Flynn Effect it is not unusual for an individual’s
IQ score to fluctuate above and below a specified IQ
cutoff that most states used to determine eligibility for
the death penalty (Kanaya, Ceci, & Scullin, 2003).
Flynn (2006) has argued that an individual’s true IQ
score does not change over time, only the norms change.
For instance, suppose you test a girl at age eight with the
WISC-R and she obtains an IQ score of 74. You retest
that same girl at age 12 with the WISC-III and she
obtains an IQ score of 69. There is a five-point difference
between these two IQ scores, with one score being above
the level for mental retardation and the other score
being below that level. The girl’s intelligence, however,
did not change, only the norms changed, separated by
17 years.
The Flynn Effect differentially affects certain
Wechsler scores. For instance, the effect is rather large
for Similarities and Block Design and nonexistent for
Vocabulary and Information (Flynn, 2006). One could
argue that Similarities and Block Design have rather
high g loadings (.81 and .70, respectively), therefore this
must reflect ‘‘real’’ changes in general intelligence.
However, the two subtests that are considered the best
single measures of g (Vocabulary and Information)
remain unchanged by the Flynn Effect.
In summary, Flynn argues that intelligence has not
changed over time, and that changes in measured IQ
reflect the fact that norms start becoming obsolete the
day they are collected. If this is true, then it could be
argued that the Flynn Effect is irrelevant in determining
an individual’s eligibility for the death penalty because it
does not address the level of intelligence, but rather the
accuracy of norms that are not a part of any definition
of mental retardation. However, states use IQ scores
which are inextricably and directly dependant on norms
for their meaning. These scores often are rigidly adhered
to by many states (e.g., Virginia) to determine a person’s
eligibility for the death penalty. The view that the Flynn
Effect does not reflect real changes in intelligence is
moot because the courts often use an absolute level
of intelligence (IQ < 70) to determine whether an
individual is eligible for capital punishment.
Measurement Error
It is obvious to any well-trained psychologist that all
measurement contains error, but this is far from obvious
to the courts in deciding Atkins cases. For example, in
Walker v. True (2006) the United States District Court
stated that use of the standard error of measurement
(SEM) to lower an IQ score could just as likely be used
to raise an IQ score, and that the use of such as statistic
is inherently ‘‘speculative.’’ Clearly, there is nothing
speculative in the standard error of measurement given

that it is entirely dependent on the reliability of the test
that is used to obtain a score. The concept of measurement error goes back to the notion of a psychometric
true score versus an absolute true score described
earlier—a concept that courts have a difficult time
understanding. Experts for the defense in Atkins cases
have been unsuccessful in making courts understand
the band of error concept (plus or minus the SEM)
and the notion of a psychometric true score that falls
within this band of error. Experts for the prosecution
have often downplayed the importance of measurement
error in these cases because it diminishes the credibility
of their testimony (Walker v. True, 2006).
An issue relating to measurement error in these cases
is the selection of the most appropriate estimate of
measurement error: should it be based on internal
consistency estimates, stability estimates, or both? Internal consistency estimates will almost always yield higher
reliability estimates and thus will produce lower SEMs
than stability estimates because stability coefficients
are almost always lower.
These two estimates of measurement error reflect two
different interpretations of test scores. An internal consistency estimate is based on the average interitem correlation in a test and reflects the ratio of true score
variance to total variance (i.e., the reliability index),
and the square root of this index is the reliability coefficient (Suen, 1990). As such, this statistic reflects how
much error is contained in the obtained score and how
well that score estimates the true score. This is known
as the coefficient of internal consistency. Errors of measurement based on stability estimates reflect the fluctuations in test scores obtained at two points in time.
The problem in classical test theory is that one
can have more than one reliability coefficient and thus
have more than one standard error of measurement.
This is inherently self-contradictory (Suen, 1990) and
therefore is more likely to confuse than inform the courts.
Conceptually, what is needed is a coefficient of precision
(Coombs, 1950), which is defined as the correlation
between test scores when examinees respond to the same
test items (internal consistency) over time (stability) and
there are no changes in examinees over time. Unfortunately, this coefficient is a theoretical entity in classical
test theory and no completely defensible way of calculating it is possible. Perhaps the best that can be done at this
time is to indicate that SEMs based on internal consistency estimates contain an individual’s true score at one
point in time, whereas SEMs based on stability estimates
contain an individual’s true score over repeated testings.
Practice Effects
In Atkins cases it is likely that defendants have
been administered intelligence tests repeatedly; often

App.090

INTELLIGENCE TESTING

beginning in their school years. This was true in Atkins,
Walker v. True, and Green v. Johnson. School records in
all of these cases show that these defendants began
taking intelligence tests relatively early in their school
careers because they were referred to special education.
Walker had taken seven intelligence tests by the time his
case came before the United States Eighth District
Court. One argument in Walker v. True made by the
defense was that his IQ scores should be adjusted downward, in part, because of well-known practice effects due
to repeated administrations of the same test. The Court
ruled, however, in Walker v. True that ‘‘Petitioner has
failed to present evidence that such an adjustment
would be anything other than speculation’’ (p. 8).
Practice effects refer to gains in test scores on intelligence tests that occur when an individual is retested on
the same or similar instruments. This is not a speculation but rather a well-established empirical fact. These
gains are due to having been exposed to the same or very
similar test items and not due to any specific performance feedback given by examiners. Practice effects
for the various Wechsler scales from ages 5 to 50 years
show median gains in Verbal IQ of 3 points, Performance IQ of 9 points, and Full Scale IQ of 7 points
(Kaufman, 2003). Walker had taken the WISC-R three
times before the age of 18 and the WAIS-III twice after
the age of 18. Thus, the practice effects on Wechsler
scales beginning at age 9 to 20 (his last WAIS-III) must
have been quite substantial, thereby producing inflated
IQ scores.
In Atkins cases the courts must be made to understand the average practice effect gains in IQ scores and
how these artificially inflated test scores produce an
overestimate of an individual’s true score. This is particularly true when experts from either side administer the
same test within relatively short periods of time, because
the shorter the retest interval, the larger the practice
effect. If we apply the median practice effect to Walker’s
median Full Scale IQ, his IQ goes from 76 to 69; not
considering measurement error. Quite clearly, this is
extremely important in Atkins cases, particularly in
states that inflexibly adhere to IQ < 70 standard for
mental retardation.

SCHOOL DIAGNOSES
A major source of evidence used by courts in Atkins
cases is the documentation of whether or not the defendant had ever been identified by a school as mentally
retarded. This is considered an essential piece of evidence, given that one of the eligibility prongs for a diagnosis of mental retardation is onset prior to age 18. In
Walker v. Virginia, the defendant received special education services during elementary school, first under the

95

label of ‘‘learning disability’’ and later under the label
of ‘‘emotionally disturbed.’’ Walker was never labeled
as being mentally retarded by the Richmond, Virginia
public schools, despite evidencing significantly subaverage intellectual functioning and deficits in conceptual,
social, and practical adaptive skills. A similar educational history was evidenced in the Atkins and Green v.
Virginia cases.
The fact that none of these individuals had
received the label of mental retardation by the public
schools in not unusual, particularly for African
Americans for whom the issue of overrepresentation in
special education programs for the mentally retarded
has been an issue since the late 1970s. A study by
MacMillan and colleagues showed how this mislabeling’’ occured in a series of studies conducted in
California (Gresham, MacMillan, & Bocian, 1998;
MacMillan, Gresham, Bocian, & Siperstein, 1997;
MacMillan, Gresham, Siperstein, & Bocian, 1996).
In one study, MacMillan, Gresham, Siperstein, and
Bocian (1996) selected a sample of 43 students from
grades two, three, and four who had WISC-III IQ scores
of 75 and below. The schools that these students
attended classified 44% of these students as ‘‘learning
disabled’’ (19 students) despite the group having a mean
IQ of 68. Only 14% (six students) were classified as mentally retarded with a mean IQ of 63. The remaining 18
students received no formal classification by schools
and remained in general education. Similar results were
reported by Kanaya, Ceci, and Scullin (2003), who
showed that 48.1% of children with IQs below 70 were
classified as learning disabled (M ¼ 66) and 48.5% were
classified as mentally retarded (M ¼ 64).
Clearly, relying on a school history of being classified
as mentally retarded and receiving special education services under that label is not very reliable in establishing
the onset of mental retardation prior to age 18. Courts
should be presented with evidence such as that cited
by MacMillan, Gresham, Siperstein, and Bocian (1996),
MacMillan, Gresham, Bocian, and Siperstein (1997),
and Kanaya, Ceci, and Scullin (2003) to demonstrate
that the use of the mentally retarded label, especially
for individuals with mild mental retardation, is uncommon and is often replaced with a label of learning
disabled. Unfortunately, courts often take the failure
of schools to diagnose defendants as mentally retarded
to be proof that they are not mentally retarded.

CONCLUSIONS
It is clear that experts in Atkins cases have provided the
court with varying opinions regarding the presence or
absence of mental retardation. This was made particularly clear in the Atkins trial when one expert diagnosed

App.091

96

GRESHAM

Atkins as mentally retarded with an IQ of 59 and the
other expert indicated that he had ‘‘normal intelligence.’’ An issue that continues to confuse the courts
is the nature of mild mental retardation (MMR) as distinguished from more severe forms of mental retardation. It is likely that the courts have a preconceived
notion of mental retardation that frequently does not
include the construct of MMR. Courts are often not
convinced that mental retardation, particularly MMR,
is a relative concept and that an individual’s limitations
have meaning only in terms of social conditions
(Edgerton, 1993). Limitations in intellectual and
adaptive behavior functioning must be interpreted
within the context of a person’s age, culture, and peers
and are not absolute concepts. Courts, on the other
hand, seek to discover ‘‘absolute truths’’ and are often
confounded by arguments that introduce relative
concepts into a legal defense.
Differences in expert opinion may stem from a lack of
understanding by experts of the concept of mental retardation. Most experts for the prosecution in Atkins cases
have little or no training or experience in the field of
mental retardation (Greenspan, 2006). This was the case
in Walker v. True in which the expert had a long history
of testifying in forensic cases, but no formal training
whatsoever in the field of mental retardation.
Another issue that often confuses the courts is the
nature of measurement error and how it can affect the
interpretation of test scores. This is a nonissue with
more severe forms of mental retardation, but a key issue
with MMR. If an individual obtains an IQ of 75 and a
state uses an IQ below 70 for its intellectual criterion
for mental retardation, the prosecution almost always
argues that the person cannot be mentally retarded. This
argument, however, ignores the fact that there is measurement error in all test scores. For most IQ test scores,
the accepted degree of measurement error is five points
meaning that an IQ of 75 could be between 70 and 80.
More confusing is the fact that measurement error can
come from different sources such as internal consistency
and stability reliability estimates. In Walker v. True, the
court considered the concept of measurement error to be
‘‘speculative,’’ and defense experts were unsuccessful in
arguing against this inaccurate notion.
A controversial issue in Atkins cases is the Flynn
effect that shows the mean IQ of Americans increases
over time by about 0.3 points per year and 3 points
per decade (Flynn, 1984). The Flynn Effect can produce
a substantial increase in the number of persons diagnosed with MMR, depending on the date a test was
normed. For instance, if one used the WISC-III that
was normed in 1989 and specified a cutoff of 70 and
below, about 2.27% of the population would be identified as mentally retarded. On the other hand, if one used
the WISC-IV that was normed in 2001, one would

identify approximately 4% of the population as being
mentally retarded. The concepts to be understood in
interpreting the Flynn Effect are twofold: (1) the mean
IQ increases over time (the mean shifts upward), and
(2) intelligence does not change, only the norms change
(i.e., they get ‘‘tougher’’).
Finally, it has been difficult for defendants in Atkins
cases to meet the developmental criterion in a diagnosis
of mental retardation. It must be shown in these cases
that an individual’s mental retardation had an onset
prior to age 18. In many, if not most, Atkins cases, this
has proven difficult because all defendants have been
adults with no prior diagnosis of mental retardation.
Consulting defendants’ school records frequently show
that many of these individuals have a long history of
poor academic performance, retention in grade, and a
history of special education. In Atkins, Walker v. True,
and Green v. Virginia, all defendants had a history of
school difficulties and=or special education, but none
were ever diagnosed as being mentally retarded by
schools. Instead, Walker was diagnosed as ‘‘learning
disabled’’ and ‘‘emotionally disturbed’’ by Richmond,
Virginia schools, and Green was diagnosed as ‘‘speech
and language impaired’’ and ‘‘learning disabled’’ by
the Washington, DC public schools.
It is well-established that schools were and are
reluctant to classify children as mentally retarded,
particularly African-American students since the
1970s (MacMillan & Siperstein, 2002). Schools
frequently assign a more ‘‘palatable’’ label to students
who would otherwise be classified as mentally retarded,
using labels such as ‘‘specific learning disability’’ or
‘‘speech and language impairment.’’ In Atkins cases,
this frequently works against the defense’s efforts
because there is no developmental history of an individual ever being diagnosed as mentally retarded,
thereby making it difficult to prove the developmental
criterion of mental retardation.
Experts testifying for the defense in Atkins cases
should be well prepared to testify about the nature of
mild mental retardation, to be extremely knowledgeable
of psychometric theory and measurement error, to
understand and be able to articulate the Flynn effect,
and to testify about the failure of schools to diagnose
mental retardation and their tendency to use ‘‘softer’’
labels for students who may have been mentally
retarded. Ultimately, the courts will be the final arbiter
of the convincingness of this testimony.

REFERENCES
American Association on Intellectual and Developmental Disabilities.
(2002). Mental retardation: Definition, classification, and systems of
supports (10th ed.). Washington, DC: Author (2002).

App.092

INTELLIGENCE TESTING
American Psychiatric Association. (2000). Diagnostic and statistical
manual for mental disorders (Text revision). Washington, DC:
Author.
Atkins v. Virginia. (2002). 536, U.S. 304, 122, S. CT 2242.
Coombs, C. H. (1950). The concepts of reliability and homogeneity.
Educational and Psychological Measurement, 10, 43–56.
Crocker, L., & Algina, J. (1986). Introduction to classical and modern
test theory. New York: Holt, Rinehart, & Winston.
Edgerton, R. B. (2003). The cloak of competence. Los Angeles:
University of California Press.
Flynn, J. R. (1984). The mean IQ of Americans: Massive gains 1932
to 1978. Psychological Bulletin, 95, 29–51.
Flynn, J. R. (2006). Tethering the elephant: Capital cases, IQ,
and the Flynn effect. Psychology, Public Policy, and Law, 12,
170–189.
Green v. Johnson. United States District Court, Eastern District of
Virginia, No. 2:05 cv 340. (Testimony in October 2006) Death
penalty appeal.
Greenspan, S. (2006). Adaptive behavior in Atkins proceedings. Paper
presented at a symposium at the Annual Meeting of the American
Psychological Association. San Francisco, August 2006.
Gresham, F. M., MacMillan, D., & Bocian, K. (1998). Agreement
between school study team decisions and authoritative definitions
in classification of students at-risk for mild disabilities. School
Psychology Quarterly, 13, 181–191.

97

Kanaya, T., Ceci, S., & Scullin, M. (2003). The difficulty of basing
death penalty eligibility on IQ cutoff scores for mental retardation.
Ethics & Behavior, 13, 11–17.
Kaufman, A. (2003). Practice effects: The clinical café. Bloomington,
MN: Pearson Assessments.
Keith, T. (2005). Using confirmatory factor analysis to aid in understanding the constructs measured by intelligence tests. In D. Flanagan & P.
Harrison (Eds.), Contemporary intellectual assessment: Theories, tests,
and issues (pp. 581–614). New York: Guilford Press.
MacMillan, D., & Siperstein, G. (2002). Learning disabilities as
operationally defined by schools. In R. Bradley, L. Danielson, &
D. Hallahan (Eds.), Learning disabilities: Research to practice
(pp. 287–333). Mahwah, NJ: Erlbuam.
MacMillan, D., Gresham, F. M., Bocian, K., & Siperstein, G. (1997).
The role of assessment in qualifying students as eligible for special
education: What is and what’s supposed to be. Focus on Exceptional
Children, 30, 1–18.
MacMillan, D., Gresham, F. M., Siperstein, G., & Bocian, K. (1996).
The labyrinth of IDEA: School decisions on referred students
with subaverage general intelligence. American Journal on Mental
Retardation, 101, 161–174.
Suen, H. K. (1990). Principles of test theories. Hillsdale, NJ: Erlbaum.
Walker v. True (2006). 399, F. 3d, 327 (4th Cir. 2005).
Wechsler, D. (1972). Wechsler Memory Scale Manual. San Antonio:
Psychological Corporation.

App.093

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

49,

NUMBER

3: 131–140

|

JUNE

2011

Standard of Practice and Flynn Effect Testimony in Death
Penalty Cases
Frank M. Gresham and Daniel J. Reschly

Abstract
The Flynn Effect is a well-established psychometric fact documenting substantial increases in
measured intelligence test performance over time. Flynn’s (1984) review of the literature
established that Americans gain approximately 0.3 points per year or 3 points per decade in
measured intelligence. The accurate assessment and interpretation of intellectual functioning
becomes critical in death penalty cases that seek to determine whether an individual meets the
criteria for intellectual disability and thereby is ineligible for execution under Atkins v. Virginia
(2002). We reviewed the literature on the Flynn Effect and demonstrated how failure to adjust
intelligence test scores based on this phenomenon invalidates test scores and may be in violation of
the Standards for Educational and Psychological Testing as well as the ‘‘Ethical Principles for
Psychologists and Code of Conduct.’’ Application of the Flynn Effect and score adjustments for
obsolete norms clearly is supported by science and should be implemented by practicing
psychologists.
DOI: 10.1352/1934-9556-49.3.131

The Flynn Effect is a well-established psychometric fact documenting substantial increases in
measured intelligence test performance over time.
These increases are not generally believed to reflect
actual gains in the construct of intelligence but,
rather, the creeping obsolesce of test norms (see
Flynn, 1984, 1987). Flynn’s (1984) seminal review of
the literature established that Americans gain an
average of approximately 0.3 IQ points per year or
3 points per decade in measured intelligence. His
subsequent paper published in 1987 showed a similar
increase in measured intelligence worldwide (Flynn,
1987). An intelligence test normed in 1977 and used
today has a population mean of approximately 110
(0.3 3 33 years 5 9.9). A score of 75 today using the
obsolete norms from 1977 is 2.33 SD below the
population mean and is comparable to a score of 65 if
the actual population mean was 100 with an SD of
15. The critical issue for psychologists is which score
reflects most accurately the individual’s current
status compared to the overall population.
Our purpose in this article is to provide a
discussion of the Flynn Effect and describe how

failure to consider it in death penalty cases can
have life or death consequences for individuals with
intellectual disability. First, we provide an overview
of intellectual disability and discuss how so-called
Atkins cases have exclusively involved individuals
having mild intellectual disability rather than more
severe forms. We provide a brief overview of
relevant aspects of measurement theory and tie
this to the legal implications of the Flynn Effect in
death penalty cases. We present three actual Atkins
cases and show how the failure to consider the
Flynn Effect, in part, lead to executions in two of
the three cases. We conclude the article with a
discussion of standards of practice and validity
considerations in employing the Flynn Effect in
capital cases involving individuals with intellectual
disability.
Although widely accepted by scholars, measurement experts, and researchers in the area of
intellectual measurement, why, then, is the Flynn
Effect important for the everyday practice of
clinical assessment? In other words, what practical
difference would it make to clinical practitioners

’American Association on Intellectual and Developmental Disabilities

App.094

131

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

that the population mean changes systematically
with the degree of obsolescence of test norms?
Moreover, because the scores on tests of intellectual
functioning only become meaningful through
comparisons to population means, how can clinicians ensure that these comparisons are statistically
accurate? Failure to consider changes in measured
phenomena or construct over time often can have
dire consequences for individuals, and to not
account for these changes is to deny this reality.
The accurate assessment of intellectual functioning becomes critical in death penalty cases
when determining whether an individual meets the
criteria for intellectual disability, in Social Security
Administration disability determinations (Reschly,
Meyers, & Hartel, 2002), and in eligibility for
special education placement and services (MacMillan, Gresham, Siperstein, & Bocian, 1996). In
these cases, the use of obsolete norms without
appropriate corrections or considerations has enormous consequences for the individual (Flynn, 2010;
Flynn & Widaman, 2008). As pointed out by
Hagan, Drogin, and Guilmette (2008), psychologists assist in thousands of legal determinations in
which the accurate assessment of intellectual
functioning is a central issue.
In 2002, the Supreme Court in Atkins v.
Virginia ruled that it was a violation of the U.S.
Constitution Eighth Amendment’s prohibition
against cruel and unusual punishment to execute
individuals with mental retardation. During the
Atkins trial, two board certified forensic psychologists came to diametrically opposed opinions
concerning whether or not the defendant Daryl
Atkins had intellectual disability. One psychologist
who evaluated Atkins concluded that he had
intellectual disability, with a tested Full-Scale IQ
(FSIQ) of 59 on the Wechsler Adult Intelligence
Scale-III (WAIS-III). Another forensic psychologist testified that Atkins was functioning in the
range of average intelligence. How is it possible
that two board certified forensic psychologists can
come to vastly different opinions concerning the
presence or absence of intellectual disability? As
will be illustrated throughout this article, this is
neither unexpected nor unusual.

Intellectual Disability
Three prongs have guided the diagnoses of
intellectual disability for 70 years (Doll, 1934,
1941): intellectual functioning, adaptive behavior

132

49,

(social competence), and developmental origin.
Although classification criteria and terminology
differ slightly, intellectual disability has been defined
by virtually all organizations and states as significantly subaverage intellectual functioning that
exists concurrently with deficits in adaptive behavior and which has an onset prior to age 18 years.
Most states adopt diagnostic criteria that follow the
definition contained in either the Diagnostic and
Statistical Manual (DSM)-TR (American Psychiatric
Association, 2000) or the definition specified by
the American Association on Intellectual and
Developmental Disabilities—AAIDD (Schalock
et al., 2010). Greenspan (2009) has noted that
the three criteria specified in the DSM and AAIDD
manuals have remained conceptually unchanged
over nearly 5 decades.

Classification Criteria
What has changed, however, are the operational standards for diagnosing an individual as
having intellectual disability based on the criteria
of intellectual functioning and adaptive behavior.
For example, in the 1961 definition of intellectual
disability specified by the American Association on
Mental Deficiency—AAMD, Heber (1961) used an
intellectual functioning criterion of 85 and below
as being indicative of intellectual disability. Twelve
years later, the AAMD lowered the intellectual
functioning criterion to 70 and below, effectively
eliminating 14% of all cases of intellectual disability based on the intellectual functioning criterion (Grossman, 1973).
It is important that both AAIDD and the
American Psychiatric Association recognize that
measurement error of approximately 5 points is
contained in all standardized tests of intelligence
and should be taken into account in diagnosing
intellectual disability. As such, it is possible to
diagnose an individual with intellectual disability
who has an IQ up to 75 if they also have significant
limitations in adaptive behavior and an onset prior
to age 18. One should also realize that there are
over twice as many potential cases of intellectual
disability with IQs between 70–75 (.0475) than
with IQs below 70 (.0222) (Reschly et al., 2002).
The debate in Atkins cases has never been
about individuals with more severe levels of
intellectual disability. It has always been about
persons who may be considered to have mild
intellectual disability. In the AAIDD Manual,

’American Association on Intellectual and Developmental Disabilities

App.095

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

49,

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

Schalock et al. (2010) defined intellectual disability in much the same way as it was defined in the
DSM-TR with two exceptions: (a) AAIDD does
not specify levels of severity and (b) AAIDD
specifies a numerical cutoff score for limitations in
adaptive behavior (i.e., greater than 2 SDs below
the mean) in conceptual, practical, or social
adaptive skills.

Types of Intellectual Disability
A crucial issue in Atkins cases that is often
either misunderstood by the courts or at least is not
made clear by defense attorneys is the nature of
mild intellectual disability as being distinct from
more severe forms. First, mild intellectual disability
has no identified or specified biological etiology,
whereas more severe forms of intellectual disability
often have an identified biological etiology (e.g.,
Down syndrome, fragile X syndrome, Tay Sachs).
Second, mild intellectual disability is most often
diagnosed only at school entry or shortly thereafter,
whereas severe forms of intellectual disability are
often diagnosed at birth or shortly thereafter. Third,
some genuine cases of mild intellectual disability
are not diagnosed by schools or are misdiagnosed as
learning disability (MacMillan et al., 1996). Fourth,
adaptive behavior functioning of persons with mild
intellectual disability may be adequate in some
areas (e.g., practical skills) and severely deficient in
others (e.g., conceptual skills). Individuals with
severe mental retardation almost always have
pervasive deficits in adaptive behavioral functioning. Finally, persons with mild intellectual disability may ‘‘blend’’ into society after school exit
(Edgerton, 1993) in that many are not officially
diagnosed with intellectual disability in the adult
years because they appear to function typically in
community settings, whereas persons with severe
forms of mental retardation will always ‘‘stand out’’
because of their physical anomalies and severe
pervasive intellectual and adaptive behavior deficits. Persons with mild intellectual disability
continue, however, to exhibit significant limitations in reasoning and judgment, and the seemingly
‘‘normal’’ performance usually depends on significant assistance from a benefactor (Edgerton,
Ballinger, & Herr, 1984).
Many courts may have a preconceived notion
of what intellectual disability looks like that is
inconsistent with what mild intellectual disability
looks like to professionals with training and

experience in the field of intellectual disability.
Unfortunately, these preconceived notions are
often perpetuated by forensic experts who testify
for the prosecution and who, more often than not,
have little or no training in the field of intellectual
disability (Olley, 2009).

Measurement Theory and
Intellectual Assessment
A major challenge for any expert witness in
Atkins cases is to explain to courts the nuances of
intellectual assessment and interpretation in understandable terms. Many times, judges, opposing
attorneys, and juries have a difficult time understanding how intelligence tests are constructed,
what they measure, and how they should be
interpreted (Flynn, 2009). For example, in Atkins
cases, it is important for the court to understand
that in a psychometric world, an individual can
have more than one true score for his or her level of
intellectual functioning. This is particularly true in
Atkins cases, where defendants often have taken
different versions of the same test over time (e.g.,
the Wechsler scales) and/or different intelligence
tests (e.g., Stanford Binet, Woodcock-Johnson,
Differential Ability Scales). In many of these cases,
an Atkins defendant may show higher scores on
some intelligence tests and lower scores on others.
This is not unusual and can be due to a host of
factors, such as different norming periods, different
test content, presence or absence of practice effects,
and the degree to which the test measures different
facets of intelligence (Gresham, 2009).
In classical test theory, an individual’s true score
on any attribute is entirely dependent on the
measurement process that is used (Crocker &
Algina, 1986). This is not the case in the biological
and physical sciences, in which an individual can
have only one true score and that score is
independent of the measurement process used. This
is known as the absolute true score. A relevant
example in forensics science is the analysis of a
defendant’s DNA. Individuals can have only one
true score for their DNA, and the courts have come
to understand this phenomenon. It is true that
different labs may sometimes obtain different results
and errors of measurement can occur. This does not
alter the fact that only one true score exists for an
individual’s DNA, and different labs would never
average the results of various DNA lab tests to derive
a ‘‘true DNA score.’’ Yet, this is precisely how we

’American Association on Intellectual and Developmental Disabilities

App.096

133

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

interpret true scores on psychological measures of
intelligence and other attributes.
In classical test theory, an individual can have
many true scores for his or her intelligence
depending on the number of different intelligence
tests administered over his or her lifetime. This
logic has been well accepted in the psychometric
literature for over 100 years (Spearman, 1904). An
Atkins case in which we testified brings this
interpretative difficulty to light (see Walker v.
True, 2006). Darick DeMorris Walker was convicted of two capital murders and sentenced to death in
Virginia. Walker claimed that the death penalty
violated his Eighth Amendment rights to protect
him from cruel and unusual punishment because he
is mentally retarded. Walker had a history of belowaverage intellectual functioning and a school
history of special education placement. Eventually,
Walker dropped out of school in the eighth grade;
he had substantial deficits in reading and math
skills and a long school history of disruptive and
noncompliant behavior.
Seven intelligence tests had been administered
to Walker throughout his lifetime, with each test
producing somewhat different results. On the
various Wechsler tests, Walker’s Verbal IQ (VIQ)
ranged from 70 to 87, with a median of 78. On the
Performance IQ (PIQ) measures, Walker’s scores
ranged from 61 to 68, with a median of 63. The
question before the court in this case was whether
or not these scores were indicative of mental
retardation. If one takes the VIQ measures at face
value, then it is clear that Walker did not meet the
Virginia standard for mental retardation. On the
other hand, if one takes the various PIQ measures
at face value, then it is clear that Walker did meet
the Virginia standard for mental retardation.
Dilemmas such as these are not uncommon in
Atkins cases across the country (Greenspan &
Switzky, 2006).
In any event, the U.S. District Court (Eastern
District of Virginia) ruled against Walker, stating
that he failed to show by a preponderance of the
evidence that he had intellectual disability. His
case was appealed to the U.S. Fourth Circuit Court
of Appeals, which vacated and remanded the
District Court’s judgment and granted Walker an
evidentiary hearing to determine whether he had
intellectual disability under Virginia law. It further
ordered that the District Court should consider all
relevant evidence pertaining to Walker’s developmental origin, intellectual functioning, and adap-

134

49,

tive behavior. The District Court conducted this
evidentiary hearing and again reached the conclusion that Walker did not have intellectual disability. Darick Walker was executed by lethal injection
at Greensville Correctional Center in Virginia on
May 20, 2010.

Legal Implications of the Flynn Effect
There is no doubt that the Flynn Effect can
have substantial legal implications in Atkins cases
in which the presence of intellectual disability for
an individual is being contested. As mentioned
earlier, in all of these cases, the issue focuses on the
category of mild intellectual disability, not more
severe cases. Flynn (2006) used the example of a
boy who was tested twice during his school years. In
1973, he scored 75 on the WISC that was normed
in 1947–1948; thus, the norms were 25.5 years out
of date. In 1975, the boy was tested at age 8 with
the WISC-R, which was normed in 1972, and,
therefore, with norms only 3 years out of date. He
obtained an IQ of 68. The score at age 6 of 75 and
at age 8 of 68 are, in fact, statistically the same
score based on the Flynn Effect because the 1973
score was inflated by 7 points and the 1975 score
was not influenced by the Flynn Effect because of
the recency of the WISC-R norms.
How is this example relevant to present day
Atkins cases? Suppose two defendants were tested in
2004 to provide evidence that would be presented
in Atkins cases. The first defendant was tested with
the WAIS-III that was normed in 1989 and
obtained an IQ of 73. The second defendant was
tested with the WAIS-IV that was normed in 2002
and obtained a score of 69. The first defendant was
convicted and sentenced to death because his score
did not meet the ‘‘bright line’’ of IQ 70 or below,
whereas the second defendant was not sentenced to
death because his IQ of 69 met the state’s bright
line of IQ less than 70. The fact is that both of
these scores for the two defendants are statistically
identical when viewed in light of the Flynn Effect.
This is precisely what happened in a recent
Florida Atkins case (Cherry v. State, 2007). Roger
Cherry was convicted of capital murder and
sentenced to death. On a postconviction appeal,
Cherry claimed he had intellectual disability and,
therefore, was ineligible for the death penalty. His
tested WAIS-III score of 72 did not meet the
Florida bright line criterion of IQ 70 and below,
and the court denied Cherry’s appeal. In fact, when

’American Association on Intellectual and Developmental Disabilities

App.097

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

Cherry took the WAIS-III, the norms were 13 years
out of date, thereby producing a Flynn Effect of
approximately 4 points. Based on the Flynn Effect,
Cherry’s IQ of 72 is actually 68, thereby meeting
the Florida bright line standard. As Flynn (2006)
indicated: ‘‘Failure to adjust IQ scores in light of IQ
gains over time turns eligibility for execution into a
lottery’’ (pp. 174–175).
Some of the illustrations above might be
criticized because they are hypothetical; however,
we next present three actual Atkins cases that show
the real legal ramifications of the Flynn Effect in
death penalty cases. The first case presented in
Table 1 is Darick Walker (previously mentioned),
who was convicted of two capital murders (Walker
v. True, 2006) and executed on May 20, 2010.
Recall that the U.S. District Court ruled twice that
Walker did not have intellectual disability and
upheld his death penalty sentence. Table 1 shows
that Walker’s Wechsler IQs for VIQ, PIQ, and
FSIQ were 70, 85, and 76, respectively. When
Flynn corrections were applied, these scores more
accurately were 66, 81, and 72, respectively, and
clearly placed Walker in the range of mild
intellectual disability based on DSM-TR and
AAIDD intellectual criteria.
The second case presented in Table 1 is Kevin
Green, who was convicted of capital murder, denied a
status of mental retardation in an appeal of the death
penalty (Green v. Johnson, 2006), sentenced to death,
and executed on May 27, 2008. Green’s IQs were 67,
80, and 71 for VIQ, PIQ, and FSIQ, respectively. In
Table 1 Uncorrected and Flynn Corrected Wechsler
Scores for Three Atkins Cases
Scorea

Walkerb

Greenc

Johnstond

VIQ
FVIQ
PIQ
FPIQ
FSIQ
FFSIQ

70
66
85
81
76
72

67
61
80
74
71
65

69
63
89
83
76
71

a

49,

VIQ 5 Verbal IQ, FVIQ 5 Flynn Corrected VIQ, PIQ
5 Performance IQ, FPIQ–Flynn Corrected PIQ,
FSIQ5Full Scale IQ, FFSIQ–Flynn Corrected FSIQ.
b
Based on WAIS-III normed in 1989 and administered in 2004. cBased on WISC-R normed in 1972
and administered in 1991. dBased on WAIS-III
normed in 1989 and administered in 2005.

1991, while a 14-year-old student in fourth grade
(having failed three school grades previously and
described by his teacher as fitting in well socially with
children 4 to 5 years younger), Green was referred for
a psychological evaluation as part of the consideration of special education eligibility. The 1974
version of the Wechsler Scale (WISC-R) was used,
despite the publication of the updated WISC-III in
1991. The FSIQ of 71 was derived from a test with
norms that were 19 years obsolete. The WISC-R
population mean in 1991 was approximately 106.
The score of 71 on the WISC-R in 1991 was 2.33 SDs
below the population mean, clearly exceeding the
traditional standard of intellectual functioning approximately 2 SD below the population mean.
However, the Flynn corrections show that Green’s
scores in comparison to the existing population mean
were 61, 74, and 65, respectively, clearly placing him
in the range of mild intellectual disability based on
the intellectual criterion. Nevertheless, a board
certified forensic psychologist urged the court to
ignore the Flynn Effect because it did not represent
the current standard of practice in psychology (see
later discussion).
Finally, Table 1 shows the Wechsler IQs for
David Johnston, who was convicted of capital
murder in Florida (see Johnston v. State, 1986) and
sentenced to death. Table 1 shows that Johnston’s
IQs were 69, 89, and 76 for VIQ, PIQ, and FSIQ,
respectively. Flynn corrections lower these scores to
63, 83, and 70, respectively, again placing Johnston
in the range of mild intellectual disability based on
the intellectual criterion.
All three of the above cases consistently show
how failure to account for the Flynn Effect can
produce IQs that move defendants out of the range
of intellectual disability on the Wechsler scales. In
2 of the 3 cases (Walker and Green), this failure
contributed to their execution in the state of
Virginia. The third case (Johnston) was before the
Florida Supreme Court; however, Johnston died of
natural causes on Death Row before the Supreme
Court could rule on his case.
Some have questioned whether or not the
Flynn Effect applies reliably to specific individuals,
particularly those who find themselves in Atkins
cases and death penalty appeals (Hagan et al.,
2008). This is, frankly, a specious argument simply
because any individual’s IQ is entirely dependent
upon group mean scores of the standardization
sample. If the group mean has shifted upward, then
the score that meets the intellectual disability

’American Association on Intellectual and Developmental Disabilities

App.098

135

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

standard has likewise increased by the same amount
(Flynn, 1985). If this standardization sample is
obsolete, then any individual score calculated in
reference to the obsolete norms will be inflated by a
factor of 0.3 points per year, or 3 points per decade
from when the test was standardized.
The Flynn Effect has a substantial influence on
the number of persons who might be classified as
having intellectual disability using a specified cutoff
score based on a large scale of the proportions of
persons identified as having intellectual disability
and placed in special education programs. For
example, Kanaya, Ceci, and Scullin (2003) found
that the number of children who were diagnosed
with intellectual disability nearly tripled with the
introduction of the WISC-III (from the WISC-R)
because more and more children obtained an IQ of
70 and below with the comparison to the more
difficult norm. The Flynn Effect produces situations
in which a given individual’s IQ can fluctuate above
and below a specified IQ cutoff that most states use
to determine eligibility for the death penalty (Flynn,
2009; Kanaya et al., 2003). In effect, this is like
playing dice with IQ scores, except the stakes in
Atkins cases are most certainly higher.
Two recent court cases in capital trials applied
the Flynn Effect as well as acknowledging the
standard error of measurement and an intellectual
disability cutoff score at 75 to evidence similar to
that in the Walker and Green cases, leading to
decisions forbidding the death penalty (U.S. v.
Hardy, 2010; U.S. v. Lewis, 2010). It is significant
that these cases were trials in federal district courts,
where the judges are appointed for life, rather than
in state courts, where judges often are elected and
more responsive to public opinion, which frequently
favors strong retribution against capital defendants.
In both of the recent cases, the Flynn Effect was
accepted as a scientific fact, and testimony that the
Flynn Effect is not currently taught in graduate
programs preparing psychologists was essentially
discounted. We can only speculate on whether state
courts will increasingly adopt what we see as clear
scientific evidence cases confirming the Flynn Effect.
We acknowledge that acceptance of the Flynn
Effect will not always yield decisions forbidding the
death penalty. In fact, in both Green and Walker,
the appellants were also found ineligible for the
intellectual disability classification on the adaptive
behavior criterion. It is our impression, however,
that courts, much like practitioners making diagnoses of intellectual disability in school settings, are

136

49,

strongly influenced by the individual’s status on the
general intellectual functioning prong, with decisions about adaptive behavior following rather than
being equally weighted with intelligence in intellectual disability decisions (Reschly & Ward,
1991). Greater weighting of the intellectual prong
also occurs because of less well-developed measures
of adaptive behavior and difficulties with gathering
adaptive behavior information for adults prior to
age 18 (Reschly, 2009).

Standard of Practice and the Flynn Effect
What, then, are practicing psychologists to do
when presented with an Atkins case, and they find
themselves as expert witnesses in courts or in SSI
disability evaluations involving intellectual disability? In other words, what is the appropriate standard
of practice for interpreting IQs in light of the Flynn
Effect? Opinions regarding this issue understandably
vary depending on who is asked that question.
Greenspan (2006) suggested that adjusting an
individual’s IQ in light of the Flynn Effect is
essential. Others have made similar suggestions
based on their analysis of the Flynn Effect in various
reviews of the literature (Ceci & Kanaya, 2010;
Fletcher, Stuebing, & Hughes, 2010; Kanaya et al.,
2003; McGrew, 2010).
Hagan et al. (2008) addressed this issue by
conducting a survey of 358 APA-approved clinical,
counseling, and school psychology program directors. One surprising result was the fact that over one
third (36%) of program directors had either not
heard of the Flynn Effect or were slightly familiar
with the concept. Of the remaining 64% of the
respondents, almost 92% of them indicated they
would never teach students to recalculate IQs based
on the Flynn Effect. Similarly, a survey of 28
Diplomates in School Psychology revealed that
94% of them had never adjusted IQs based on the
Flynn Effect.
Survey results depend heavily on how questions
are worded and the use of context descriptions.
Apparently, Hagan et al. (2008) simply inquired
about subtracting points based on the Flynn Effect
without any description of context or implications.
Under these circumstances the clear majority of the
small proportions of each sample who responded
rejected score adjustments. These results likely would
have been different if the respondents were given SSI
or death penalty contexts, such as those described
above in the Walker, Green, and Johnston cases.

’American Association on Intellectual and Developmental Disabilities

App.099

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

49,

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

Hagan et al. (2008) also reported that primary
source assessment texts and test manuals did not
recommend changing scores. Again, however, context and vested interests likely make a difference.
Moreover, test publishers have a vested interest in
ignoring the Flynn Effect in test manuals because of
the tacit admission attendant to discussing this
phenomenon that tests have a limited shelf life and
need to be updated frequently (Kaufman, 2010; Weiss,
2007, 2010). One exception is the following content
from the WAIS-III Manual (Wechsler, 1997).
Updating of Norms. Because there is a real phenomenon of IQscore inflation over time, norms for a test of intellectual
functioning should be updated regularly (Flynn 1984, 1987;
Matarazzo, 1972). Data suggest that an examinee’s IQ score will
generally be higher when outdated rather than current norms are
used. The inflation rate of IQ scores is about 0.3 points each
year. Therefore, if the mean IQ of the U.S. population on the
WAIS-R was 100 in 1981, the inflation might cause it to be
about 105 in 1997. (pp. 8–9)

Not surprisingly, the most recent WAIS
version does not discuss the Flynn Effect (Wechsler, 2008), perhaps reflecting the rather defensive
denial of Flynn’s criticism of the WAIS-III
standardization sample by a test company official
involved with the development of the Wechsler
scales (Weiss, 2007). To set the record straight, the
Flynn Effect continues to be prominent and well
supported statistically through the most recent
revisions of the Wechsler scales (Flynn, 2009).
Hagan et al. (2008) concluded that adjusting
IQ scores and recalculating scores based on the
Flynn Effect do not represent custom or standard of
practice in professional psychology based on a
survey with a participation rate among those
surveyed. This so-called standard of practice,
however, was based on a survey in which over
one third of the sample responding was fundamentally unfamiliar with the concept at issue—namely,
the Flynn Effect. The majority of the remaining
respondents said they would never teach students to
adjust scores based on the Flynn Effect. This finding
is not scientifically convincing and should not be
taken at face value. The Flynn Effect is a wellestablished measurement phenomenon based on
years of replicated research findings across the
world. The fact that most program directors would
never teach students to interpret scores in light of
the Flynn Effect is to ignore scientific reality and
potentially could be in violation of the Standards for
Educational and Psychological Testing (American
Educational Research Association, 1999).

Perhaps the most well-known and qualified
group of professionals who deal with the diagnosis
and treatment of persons with intellectual disability
are members of the AAIDD. Founded in 1876, this
organization has, through 11 editions of its
diagnostic manual, provided guidance for professionals working in the field of intellectual disability.
Reschly (1992) established that the AAIDD leads
the world, including the DSM, in the development
and refinement of the intellectual disability diagnostic construct. In the User’s Guide of the 10th
edition of the AAIDD Manual, Schalock et al.
(2006) stated that best practices require recognition
of the Flynn Effect when older editions of an
intelligence test are used in assessment or interpretation of an IQ score. The authors go further:
The main recommendation resulting from this work [regarding
the Flynn Effect] is that all intellectual assessment must use a
reliable and appropriate individually administered intelligence
test. In cases with multiple versions, the most recent version
with the most current norms should be used at all times. In cases
where a test with aging norms is used, a correction for the age of the
norms is warranted [italics added]. (pp. 20, 21)

Validity Considerations
Validity is the centerpiece concept in every
aspect of psychological assessment. Validity is an
evaluative judgment of the extent to which
empirical evidence and theoretical explanations
support the adequacy and appropriateness of test
score interpretations and actions (Messick, 1995).
We emphasize that validity is not a characteristic of
a given test, but rather is a property of the meaning
of test scores. Cronbach (1971) argued that what is
validated in psychological testing is the meaning
and interpretation of the test score and the
implications for actions that the meaning entails.
Based on this conceptualization of validity,
what impact does the Flynn Effect have on the
meaning and interpretation of intelligence test
scores? The most obvious implication is that failure
to account for the Flynn Effect in the interpretation
of such scores renders that interpretation inaccurate. For example, interpretation of a WAIS-III
score of 72 administered in 2006 and deciding that
the individual does not meet the criterion of IQ 70
or less would be erroneous. A Flynn correction of
this score, in fact, would yield a more accurate score
of 69, thereby meeting the IQ criterion. It is
unknown how prevalent these validity violations
are in Atkins cases, but we believe this to be a

’American Association on Intellectual and Developmental Disabilities

App.100

137

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

common phenomenon, particularly based on the
Hagan et al. (2008) survey of clinical, counseling,
and school psychology program directors.
The Standards for Educational and Psychological
Testing (American Educational Research Association, 1999) indicate that proper interpretations of
test scores may be compromised by constructirrelevant variance, which is defined as the degree
to which test scores are affected by processes that
are extraneous to the construct being measured. We
argue that the failure to adjust IQ scores based on
the Flynn Effect introduces construct-irrelevant
variance into the proper interpretation of intelligence test scores. Failure to make this adjustment
diminishes the quality and accuracy of test score
interpretation and invalidates the inferences that
can be made from those test scores.
Messick (1995) discussed the issue of consequential validity in his seminal paper on validity of
psychological assessment. Using the language of
Cronbach and Meehl (1955), Messick suggested
that unintended consequences occurring in psychological testing are strands in the nomological
network that should be taken into account in test
score interpretation and use. We maintain that
failure to account for the Flynn Effect in death
penalty cases can produce adverse social consequences for individuals and, thus, invalidate their
test scores. Messick (1995) suggested that:
The primary measurement concern with respect to adverse
consequences is that any negative impact on individuals or
groups should not derive from any source of test invalidity, such
as construct underrepresentation or construct-irrelevant variance. Moreover, low scores should not occur because the
measurement contains something irrelevant that interferes with
the affected persons’ demonstration of competence. (p. 746)

We argue that this same logic also works in the
opposite direction. That is, higher scores should not
occur because the measurement contains something
irrelevant that interferes with an affected person’s
demonstration of lowered intellectual functioning.
The Flynn Effect injects such construct irrelevant
variance into the interpretation of test scores when
professional psychologists do not account for it.
The Flynn Effect and its proper use in
professional psychological practice might be cast in
terms of the value implications to proper test score
interpretation. Value implications are an integral
aspect of proper test score interpretation and often
link the construct being assessed to questions of
applied practice and social policy (Messick, 1995).

138

49,

The proper use of the Flynn Effect in Atkins cases, we
think, captures the essence of what Messick meant
by value implications and proper test score interpretation. To this we would add that Principle 9.08
(Obsolete Tests and Outdated Test Results) of the
‘‘Ethical Principles of Psychologists and Code of
Conduct’’ (American Psychological Association,
2002) states in part: ‘‘(B) Psychologists do not base
such decisions or recommendations on tests and measures
that are obsolete and not useful for the current purpose
[italics added].’’ Failure to account for the Flynn
Effect in test score interpretation in Atkins or any
other cases is a violation of this ethical principle. In
addition, failure to ensure the accurate interpretation of test scores in Atkins cases may possibly be a
violation of the ethical Principle A: Beneficence and
Nonmaleficence of the APA Code of Ethics. The
principle states, in part, ‘‘Psychologists strive to
benefit those with whom they work and take care to
do no harm [italics added].’’ In their professional
actions, psychologists seek to safeguard the welfare
and rights of those with whom they interact
professionally and other affected persons.
Given that Atkins held that it is a violation of
the Eighth Amendment to the Constitution to
execute persons who suffer from intellectual
disability, it would seem that concluding individuals do not have intellectual disability without
considering the Flynn Effect most certainly would
cause undue harm and would violate the Constitutional rights of these individuals.

Conclusion
Standard of practice in the use of the Flynn
Effect in the context of high stakes decisions must
be guided by scientific evidence, not by opinion of
psychologists. As Hagen et al. (2008) found in their
survey, many psychologists are not aware of the
underlying science and likely not cognizant of the
high stakes contexts. Practicing psychologists claim
to use an underlying psychological science as the
foundation for clinical work. Application of the
Flynn Effect and score adjustments for obsolete
norms clearly is supported by science and should be
implemented by professional psychologists.

References
American Educational Research Association.
(1999). Standards for educational and psychological testing. Washington, DC: Author.

’American Association on Intellectual and Developmental Disabilities

App.101

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

49,

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

American Psychiatric Association. (2000). Diagnostic and statistical manual of mental disorders (4th
ed., Text. rev.). Washington, DC: Author.
American Psychological Association. (2002). Ethical principles of psychologists and code of
conduct. American Psychologist, 57, 1060–1073.
Atkins v. Virginia. 536, U.S. 304, 122, S. CT 2242.
(2002).
Ceci, S. J., & Kanaya, T. (2010). ‘‘Apples and
oranges are both round’’: Furthering the
discussion of the Flynn Effect. Journal of
Psychological Assessment, 28, 441–447.
Cherry v. State, 959 So. 2d 702, 712-13 (Fla. 2007)
Crocker, L., & Algina, J. (1986). Introduction to
classical and modern test theory. New York: Holt,
Rinehart, & Winston.
Cronbach, L. J. (1971). Test validation. In R. L.
Thorndike (Ed.), Educational measurement (2nd
ed., pp. 443–507). Washington, DC: American
Council on Education.
Cronbach, L. J., & Meehl, P. E. (1955). Construct
validity in psychological tests. Psychological
Bulletin, 52, 281–302.
Doll, E. A. (1934). Social adjustment of the mental
subnormal. Journal of Educational Research, 28,
36–43.
Doll, E. A. (1941). The essentials of an inclusive
concept of mental deficiency. American Journal
of Mental Deficiency, 46, 214–219.
Edgerton, R. B. (1993). The clock of competence:
Revised and updated. Berkeley: University of
California Press.
Edgerton, R. B., Ballinger, M., & Herr, B. (1984). The
cloak of competence: After two decades. American Journal of Mental Deficiency, 88, 345–351.
Fletcher, J. M., Stuebing, K. K., & Hughes, L. C.
(2010). IQ scores should be corrected for the
Flynn Effect in high-stakes decisions. Journal of
Psychoeducational Assessment, 28, 469–473.
Flynn, J. R. (1985). Wechsler intelligence tests: Do
we really have a criterion of mental retardation? American Journal on Mental Deficiency, 90,
236–244.
Flynn, J. R. (1984). The mean IQ of Americans:
Massive gains 1932 to 1978. Psychological
Bulletin, 95, 29–51.
Flynn, J. R. (1987). Massive IQ gains in 14 nations:
What IQ tests really measure. Psychological
Bulletin, 101, 171–191.
Flynn, J. R. (2006). Tethering the elephant: Capital
cases, IQ, and the Flynn Effect. Psychology,
Public Policy, and Law, 12, 170–189.

Flynn, J. R. (2009). The WAIS-III and WAIS-IV:
Daubert motions favor the certainly false over
the approximately true. Applied Neuropsychology,
16, 98–104.
Flynn, J. R. (2010). Problems with IQ gains: The
huge vocabulary gap. Journal of Psychoeducational Assessment, 28, 412–433.
Flynn, J. R., & Widaman, K. F. (2008). The Flynn
Effect and the shadow of the past: Mental
retardation and the indefensible and indispensable role of IQ. International Review of Research
in Mental Retardation, 35, 121–149.
Green v. Johnson, 2006 U.S. Dist. LEXIS 90644
(E.D. Va.), adopted by, 2007 U.S. Dist. LEXIS
21711 (E.D. Va.), aff’d., 2008 U.S. App. LEXIS
2967 (4th Cir.), cert. denied, 128 S. Ct. 2527
(2008).
Greenspan, S. (2006, spring). Issues in the use of
the ‘‘Flynn Effect’’ to adjust IQ scores when
diagnosing MR. Psychology in Mental Retardation and Developmental Disabilities, 31, 3–7.
Greenspan, S. (2009). Assessment and diagnosis of
mental retardation in death penalty cases:
Introduction and overview of the special
‘‘Atkins’’ issue. Journal of Psychoeducational
Assessment, 16, 89–90.
Greenspan, S., & Switzky, H. (2006). Lessons from
the Atkins decision for the next AAMR
manual. In H. Switzky & S. Greenspan
(Eds.), What is mental retardation? Ideas for an
evolving disability in the 21st century (pp. 281–
300). Washington, DC: American Association
on Mental Retardation.
Gresham, F. M. (2009). Interpretation of intelligence
test scores in Atkins cases: Conceptual and
psychometric issues. Applied Neuropsychology,
16, 91–97.
Grossman, H. J. (Ed.). (1973). Manual on terminology and classification in mental retardation.
Washington, DC: American Association on
Mental Deficiency.
Hagan, L. D., Drogin, E. Y., & Guilmette, T. J.
(2008). Adjusting IQ scores for the Flynn
Effect: Consistent with standard of practice?
Professional Psychology: Research and Practice,
39, 619–625.
Heber, R. (1961). A manual on terminology and
classification in mental retardation (Rev. ed.).
Washington, DC: American Association on
Mental Deficiency.
Johnston v. State. 497 So. 2d 863 (Fla.1986).

’American Association on Intellectual and Developmental Disabilities

App.102

139

INTELLECTUAL AND DEVELOPMENTAL DISABILITIES

VOLUME

Flynn Effect and death penalty

NUMBER

3: 131–140

|

JUNE

2011

F. M. Gresham and D. J. Reschly

Kanaya, T., Ceci, S., & Scullin, M. (2003). The Flynn
Effect and U.S. policies: The impact of rising IQ
scores on American society via mental retardation
diagnoses. American Psychologist, 58, 778–790.
Kaufman, A. S. (2010). ‘‘In what way are apples
and oranges alike?’’ A critique of Flynn’s
interpretation of the Flynn Effect. Journal of
Psychoeducational Assessment, 28, 382–398.
MacMillan, D., Gresham, F. M., Siperstein, G., &
Bocian, K. (1996). The labyrinth of IDEA:
School decisions on referred students with
subaverage general intelligence. American Journal on Mental Retardation, 101, 161–174.
Matarazzo, D. (1972). Wechsler’s measurement and
appraisal of adult intelligence (5th enlarged ed.).
Baltimore: Williams & Wilkins.
McGrew, K. S. (2010). The Flynn Effect and its
critics: Rusty linchpins and ‘‘lookin’ for g and
Gf in some of the wrong places.’’ Journal of
Psychoeducational Assessment, 28, 448–468.
Messick, S. (1995). Validity of psychological assessment: Validation of inferences from persons’
responses and performance as scientific inquiry
into score meaning. American Psychologist, 50,
741–749.
Olley, J. G. (2009). Knowledge and experience
required for experts in Atkins cases. Applied
Neuropsychology, 16, 135–140.
Reschly, D. J. (1992). Mental retardation: Conceptual foundations, definitional criteria, and
diagnostic operations. In S. R. Hooper, G. W.
Hynd, & R. E. Mattison (Eds.), Developmental
disorders: Diagnostic criteria and clinical assessment (pp. 23–67). Hillsdale, NJ: Erlbaum.
Reschly, D. J. (2009). Documenting the developmental origins of mild mental retardation.
Applied Neuropsychology, 16, 124–134.
Reschly, D. J., Myers, T. G., & Hartel, C. R. (Eds.).
(2002). Mental retardation: Determining eligibility
for Social Security benefits. Washington, DC:
National Academy Press.
Reschly, D. J., & Ward, S. M. (1991). Use of
adaptive measures and overrepresentation of
black students in programs for students with
mild mental retardation. American Journal of
Mental Retardation, 96, 257–268.
Schalock, R. L., Borthwick-Duffy, S. A., Bradley, V. J.,
Buntinx, W. H. E., Coulter, D. L., Craig, E. M.,
et al. (2010). Intellectual disability: Definition,
classification, and systems of supports (11th ed.).

140

49,

Washington, DC: American Association on
Intellectual and Developmental Disabilities.
Schalock, R., Buntinx, W., Borthwick-Duffy, Luckasson, R., Snell, M., Tassé, M., & Wehmeyer,
M. (2006). User’s guide: Mental retardation,
classification, and systems of supports,10th Edition: Applications for clinicians, educators, disability program managers, and policy makers.
Washington, DC: American Association on
Intellectual and Developmental Disabilities.
Spearman, C. (1904). General intelligence: Objectively determined and measured. American
Journal of Psychology, 15, 201–293.
United States v. Hardy (2010, November 24). U.S.
District Court Eastern District of Louisiana,
CA No. 94–381.
United States v. Lewis (2010, December 23). Case
No.: 1:08 CR 404. U.S. District Court Northern District of Ohio Eastern Division. (Trial
Opinion)
Wechsler, D. (1997). Wechsler Adult Intelligence Scale
(3rd ed.). San Antonio, TX: Psychological Corp.
Wechsler, D. (2008). Wechsler Adult Intelligence Scale
(4th ed.). San Antonio, TX: Psychological Corp.
Weiss, L. G. (2007). WAIS-III: Technical report,
Response to Flynn. San Antonio, TX: Psychological Corp.
Weiss, L. G. (2010). Considerations on the Flynn
Effect. Journal of Psychoeducational Assessment,
28, 482–493.
Walker v. True (2006, August 30). U.S. District
Court for the Eastern District of Virginia,
Alexandria Division, Case No. 1:03–cv–00764.
Walker v. True (2006). 399 F. 3d, 327 (4th cir,
2005).

Received 10/26/10, first decision 1/19/11, accepted
1/31/11.
Editor-in-Charge: Steven J. Taylor

Authors:
Frank M. Gresham, PhD (e-mail: frankgresham@
yahoo.com), Professor, Department of Psychology,
Louisiana State University, Baton Rouge, LA 70803.
Daniel J. Reschly, PhD, Professor, Department of
Special Education, Vanderbilt University, Nashville,
TN 37203.

’American Association on Intellectual and Developmental Disabilities

App.103

